<html>
<title> - SURFACE TRANSPORTATION REAUTHORIZATION: EXAMINING THE SAFETY AND EFFECTIVENESS OF OUR TRANSPORTATION SYSTEMS</title>
<body><pre>[Senate Hearing 113-499]
[From the U.S. Government Publishing Office]






                                                        S. Hrg. 113-499

                SURFACE TRANSPORTATION REAUTHORIZATION:
                 EXAMINING THE SAFETY AND EFFECTIVENESS
                     OF OUR TRANSPORTATION SYSTEMS

=======================================================================

                                HEARING

                               before the

                 SUBCOMMITTEE ON SURFACE TRANSPORTATION
                  AND MERCHANT MARINE INFRASTRUCTURE,
                          SAFETY, AND SECURITY

                                 of the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              JUNE 3, 2014

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

  				______

                         U.S. GOVERNMENT PRINTING OFFICE 

91-647 PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001













       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
BARBARA BOXER, California            JOHN THUNE, South Dakota, Ranking
BILL NELSON, Florida                 ROGER F. WICKER, Mississippi
MARIA CANTWELL, Washington           ROY BLUNT, Missouri
MARK PRYOR, Arkansas                 MARCO RUBIO, Florida
CLAIRE McCASKILL, Missouri           KELLY AYOTTE, New Hampshire
AMY KLOBUCHAR, Minnesota             DEAN HELLER, Nevada
MARK BEGICH, Alaska                  DAN COATS, Indiana
RICHARD BLUMENTHAL, Connecticut      TIM SCOTT, South Carolina
BRIAN SCHATZ, Hawaii                 TED CRUZ, Texas
EDWARD MARKEY, Massachusetts         DEB FISCHER, Nebraska
CORY BOOKER, New Jersey              RON JOHNSON, Wisconsin
JOHN E. WALSH, Montana
                    Ellen L. Doneski, Staff Director
                     John Williams, General Counsel
              David Schwietert, Republican Staff Director
              Nick Rossi, Republican Deputy Staff Director
   Rebecca Seidel, Republican General Counsel and Chief Investigator
                                 ------                                

      SUBCOMMITTEE ON SURFACE TRANSPORTATION AND MERCHANT MARINE 
                  INFRASTRUCTURE, SAFETY, AND SECURITY

RICHARD BLUMENTHAL, Connecticut,     ROY BLUNT, Missouri, Ranking 
    Chairman                             Member
BARBARA BOXER, California            ROGER F. WICKER, Mississippi
MARIA CANTWELL, Washington           MARCO RUBIO, Florida
MARK PRYOR, Arkansas                 KELLY AYOTTE, New Hampshire
CLAIRE McCASKILL, Missouri           DEAN HELLER, Nevada
AMY KLOBUCHAR, Minnesota             DAN COATS, Indiana
MARK BEGICH, Alaska                  TIM SCOTT, South Carolina
BRIAN SCHATZ, Hawaii                 TED CRUZ, Texas
EDWARD MARKEY, Massachusetts         DEB FISCHER, Nebraska
CORY BOOKER, New Jersey              RON JOHNSON, Wisconsin
JOHN E. WALSH, Montana













                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 3, 2014.....................................     1
Statement of Senator Blumenthal..................................     1
Statement of Senator Blunt.......................................     2
Statement of Senator Thune.......................................    37
Statement of Senator Klobuchar...................................    39
Statement of Senator Fischer.....................................    44
Statement of Senator Ayotte......................................    47
Statement of Senator Rubio.......................................    51

                               Witnesses

Hon. Joseph C. Szabo, Administrator, Federal Railroad 
  Administration, U.S. Department of Transportation..............     4
    Prepared statement...........................................     5
Hon. Anne S. Ferro, Administrator, Federal Motor Carrier Safety 
  Administration, U.S. Department of Transportation..............    17
    Prepared statement...........................................    19
Hon. Cynthia L. Quarterman, Administrator, Pipeline and Hazardous 
  Materials Safety Administration, U.S. Department of 
  Transportation.................................................    22
    Prepared statement...........................................    24
Hon. Gregory D. Winfree, Assistant Secretary for Research and 
  Technology, U.S. Department of Transportation..................    29
    Prepared statement...........................................    31

                                Appendix

Response to written questions submitted by Hon. John D. 
  Rockefeller IV to:
    Hon. Anne S. Ferro...........................................    65
Response to written questions submitted by Hon. Richard 
  Blumenthal to:
    Hon. Joseph C. Szabo.........................................    65
    Hon. Anne S. Ferro...........................................    71
    Hon. Cynthia L. Quarterman...................................    71
    Hon. Gregory D. Winfree......................................    74
Response to written question submitted by Hon. John Thune to:
    Hon. Joseph C. Szabo.........................................    76
    Hon. Anne S. Ferro...........................................    76
Response to written question submitted by Hon. Roy Blunt to:
    Hon. Anne S. Ferro...........................................    79
Response to written questions submitted to Hon. Cynthia L. 
  Quarterman by:
    Hon. John Thune..............................................    80
    Hon. Roy Blunt...............................................    80
Response to written questions submitted by Hon. John Thune to:
    Hon. Gregory D. Winfree......................................    81

 
                         SURFACE TRANSPORTATION
                     REAUTHORIZATION: EXAMINING THE
                      SAFETY AND EFFECTIVENESS OF
                       OUR TRANSPORTATION SYSTEMS

                              ----------                              


                         TUESDAY, JUNE 3, 2014

                               U.S. Senate,
         Subcommittee on Surface Transportation and
           Merchant Marine Infrastructure, Safety, and Security,   
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 9:35 a.m., in 
room SR-253, Russell Senate Office Building, Hon. Richard 
Blumenthal, Chairman of the Subcommittee, presiding.

         OPENING STATEMENT OF HON. RICHARD BLUMENTHAL, 
                 U.S. SENATOR FROM CONNECTICUT

    Senator Blumenthal. Good morning. Welcome, everyone. We 
were--we're just waiting for Senator Blunt, and I'm going to 
begin with an opening statement, and, when he gets here, he can 
make his. And I welcome Senator Klobuchar, and thank her for 
her leadership on these issues.
    We are here at a moment of tremendous promise and peril for 
our Nation's transportation system. Literally, the funding for 
that system expires at the end of September, and there's a need 
to reauthorize the Nation's surface transportation law, known 
as MAP-21, which expires at the end of September. Even before 
then, the Highway Trust Fund will go broke in July, just next 
month. And, fortunately, the appropriate Senate committees are 
moving ahead with those funding proposals. But, the transit 
funding must include rail and must include safety. And that 
brings us, today, to these issues and to hearing from the 
representatives of some of our most important Federal oversight 
agencies when it comes to safety and reliability.
    We're here at a moment of enormous peril and promise. 
Promise, because we have an opportunity to invest in the future 
of our transportation system, grow the economy, expand job 
creation, and achieve a larger vison for our Nation's 
transportation system. But, at the same time, there's 
tremendous peril in the decaying and crumbling infrastructure 
that faces us, literally, every day on our roads, bridges, 
railroads, and other public facilities.
    So, we're here to examine how well the agencies are doing, 
as well as our transportation systems. We need to look at what 
our agencies are doing in their watchdog and oversight roles, 
as well as what our public transportation systems are doing to 
protect safety and reliability.
    For the Pipeline and Hazardous Materials Safety 
Administration, protecting safety and reliability means 
ensuring that transportation of many products and materials is 
done in a way that assures protection of the people who live in 
their environs, as well as the workers who operate them.
    For the Federal Railroad Administration, our hearing today 
means ensuring the safe movement of people and freight on our 
Nation's massive railroad system. The ability to properly 
ensure this mission requires resources as well as rules.
    And that's really true of all of your agencies. Resources 
and rules, and effective enforcement of those rules, is a 
prerequisite to safety and reliability. There are indications 
that some of these agencies have, very simply, been absent from 
what they should be doing, not on the job. I want to make sure 
that we are as rigorous and vigilant as need be to protect 
people who use our railroads as well as other transportation 
systems.
    There are red flags. For example, there have been red 
flags, with Metro-North, which is a railroad much in need of 
attention as well as investment. And I want to make sure that 
both Metro-North and the FRA have learned from the incidents 
that have occurred there.
    And, of course, the agencies include the Federal Motor 
Carrier Safety Administration, which is essential to assuring 
the safe commercial driving workforce that drives our economy, 
as well as the individuals who ride it.
    So, this hearing is about resources and rules. Our job is 
to assure that there are sufficient resources as well as rules, 
but really the rules have meaning only if they're enforced and 
only if scrutiny and oversight works to protect people who rely 
on those rules. And part of our job, in addition to making the 
rules and the laws--the rules of the road and the laws that 
govern those rules--is to assure that they are realistic and 
practical, but also that they're properly funded.
    And I want to hear from all of you, and I look forward to 
hearing from our colleagues on these issues, and turn now to 
the Ranking Member, Senator Blunt.

                 STATEMENT OF HON. ROY BLUNT, 
                   U.S. SENATOR FROM MISSOURI

    Senator Blunt. Well, thank you, Chairman.
    I want to say, Chairman, that as--in the brief time you've 
been Chairman of this committee, you've really brought focus on 
a number of issues. We've had a number of hearings, including 
the one we're going to have today, that I think are very 
important, and your leadership here has made a difference.
    You know, the Commerce Committee does work on all modes of 
transportation, not just highways--railroads, waterways, even 
pipelines. And, you know, from a State like mine, this is 
critical work. If you look at a railroad map of America, or a 
highway map of America, or a river map of America, as I told 
the General Assembly in Missouri the other day, and begin to 
focus on where all three of those things come together, we're 
right in the middle of that. All these things matter 
dramatically to our future, to our economic future, and our 
ability to compete.
    Obviously, there's a lot of discussion going on about the 
highway bill, for a couple of reasons. One is, the one we are 
currently under expires in September, and another one is that 
that funds run dry even before that. What our committee can do, 
and what this subcommittee can do, to get ready for our part of 
that bill is important, the things we can do to draw attention 
to sustainable funding and to additional and innovative funding 
sources, I think, can make a difference here.
    We're now examining how we maintain this system. I'm going 
to be interested today to hear from the Federal Railroad 
Administration and the Pipeline and Hazardous Materials Safety 
Administration on how things are going in the crude-by-rail 
discussion. Obviously, there has been a lot of testing data 
shared recently involving Bakken crude and how we're reacting 
to that. I'll also be interested to hear how this is being 
utilized as we line up the collection that PHMSA is doing and 
how we're going to be ready for that.
    Also, ongoing concerns regarding regulations and 
enforcement programs with the Federal Motor Carrier Safety 
Administration are topics that I hope we hear discussed today. 
And I'll have some questions on that.
    I've heard, from motor carriers of all sizes, that the 
agency really isn't adequately considering the impact of its 
rules and programs. I asked the Secretary, at a hearing we had 
not too long ago, for a response on a couple of specific 
questions that I haven't gotten yet. And hopefully, we'll get 
those covered today.
    I, finally, look forward to hearing from the Office of 
Research and Technology on how research funding might be 
accessible to local communities who are trying to come up with 
innovative and locally driven solutions to their transportation 
problems.
    I'll close by stressing the need to focus on our long-term 
transportation planning, which includes a stable funding 
source, something that every member of the Senate and the 
Congress should be interested in. Great opportunities are out 
there, with the expansion of the Panama Canal, with how we 
collect all of our transportation modes together, how we 
connect them together in the best possible way.
    And I'm pleased we're having this hearing today. And again, 
thanks for your leadership, Chairman.
    Senator Blumenthal. Thank you, Senator Blunt. And thank you 
for your leadership and for your being here today.
    I'm not going to provide lengthy backgrounds as to each of 
your credentials. In the interest of time, I think we'll just 
turn to the testimony. But, we're very pleased to have, today, 
individuals who not only lead significant agencies, but also 
have extraordinary backgrounds and expertise in the areas of 
transportation. So, we thank you for your public service as 
well as for your being here today.
    Perhaps we can begin with Joseph Szabo, who is the 
Administrator of the Federal Railroad Administration.

   STATEMENT OF HON. JOSEPH C. SZABO, ADMINISTRATOR, FEDERAL 
   RAILROAD ADMINISTRATION, U.S. DEPARTMENT OF TRANSPORTATION

    Mr. Szabo. Well, thank you, Mr. Chairman, and to Ranking 
Member Blunt and members of the Subcommittee. I appreciate this 
opportunity to testify today.
    By 2050, our surface transportation system must be ready to 
move an additional 100 million more people, which equals the 
combined population of our four most populous States: 
California, Texas, New York, and Florida. Our freight system, 
meanwhile, will have to annually move an additional 4 billion 
tons of freight, the weight, roughly, of 10,000 Empire State 
buildings. So, imagine if we fail to move all these people and 
all that freight safely, reliably, and efficiently. Imagine the 
negative impact that that could have on business growth, on 
commute times, and on quality of life.
    If we return to a decades-long pattern of under-investing 
in our rail system, there will be negative consequences. Just 
look at the cost of highway and airport congestion, more than 
$140 billion in 2012. And this was driven by current demand, 
not future.
    We have an opportunity, through the GROW AMERICA Act, to 
chart a more sustainable course. We have an opportunity, as the 
title implies, to grow our rail network and grow America's 
transportation capacity to meet future challenges. And the GROW 
AMERICA Act will enable us to do this while driving continuous 
improvement in safety.
    Since Fiscal Year 2004, our rail safety program has reduced 
train accidents by nearly 50 percent, to record low numbers. 
But, we also know from our data that our most vulnerable safety 
area is human error. Today, it accounts for nearly 40 percent 
of train accidents.
    And GROW AMERICA, in several ways, supports our efforts to 
drive continuous safety improvement. For one, the $19 billion 
it would invest in rail safety and rail development programs 
includes $2.3 billion to support commuter rail lines in their 
efforts to install positive train control, the technology that 
is designed to reduce human-error accidents. And it would 
provide us the tools to manage the implementation process 
effectively, including the authority for provisional 
certifications. GROW AMERICA would also give us the authority 
to establish new hours of service regulations based on sound 
fatigue science, a key step towards reducing accidents caused 
by fatigue. And it calls for a national--nationwide rollout of 
confidential close-call reporting systems, allowing us to 
gather data before an accident occurs and develop risk 
mitigation strategies well in advance.
    But, sustained Federal investment in rail network 
enhancements and in research and development has to also be a 
part of the mix. On the rail development side, our bill would 
fund needed repairs, improve existing services, and build new 
corridors. It would invest in the rail passenger connections 
that a record number of Amtrak riders deserve. And it would 
invest in short-line rail infrastructure, safety upgrades to 
bridges, tracks, and signal systems. And it would invest in 
grade crossing improvements and the sealing off of corridors, 
improving network efficiency, reducing the negative impacts of 
rail operations on communities, and enhancing the safe 
transportation of hazardous materials.
    But, our proposal really does even more than that. It 
provides rail, for the first time ever, with predictable, 
dedicated funding to put it on par with other surface 
transportation modes. If you go back to 2009 and 2010, when 
Federal funding for our Passenger Rail Program was made 
available--those years, we received applications requesting 
seven times the available funding. GROW AMERICA will keep us 
moving forward, and not just for 1 or 2 years, but over the 
long term.
    And so, we look forward to working with all of you to 
reverse this pattern of Federal under-investment in our rail 
system, to working together to foster public-private 
partnerships, to incentivize State and local planning, and to 
tackle the backlog of good rail projects, all across the 
country, in need of a Federal funding partner.
    I look forward to your questions.
    [The prepared statement of Mr. Szabo follows:]

  Prepared Statement of Hon. Joseph C. Szabo, Administrator, Federal 
       Railroad Administration, U.S. Department of Transportation
    Mr. Chairman, Ranking Member, and Members of the Subcommittee, 
thank you for the opportunity to appear before you today to discuss the 
Administration's ideas for the next phase of rail policy and investment 
programs.
    The Federal Railroad Administration's (FRA) mission is to enable 
the safe, reliable, and efficient movement of people and goods for a 
strong America, now and in the future. The Administration's 
groundbreaking legislative proposal, the GROW AMERICA Act, sets 
policies in place that will enhance safety, maintain current rail 
services and infrastructure, and expand and improve the rail network to 
accommodate growing passenger and freight demand--all while providing 
new national and regional system planning and development.
    The GROW AMERICA Act creates a new rail account within the 
transportation trust fund to provide predictable, dedicated funding for 
rail and forges new partnerships and better planning through Regional 
Rail Development Authorities. This critical shift will give States and 
localities the certainty they have long required to effectively plan 
and execute projects that will improve transportation infrastructure, 
allow regions and States to achieve their long-term visions for rail 
transportation, and to support economic growth. GROW AMERICA authorizes 
$19 billion over four years to improve rail safety and invest in a 
National High-Performance Rail System. This funding is allocated to two 
new programs aimed at promoting market-based investments to enhance and 
grow rail:

  <bullet> Current Passenger Rail Service Program--Over four years, the 
        Act will provide $9.5 billion to meet current passenger rail 
        service needs, which includes:

    <ctr-circle> $2.6 billion to bring Northeast Corridor 
            infrastructure and equipment into a state of good repair, 
            thus enabling future growth and service improvements;

    <ctr-circle> $600 million to replace obsolete equipment on State-
            supported corridors and to facilitate efficient transition 
            to financial control for these corridors to States;

    <ctr-circle> $3.1 billion to continue operations of the Nation's 
            important long-distance routes, which provide a vital 
            transportation alternative to both urban and rural 
            communities;

    <ctr-circle> $1.8 billion improve efficiency of the Nation's 
            ``backbone'' rail facilities, make payments on Amtrak's 
            legacy debt, and implement Positive Train Control (PTC) on 
            Amtrak routes; and

    <ctr-circle> $1.4 billion to bring stations into compliance with 
            the Americans with Disabilities Act (ADA).

  <bullet> Rail Service Improvement Program--The Act provides an 
        additional $9.5 billion to address future rail service 
        improvements, which includes:

    <ctr-circle> $6.4 billion to develop high-performance passenger 
            rail networks through construction of new corridors, 
            substantial improvements to existing corridors, and 
            mitigation of passenger train congestion at critical 
            chokepoints;

    <ctr-circle> $2.4 billion to assist commuter rail lines in 
            implementing PTC systems;

    <ctr-circle> $500 million to help mitigate the negative impacts of 
            rail in local communities through rail line relocation, 
            grade crossing enhancements, and investments in short line 
            railroad infrastructure; and

    <ctr-circle> $300 million to develop comprehensive plans that will 
            guide future investments in the Nation's rail system and to 
            develop the workforce and technology necessary for 
            advancing America's rail industry.

    Before I dive into the details of the GROW AMERICA Act, it is 
important to quickly look back on the building blocks of the Rail Title 
for this legislative proposal--the Passenger Rail Investment and 
Improvement Act of 2008 (PRIIA) and the Rail Safety Improvement Act of 
2008 (RSIA)--and the reasons why it is critical we continue to invest 
in rail and develop policies to improve rail safety, efficiency, and 
reliability.
Building on PRIIA and RSIA
    PRIIA and RSIA were bipartisan, seminal pieces of legislation that 
broke new ground on rail safety. This Committee did important work in a 
collaborative and forward-thinking way that has had far-reaching 
effects in the rail industry. The rail industry has changed 
dramatically since these two landmark acts were passed in 2008. 
Preliminary data indicates that Fiscal Year 2013 was the safest for the 
rail industry on record. It also saw record ridership, reliability, and 
financial performance for Amtrak across its network. The freight rail 
industry has never been stronger. Historic levels of public and private 
investment have been made in passenger rail equipment, corridor 
upgrades, freight capacity, and safety improvements. Dozens of planning 
studies, environmental reviews, and engineering analyses are underway, 
creating a strong pipeline for future projects.
    FRA is proud of its accomplishments in implementing RSIA and PRIIA, 
particularly in light of the laws' sweeping provisions and FRA's 
simultaneous need to implement the American Recovery and Reinvestment 
Act of 2009 (Recovery Act). The $10 billion provided under the Recovery 
Act and subsequent Fiscal Year (FY) 2010 appropriation far exceeded the 
$3.4 billion authorization envisioned under PRIIA. In addition to this 
funding authorization, PRIIA served as the impetus for several other 
key passenger rail initiatives underway, including improving 
stakeholder collaboration and the methods for appropriately allocating 
costs on the Northeast Corridor and State-supported routes, developing 
standards for the next-generation of passenger locomotives and rail 
cars, furthering cooperative research programs for passenger and 
freight rail, and providing States with consistent guidance for 
planning their future passenger and freight rail services.
    Today, FRA is a very different agency than when PRIIA was passed, 
managing an approximately $20 billion investment portfolio of grants 
and loans. These investments make up more than 200 active projects 
improving the rail network across the country:

  <bullet> California--Over $3.8 billion to construct the first segment 
        of the California high-speed rail network.

  <bullet> Illinois--Over $1.3 billion in improvements to track, signal 
        systems, stations, and rolling stock to reduce trip times and 
        increase performance, passenger comfort, and safety on the 
        Chicago to St. Louis service.

  <bullet> New Jersey/New York--Over $775 million in improvements to 
        the Northeast Corridor in New Jersey and New York, including: 
        upgrades or replacement of catenary, power, track, and signal 
        systems between Trenton and New York; construction of a 
        conflict-free, grade-separated route through the heavily-
        congested Harold Interlocking railroad junction in Queens, New 
        York; and developing the new Moynihan Station transportation 
        facility to increase capacity and relieve congestion at Penn 
        Station.

  <bullet> Washington--Over $750 million to increase frequencies, 
        reduce travel time, and improve performance on the Pacific 
        Northwest Rail Corridor.

  <bullet> Connecticut--Over $190 million to increase capacity and 
        improve performance on the New Haven--Hartford--Springfield 
        line.

  <bullet> Missouri--Over $22 million to construct a second railroad 
        bridge over the Osage River (the existing bridge is single 
        tracked), which will eliminate a significant passenger and 
        freight bottleneck on the route between St. Louis and Jefferson 
        City.

    This portfolio of investments is having a substantial impact on the 
Nation's rail system: 6,000 corridor miles are being improved, 30 
stations are being upgraded, and hundreds of new passenger cars and 
locomotives are being procured. These projects will improve the 
customer experience by reducing trip times, improving reliability, 
adding additional frequencies, and making stations and equipment more 
comfortable and accessible. Collectively, these projects represent the 
foundational elements to fulfill the long-term vision for sustainable 
rail improvements envisioned by the States and Amtrak. Yet these 
projects only represent a small portion of the investments needed for a 
21st century passenger and freight rail network that will meet growing 
market demand.
    Good Federal policymaking contributed greatly to these recent 
accomplishments, and FRA is proud of the job we have done implementing 
the policies laid out by Congress. However, these achievements do not 
mean we can declare victory-much more needs to be done if we are to 
meet the transportation challenges facing our country in the 21st 
century, which include:

  <bullet> Population growth--By 2050, the U.S. Census Bureau projects 
        that an additional 100 million people will reside in the United 
        States. The vast majority of this growth will be concentrated 
        in a small number of ``megaregions.'' The U.S. DOT and 
        Department of Commerce have found that 40 tons of freight is 
        moved through the U.S. for each resident. Thus, this population 
        increase will mean an extra 4 billion tons of freight moved 
        each year, an increase of 35 percent over 2010 levels.\1\
---------------------------------------------------------------------------
    \1\ U.S. Department of Transportation, U.S. Department of Commerce, 
Commodity Flow Survey.

  <bullet> Congestion and Mobility--Highway and aviation congestion 
        continues to rise, with an estimated economic impact growing 
        from $24 billion in 1982 to $121 billion in 2011 in lost time, 
        productivity, and fuel.\2\ In many places with the worst 
        congestion, expanding airports and highways is difficult, as 
        land is limited and environmental/community impacts are 
        significant.
---------------------------------------------------------------------------
    \2\ Texas Transportation Institute, 2012 Urban Mobility Report, 
December 2012.

  <bullet> Energy consumption--In 2010, the United States used more 
        than 13 million barrels of oil every day for transportation. 
        U.S. citizens consume nearly twice the oil per capita as 
        citizens of Organization for Economic Cooperation and 
        Development (OECD) member nations, and approximately 55 percent 
        of this oil is imported.\3\
---------------------------------------------------------------------------
    \3\ U.S. Central Intelligence Agency, World Factbook: United 
States, August 1, 2012.

  <bullet> Energy costs--The inflation-adjusted cost of oil increased 
        129 percent from 1990 to 2010. As a result, Americans spent 
        $630 million more per day on oil for transportation than they 
        did 20 years earlier--an average annual increase of nearly $750 
        for every American. The Energy Information Administration 
        expects crude oil prices to rise an additional 50 percent 
        between 2011 and 2035.\4\
---------------------------------------------------------------------------
    \4\ U.S. Energy Information Administration, AEO2012 Early Release 
Overview, January 23, 2012.

  <bullet> Environmental protection--The 2012 Inventory of U.S. 
        Greenhouse Gas Emissions and Sinks found that the U.S. emitted 
        10.5 percent more greenhouse gases in 2010 than it did in 
        1990.\5\ Thirty-two percent of all greenhouse gas emissions are 
        now from the transportation sector.
---------------------------------------------------------------------------
    \5\ U.S. Environmental Protection Agency, Inventory of U.S. 
Greenhouse Gas Emissions and Sinks: 1990-2010, April 2012.

    In addition to helping address these transportation challenges, it 
is clear that the American people want rail as a viable transportation 
---------------------------------------------------------------------------
choice:

  <bullet> Ridership--Demand for passenger rail is surging across the 
        United States. Ridership levels have set new records in ten of 
        the past eleven years. In FY 2013, Amtrak carried a record 31.6 
        million passengers, including 15.4 million passengers on its 
        State-supported routes (another record). These ridership levels 
        are being achieved even before the substantial service 
        improvements funded in recent years begin to come online. Once 
        new trains are added and trip times and delays are reduced, the 
        system will attract even higher levels of ridership.

  <bullet> Changing Travel Habits--Reports show that since 2005, 
        Americans have been driving fewer miles each year. In 2011, the 
        average American drove six percent fewer miles than they did in 
        2004. What's even more significant is that studies show the 
        trend away from driving is being led by youth. Between 2001 and 
        2009, Americans ages 16 to 34 decreased their average number of 
        vehicle-miles traveled by 23 percent and increased their 
        passenger miles traveled on trains and buses by 40 percent. 
        Factors causing these changes may include new communication 
        technology, shifts in driving laws, and higher fuel prices. And 
        while the Great Recession had some role in influencing habits, 
        research indicates that travelers will continue to look for 
        transportation alternatives even as the economy recovers.\6\
---------------------------------------------------------------------------
    \6\ U.S. Public Interest Research Group and Frontier Group, 
Transportation and the New Generation: Why Young People Are Driving 
Less and What It Means for Transportation Policy. April 5, 2012

  <bullet> Funding Demand--Nearly every region in the U.S. has 
        demonstrated demand for investments in passenger rail services. 
        Between August 2009 and April 2011, FRA evaluated nearly 500 
        High-Speed Intercity Passenger Rail Program applications 
        submitted by 39 States, the District of Columbia, and Amtrak, 
        requesting more than $75 billion for rail projects. In the 
        absence of recent HSIPR appropriations, prospective applicants 
        have also turned to the Transportation Investment Generating 
        Economic Recovery (TIGER) program, which has awarded more than 
        $800 million for rail projects through the first five rounds of 
---------------------------------------------------------------------------
        funding.

  <bullet> Proven Public Benefits--Strengthening passenger rail 
        services can help balance the Nation's transportation network, 
        as demonstrated on the Northeast Corridor (NEC). Since the 
        introduction of the Acela service 10 years ago, Amtrak has 
        almost tripled its air/rail market share on the NEC, carrying 
        75 percent of travelers between New York and Washington.\7\ 
        These changing travel patterns can free airport capacity for 
        more cost-efficient long-distance flights.
---------------------------------------------------------------------------
    \7\ Amtrak, ``State-Supported Corridor Trains, FY2011-12,'' April 
2012.

    The rail industry is growing and safety is improving. The GROW 
AMERICA Act includes policies and predictable, dedicated funding that 
will encourage economic growth, improve safety, mitigate negative 
impacts on communities, and build the rail network America deserves. 
The GROW AMERICA Act sets five key priorities for rail, which I will 
---------------------------------------------------------------------------
discuss in detail:

  1.  Enhancing America's world-class rail safety.

  2.  Modernizing our rail infrastructure.

  3.  Meeting the growing market demand.

  4.  Promoting innovation.

  5.  Ensuring transparency and accountability.
Priority 1: Enhancing World Class Safety
    FRA's top priority is safety, and FY 2012 was the safest year on 
record, with preliminary data from FY 2013 indicating it will be even 
better than FY 2012's record.
    Since FY 2004:

  <bullet> Total train accidents have declined by nearly 47 percent.

  <bullet> Total derailments have declined by 46 percent.

  <bullet> Total highway-rail grade crossing accidents have declined by 
        35 percent.

    These safety improvements resulted in 15-percent fewer fatalities 
overall (895 fatalities to 759 fatalities--96 percent of which are 
trespassing or grade crossing related), 59-percent fewer employee 
fatalities (22 fatalities to 9 fatalities), and 7-percent fewer total 
injuries (9,367 injuries to 8,675 injuries) over 10 years.
    The table below also illustrates a decade of safety improvement.

--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                       FY 2004   FY 2005   FY 2006   FY 2007   FY 2008   FY 2009   FY 2010   FY 2011   FY 2012   FY 2013
--------------------------------------------------------------------------------------------------------------------------------------------------------
Total Accidents/Incidents                               19.039    18.093    17.525    17.298    16.908    16.874    16.697    16.072    15.194    15.028
--------------------------------------------------------------------------------------------------------------------------------------------------------
Human Factor Caused Train Accidents                      1.721     1.648     1.380     1.297     1.230     1.041     0.949     0.995     0.921     0.900
--------------------------------------------------------------------------------------------------------------------------------------------------------
Track-Caused Train Accidents                             1.314     1.398     1.318     1.258     1.094     1.039     0.974     0.955     0.851     0.744
--------------------------------------------------------------------------------------------------------------------------------------------------------
Equipment-Caused Train Accidents                         0.548     0.499     0.433     0.418     0.435     0.368     0.370     0.342     0.291     0.276
--------------------------------------------------------------------------------------------------------------------------------------------------------
Total Signal/Misc.-Caused Train Accidents                0.692     0.707     0.641     0.506     0.497     0.483     0.494     0.467     0.427     0.432
--------------------------------------------------------------------------------------------------------------------------------------------------------
Rate per million train miles                             4.024       3.8     3.797     3.523      3.24     2.986       2.9     2.881     2.773     2.697
--------------------------------------------------------------------------------------------------------------------------------------------------------
Non-Accident Hazmat Releases                             1.387     1.398     1.147     1.221     1.227     1.149     1.063     1.079     0.933     0.933
--------------------------------------------------------------------------------------------------------------------------------------------------------
* Accident/Incident, Train Accident, and Highway-Rail Incident Numbers Normalized by Million Train-Miles for Fiscal Year, Non-Accident Hazmat Releases
  Normalized by 200 Million Hazmat Ton-Miles for Fiscal Year.

    These improvements are impressive in their own right, but 
especially if you consider the regulatory workload that FRA received 
from RSIA and passenger and freight rail's growth during this same 
time. RSIA mandated that FRA, as the Secretary's designee, complete an 
unprecedented 42 tasks, including final rules, guidance documents, 
model State laws, studies, and reports as well three types of annual 
reports and hundreds of periodic accident reporting audits.
    Thirty-one of the 42 tasks are complete, and the rest are in the 
pipeline progressing towards completion. Appendix 1 lists the 
rulemakings, non-periodic reports and studies, guidance, and model 
State laws that FRA has completed as of the time of this writing. FRA's 
regulatory program improves safety by developing rules based on facts, 
incident and accident causation analysis, comparison of alternative 
mitigation measures, and cost-beneficial solutions. FRA rulemaking 
considers current and future industry capabilities, compliance burden 
and cost, and other economic and social realities. Within this context, 
FRA will continue to attempt to meet statutory milestones with its 
available resources.
    The GROW AMERICA Act charts the course for continuous safety 
improvement throughout the industry. The proposal contains $2.3 billion 
over four years to help commuter rail lines deploy and implement RSIA-
mandated PTC systems, a type of technology designed to prevent: (1) 
over-speed derailments, (2) train-to-train collisions, (3) incursions 
into established roadway work zones, and (4) movement of a train 
through an improperly aligned switch. The proposal also enables FRA to 
grant merit-based extension of the PTC implementation deadline and to 
authorize provisional certification of PTC systems on individual 
railroads. The proposal also allows alternative methods of improving 
rail safety in lieu of PTC, where the alternatives provide an 
appropriate level of risk mitigation with respect to the functions of a 
PTC system. This permits FRA to focus the burden of PTC system 
implementation on the most dangerous mainlines and allow a more 
appropriately-tailored reduction of risk on mainlines covered by the 
current statutory mandate to implement PTC systems. Additionally, the 
proposal promotes uniform operating rules for the industry by 
authorizing the Secretary to require harmonization of railroad 
operating rules in certain small geographic areas with joint operations 
governed by two or more host railroads. The proposal also addresses the 
persistent challenge of fatigue by enabling FRA to replace current 
inadequate statutory requirements on hours of service with regulations 
grounded with scientific evidence.
Improving the Safety of Hazardous Materials Transported by Rail
    The GROW AMERICA Act will improve the safety of hazardous materials 
transported by rail. There are three key components to that success: 
PTC implementation, rail development and investment, and research and 
development.

1.  PTC

    a.  Advances PTC implementation as quickly and safely as possible

      i.  More detail is provided in the following section.

2.  Rail Development

    a.  Investments in safety--Contains grant programs for rail safety 
            improvements, and to mitigate negative impacts of increased 
            freight traffic on communities through projects such as:

      i.  Rail line relocation projects

      ii.  Grade crossing improvements (which reduce risk for train/
            vehicle collisions)

      iii.  Sealed corridors--overpasses/underpasses (The safest grade 
            crossing is one that doesn't exist.)

    b.  Short Lines--Invests in short line infrastructure through 
            projects such as:

      i.  Bridge upgrades

      ii.  Track integrity (286,000-pound loads)

      iii.  Signal upgrades

    c.  Improves RRIF--(1) authorizes appropriations to pay for the 
            Credit Risk Premium

       i.  PTC is an eligible expense for RRIF.

3.  Research and Development (R&D)

    a.  Next Generation of Rail Safety Technology--Advances the next 
            generation of rail safety through imperative investments in 
            R&D, including automatic track inspection technology

    b.  Improves Transportation Technology Center (TTC)--The planning 
            section includes improvements to TTC, including help to 
            train first responders and conduct imperative R&D projects 
            to improve rail safety.
Current Status of PTC Implementation
    A critical element of RSIA is the mandate to implement PTC systems, 
which would mitigate or prevent many types of future train accidents 
caused by human factors. Past train accidents caused by human factors 
that would have been prevented by PTC include: (1) the over-speed 
derailment of a commuter train in 2013 at Spuyten Duyvil Station, 
Bronx, New York; (2) the head-on collision of a commuter train with a 
freight train in 2008 at Chatsworth, California; and (3) the collision 
of a freight train with standing on-track equipment, due to a 
misaligned switch, and the resulting chlorine release in 2005 at 
Graniteville, South Carolina. These three PTC-preventable accidents 
killed 38 people and injured many more. Under the RSIA mandate, briefly 
stated, each Class I railroad must install a PTC system governing train 
operations on its mainline routes carrying toxic by inhalation 
material, and each railroad providing regularly scheduled intercity 
passenger or commuter service must install a PTC system on its 
mainlines.
    FRA strongly believes in the deployment of PTC by each individual 
railroad at the earliest practical date consistent with schedule delays 
arising from resolution of the individual railroad's unique technical 
and programmatic issues, in order to gain the safety benefits that PTC 
can offer. However, the current, statutorily mandated deadline of 
December 31, 2015, for completion of PTC installation will not be 
reached by many railroads subject to the mandate for a number of 
reasons. In addition to the technical and programmatic challenges 
outlined in FRA's August 2012 Report to Congress ``Positive Train 
Control: Implementation Status, Issues, and Impacts,'' another issue 
has arisen regarding PTC communications towers deployment, a matter 
under the jurisdiction of the Federal Communications Commission (FCC). 
Deployment of PTC before these issues have been fully addressed could 
both adversely affect safety and have a negative impact on system 
efficiency. Given the dependence of the Nation on rail to move goods 
and services (40 percent by ton-miles of all U.S. freight moves are by 
rail), either of the preceding prospects is unacceptable. DOT's surface 
transportation bill would grant FRA the tools needed to advance 
implementation in timely manner.
    We will continue to act as a technical resource to the FCC as that 
commission weighs and evaluates the complex, and often conflicting 
demands, of the railroads, as well as other licensed stakeholders, 
entities seeking licenses, the general public, communication system 
manufacturers, and local, State, and Tribal Governments. While FRA can 
act as a technical resource for the FCC on PTC technologies, 
ultimately, the programmatic and policy decisions associated with 
spectrum allocation and communications tower construction are solely in 
the purview of the FCC.
    It is important to note that there is only a limited number of 
qualified technical staff available to the railroads, system suppliers, 
and FRA to support the design, manufacture, deployment, and 
certification of PTC systems. FRA has little or no ability to control 
the procurement of engineering services and equipment or its price. 
This is driven by the marketplace; for those items that are in short 
supply, the lack of supply has driven up prices. This, in turn, results 
in higher implementation costs to the railroads.
    To support test oversight and certification, which is the only 
element over which FRA can exercise control, FRA has created a 
dedicated PTC staff, the PTC Branch. Even with that staff in place, FRA 
nonetheless depends heavily on the vendors and railroads in the 
certification process. As a matter of practicality, the proactive 
participation and good faith efforts of the vendors and railroads to 
ensure system safety through the entire design, implementation, and 
operation of the system are necessary not only for timely certification 
of a system, but also to ensure that the level of safety oversight is 
adequate relative to the system complexity. FRA staffing needs are 
therefore heavily dependent on the technology deployed, the 
capabilities of individual inspectors, as well as the level of effort 
and degree of objective safety oversight being expended by the vendors 
and railroads. The PTC Branch consists of eight regional specialists 
(one per region), two senior specialists, and a supervisor dedicated to 
PTC system certification and safety oversight. This group is augmented 
by a senior scientist and senior electronics engineer, two senior 
signal engineers, and contract engineering support as required.
    Commuter rail operation implementation efforts are further 
complicated by their financial positions. Commuter railroads are 
generally cash-strapped and unable to attain certain necessities for 
implementation, such as communications spectrum. For example, system 
procurement and deployment costs just for Southern California Regional 
Rail Authority (Metrolink), operating in the Los Angeles basin, are 
exceeding $210 million. These costs are representative of the more than 
30 intercity passenger and commuter railroads required to implement 
PTC.
    The GROW AMERICA Act addresses critical PTC funding issues by 
establishing predictable and dedicated Federal funding for rail 
programs, similar to other modes of transportation. Congress has for 
decades funded highway infrastructure and safety, transit, and aviation 
programs through multi-year authorizations that provide guaranteed 
funding; this enables States, local governments, and other stakeholders 
to plan and make large-scale infrastructure investments on a year-to-
year basis.
    The GROW AMERICA Act advances PTC implementation as quickly and 
safely as possible by:

  <bullet> Authorizing $2.4 billion over the four-year life of the bill 
        to implement PTC on passenger railroads, which will also 
        benefit freight transportation on shared corridors.

  <bullet> Requiring establishment of revised implementation schedules 
        for PTC systems that reflect the technical and programmatic 
        issues facing individual railroads, a mechanism for making 
        railroads accountable for implementation.

  <bullet> Allowing provisional operation of PTC systems in full 
        revenue service prior to full PTC system certification.

  <bullet> Allowing alternative methods of protection in lieu of PTC 
        systems where the alternative methods will not decrease safety 
        and will provide appropriate risk mitigation against PTC-
        preventable accidents.

  <bullet> Advancing coordination between DOT and FCC to assess 
        spectrum needs and availability for implementing PTC systems.

    FRA will prioritize funding provided under GROW AMERICA based on 
levels of risk to the traveling public so commuter railroads that have 
the greatest risk exposure will be able to install and obtain PTC 
system protection first.
    FRA, in selecting the recipients of grants for eligible projects, 
will consider the following factors:

  <bullet> The scope of PTC system components necessary including the 
        number of locomotives owned by the eligible recipient, the 
        number of wayside miles owned by the eligible recipient, the 
        number of PTC systems with which the eligible recipient's PTC 
        system must be interoperable; the scale of the communications 
        infrastructure the eligible recipient requires to support PTC 
        system operations; and the number of modifications to 
        dispatching and back office systems required to support PTC 
        system operations.

  <bullet> The extent to which the applicant has demonstrated a clear 
        need for Federal financial assistance.
  <bullet> The overall completeness and quality of the application, 
        including the comprehensiveness of its supporting 
        documentation.

  <bullet> The extent of prior PTC implementation activities.
Nationwide Rollout of C\3\RS
    FRA is implementing a voluntary, Confidential Close Call Reporting 
System program (C\3\RS) for railroads and their employees to report 
close calls without receiving disciplinary action. The GROW AMERICA Act 
proposes expanding the C\3\RS from a limited pilot project to a nation-
wide rollout. Data from C\3\RS pilot sites show promising results. 
Rigorous evaluation of one of the most mature pilot sites demonstrated 
that C\3\RS contributed to a 70-percent reduction in certain accidents. 
These results demonstrate the potential this program has to 
significantly improve safety. Reductions in accidents come from a 
proactive culture of safety that uses real data far beyond that which 
can be pulled from accident investigations on a reactive basis. 
Effective safety oversight is helped by having accurate data. The 
magnitude of the information provided from proactive programs like 
C\3\RS in comparison to traditional data from accidents and injuries is 
illustrated below:

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Priority 2: Modernizing Rail Infrastructure
    Past generations of Americans invested heavily to build the 
infrastructure we rely on today. For example, most segments of the 
Northeast Corridor were initially built over a century ago. Maintaining 
and modernizing these assets will reduce long-term costs and result in 
safer, more reliable, and more efficient rail transportation. The GROW 
AMERICA Act will build upon previous investments made under the HSIPR 
Program, the Department's TIGER Program, and other Federal and State 
funding to modernize America's rail infrastructure. Approximately 40 
percent of the funding authorized for rail under the GROW AMERICA Act 
is dedicated for one-time investments to address the substantial 
backlog of deferred infrastructure projects across our rail system. A 
few of these key rail infrastructure priorities include:

  <bullet> ADA Compliance--The GROW AMERICA Act authorizes $1.4 billion 
        to bring all Amtrak-served rail stations into compliance with 
        the ADA. The Obama Administration is strongly committed to 
        rectifying this issue--it is imperative that the Nation's rail 
        system be accessible and comfortable for all Americans.

  <bullet> Infrastructure Backlog--The GROW AMERICA Act authorizes 
        funding to significantly reduce the backlog of state of good 
        repair needs on the Northeast Corridor. Addressing this backlog 
        is critical to maintaining and improving current passenger rail 
        services.

  <bullet> Obsolete Equipment--The GROW AMERICA Act authorizes funding 
        to replace aging and obsolete equipment on the Northeast 
        Corridor, State-supported routes, and long distance services. 
        Many of the rail cars and locomotives in service across the 
        country are operating at or past their useful lives, leading to 
        higher maintenance costs and reduced performance levels. FRA 
        and Amtrak have started to replace this aging equipment through 
        HSIPR grants and RRIF loans, however, a significant need still 
        remains. New rolling stock will not only lower operating and 
        maintenance costs, but also result in better reliability, 
        improved passenger comfort and amenities, and ultimately better 
        position rail services for long-term economic success.

  <bullet> Platforms - The GROW AMERICA Act would standardize passenger 
        equipment and platform heights to increase interoperability of 
        services and equipment, as well as better provide for safe 
        boarding and alighting.
Priority 3: Meeting Growing Market Demand
    Since 2009, FRA and its State and private partners have invested 
nearly $60 million in planning studies to establish a pipeline of 
future rail projects. These studies and independent planning efforts 
led by the States have resulted in a pipeline of more than $20 billion 
worth of projects that are already underway or ready for construction. 
The GROW AMERICA Act authorizes the funding required to make market-
based investments to turn these studies into improved and new services.
    The Nation requires seamless, intermodal transportation networks in 
order to move people and goods efficiently and effectively--and 
achieving that goal requires improved transportation-related 
coordination among Federal, State, and local entities. To achieve these 
goals, the GROW AMERICA Act will authorize DOT to establish Regional 
Rail Development Authorities (RRDAs) in consultation with state 
governors. RRDAs will have the power to plan for and undertake regional 
corridor development activities and be an eligible recipient of certain 
grants.
    The Railroad Rehabilitation and Improvement Financing (RRIF) loan 
program makes additional financing available to stakeholders to: 
acquire, improve, and rehabilitate intermodal or rail equipment and 
facilities; refinance outstanding debt; and develop or establish new 
intermodal or railroad facilities. In an effort to make RRIF more 
accessible to short line railroads, the GROW AMERICA Act enhances the 
program by authorizing grants under the Local Rail Facilities and 
Safety program to fund credit risk premiums (CRP) for capital short 
line railroad improvements. The Act also authorizes appropriations to 
pay for the CRP, and caps maximum RRIF share at 80 percent of total 
project costs for projects greater than $100 million that received a 
subsidized CRP.
    Meeting market demand also means meeting communities' needs as they 
see increased rail traffic. The GROW AMERICA Act authorizes a grant 
program under the Rail Service Improvement Program that would 
competitively award grants for projects that mitigate the negative 
impacts of increased rail traffic on communities through: (1) the 
relocation of rail lines from busy or populated downtown areas; (2) 
grade crossing improvements that could lead to quiet zones; and (3) 
grade separations that protect trains and vehicular traffic while 
preventing trespassing deaths.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Priority 4: Promoting Innovation
    FRA has consistently made gains in safety using advanced research 
and development. For example, in 2013, the Track Safety Standards for 
high-speed rail were substantially updated by adding innovations for 
combinations of track geometry irregularities and high cant deficiency 
operation. The procedures for qualifying track and equipment were 
changed extensively. FRA may also at some future date revise track 
safety standards for conventional speed operations of both freight and 
passenger equipment through similar use of computer modeling of track 
and equipment performance, service operation and test data, and other 
research.
    Building on previous successes in safety risk reduction and 
improved safety culture, the GROW AMERICA Act authorizes additional 
funding for research and development to improve safety and develop new 
technologies. FRA plans to continue its innovative research into 
railroad employee fatigue, distraction and situational awareness. The 
outcomes will be used to improve hours of service regulations, reduce 
stop signal violations, and ensure new technology does not have a 
negative effect on safe operations.
    FRA plans to investigate the technical challenges related to shared 
corridors for passenger and railroad freight operations. Areas that 
will be researched include evaluation of deterioration rates of special 
track work and other track structure components due to various types of 
impact and dynamic loads on shared corridors, accounting for axle load, 
train speed, and tonnage.
    FRA, in coordination with PHMSA, plans to improve the safety of 
hazardous materials transportation. New approaches to be pursued 
include developing acceptance criteria for damage of thermal protection 
systems, assessing the effects of in-train forces and fatigue life of 
tank cars of single commodity trains, studying the effects of repair 
procedures on the reliability and fatigue life of tank cars, and 
developing a risk-based approach to evaluating defective conditions of 
tank cars. FRA is uniquely equipped with a test center in Pueblo, 
Colorado to conduct this research in conjunction with PHMSA.
    These are just a few examples of research in the pipeline for FRA. 
There are many more examples, including the next generation of 
automated track inspection technology, which would be funded through 
the GROW AMERICA Act.
    The GROW AMERICA Act will also expand research programs at 
universities, including rail-based University Transportation Centers 
(UTCs). Dedicated rail research at UTCs will serve two purposes that 
provide benefits by: (1) conducting basic research that FRA can apply 
to improve railroad safety and performance; and (2) producing qualified 
professionals who can lead implementation of high-performance rail.
    The GROW AMERICA Act also authorizes funding for the National 
Cooperative Rail Research Program. This program, established under 
section 306 of PRIIA and managed by the National Academy of Sciences, 
provides a rail research program similar to those for aviation, 
highways, and transit. FRA launched the program in 2012 to develop the 
intellectual infrastructure needed to advance effective rail policy, 
and a number of research proposals are currently underway, including 
research on the topics of building and retaining workforce, alternative 
financing, modal energy consumption, and developing multi-state 
institutions to implement rail programs.
    The GROW AMERICA Act will strengthen the ``Buy America'' 
requirements in current law by ensuring uniform applicability to all of 
FRA's financial assistance programs. In the little more than five years 
in which the HSIPR Program has been in existence, Buy America has 
already had a measurable effect on the domestic rail manufacturing and 
supply industries. The highest profile example is the new Nippon Sharyo 
manufacturing plant in Rochelle, IL, which opened in 2012 and will 
produce the next generation of American-built railcars for corridor 
services in California and the Midwest. However, there are dozens more 
domestic manufacturers and suppliers at work as we speak thanks to the 
HSIPR Program and our Buy America requirements.
Priority 5: Ensuring Transparency and Accountability
    The GROW AMERICA Act aligns funding for current passenger rail 
service programs by lines of business, and it streamlines FRA's 
financial programs into four coordinated accounts:

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    The Act also requires standards for national and regional rail 
planning, which is necessary to provide a long-range blueprint for 
proceeding with passenger and freight rail investments in a market-
based, cost-effective manner. These reforms provide American taxpayers 
with the transparency and accountability they require and deserve.
    Over many years, existing capital and operating programs have 
focused on maintaining the legacy rail system on an annual basis. The 
GROW AMERICA Act will establish the Current Passenger Rail Service 
grant program to provide a longer-term view toward ensuring existing 
passenger rail assets and services are maintained in good, working 
condition. The grants will be oriented around Amtrak's main business 
lines: the Northeast Corridor, State Corridors, Long-Distance Routes, 
and National Assets.
    In addition to restructuring Amtrak funding around lines of 
business, the GROW AMERICA Act requires Amtrak to engage in annual 
five-year operating and capital planning to focus on the long-term 
needs of its business lines. These plans will be developed with close 
FRA coordination, and will directly inform annual budget requests. 
Capital asset plans will describe investment priorities and 
implementation strategies and identify specific projects to address the 
backlog of state-of-good-repair needs, recapitalization/ongoing 
maintenance needs, upgrades to support service enhancements, and 
business initiatives with a defined return on investment.
    The GROW AMERICA Act supports this mission with predictable, 
dedicated funding that enhances safety and modernize our rail 
infrastructure to meet growing market demand, while promoting 
innovation and ensuring transparency and accountability. The Act will 
invest $19 billion over four years to improve rail safety and invest in 
a National High-Performance Rail System, as States and local 
communities need the certainty of sustained funding to make the 
transportation investments necessary to improve our infrastructure and 
support our economic growth. The Act also builds on current investments 
to vastly improve the system in areas ranging from PTC implementation 
to enhancing flexibility in financing programs that will better enable 
the rehabilitation of aging infrastructure.
Conclusion
    Thank you for the opportunity to appear before you to participate 
in a dialogue on the future of rail in America. The GROW AMERICA Act 
charts a bold new course for transportation infrastructure investment 
in the United States. We look forward to working with Congress to put 
people back to work building a balanced transportation system that is 
safe, reliable, efficient, and able to meet the growing demand and 
changing travel habits of America's population. I will be happy to 
respond to your questions.
                               Appendix 1
Completed FRA Rulemakings that Were Mandated, Explicitly or Implicitly, 
        by RSIA \8\
---------------------------------------------------------------------------
    \8\ In addition, FRA commenced a rulemaking to define ``critical 
incident'' for purposes of the mandated rulemaking on critical incident 
stress plans as specifically required by Sec. 410(c)).
---------------------------------------------------------------------------
   1.  To specify the essential functionalities of mandated PTC 
        systems, define related statutory terms, and identify 
        additional lines for implementation. (Sec. 104).\9\
---------------------------------------------------------------------------
    \9\ In addition, FRA has issued two final rules on PTC, and another 
final rule on PTC is in clearance in the Executive Branch.
---------------------------------------------------------------------------
   2.  To establish substantive hours of service requirements for 
        passenger train employees. (Sec. 108(d)).
   3.  To update existing hours of service recordkeeping regulations. 
        (Sec.108(f)).
   4.  To require State-specific action plans from certain States to 
        improve safety at highway-rail grade crossings. (Sec. 202).
   5.  To require toll-free telephone emergency notification numbers 
        for reporting problems at public and private highway-rail grade 
        crossings. (Sec. 205).
   6.  Increase the ordinary maximum and aggravated maximum civil 
        penalties per violation for rail safety violations to $25,000 
        and $100,000, respectively. (Sec. 302).
   7.  On prohibition of individuals from performing safety-sensitive 
        functions in the railroad industry for a violation of hazardous 
        materials transportation law. (Sec. 305).
   8.  On procedures for emergency waivers. (Sec. 308).
   9.  To require the certification of conductors. (Sec. 402).
  10.  On the results of FRA's study of track inspection intervals and 
        other track issues. (Sec. 403(c)).
  11.  On concrete ties. (Sec. 403(d)).
  12.  To require certain railroads to develop and submit for FRA 
        approval their plans for providing appropriate support services 
        to employees affected by a ``critical incident'' as defined by 
        FRA. (Sec. 410(a))
  13.  To require owners of railroad bridges to implement programs for 
        inspection, maintenance, and management of those structures. 
        (Sec. 417).
  14.  On camp cars used as railroad employee sleeping quarters. (Sec. 
        420).
  15.  Amending regulations of the Office of the Secretary of 
        Transportation to provide that the Secretary delegates to the 
        Administrator of FRA the responsibility to carry out the 
        Secretary's responsibilities under RSIA.
Completed RSIA-Mandated Guidance and Model State Laws \10\
---------------------------------------------------------------------------
    \10\ In addition, FRA has published three guidance documents on the 
hours of service laws as amended by RSIA in the Federal Register.
---------------------------------------------------------------------------
   1.  Guidance on pedestrian safety at or near rail passenger 
        stations. (Sec. 201).
   2.  Guidance for the administration of the authority to buy items of 
        nominal value and distribute them to the public as part of a 
        crossing safety or railroad trespass prevention program. (Sec. 
        208(c)).
   3.  Model State law on highway users' sight distances at passively 
        signed highway-rail grade crossings. (Sec. 203).
   4.  Model State law on motorists' violations of grade crossing 
        warning devices. (Sec. 208(a)).
Completed RSIA-Mandated Non-periodic Reports or Studies
   1.  Report to Congress on DOT's long-term (minimum 5-year) strategy 
        for improving rail safety, including annual plans and schedules 
        for achieving specified statutory goals, to be submitted with 
        the President's annual budget. (Sec. 102).
   2.  Report to Congress on the progress of railroads' implementation 
        of PTC. (Sec. 104).
   3.  Conduct study to evaluate whether it is in the public interest 
        to withhold from discovery or admission, in certain judicial 
        proceedings for damages, the reports and data compiled to 
        implement, etc., a required risk reduction program. (Sec. 109).
   4.  Evaluate and review current local, State, and Federal laws 
        regarding trespassing on railroad property, vandalism affecting 
        railroad safety, and violations of highway-rail grade crossing 
        warning devices. (Sec. 208(a)).
   5.  Report to Congress on the results of DOT research about track 
        inspection intervals, etc. (Sec. 403(a)-(b)).
   6.  Conduct study of methods to improve or correct passenger station 
        platform gaps (Sec. 404).
   7.  Report to Congress detailing the results of DOT research about 
        use of personal electronic devices in the locomotive cab by 
        safety-related railroad employees. (Sec. 405).
   8.  Report to Congress on DOT research about the effects of 
        repealing a provision exempting Consolidated Rail Corporation, 
        etc., from certain labor-related laws (45 U.S.C. Sec. 797j). 
        (Sec. 408).
   9.  Report to Congress on the results of DOT research about exposure 
        of railroad employees and others to radiation. (Sec. 411).
  10.  Report to Congress on DOT study on the expected safety effects 
        of reducing inspection frequency of diesel-electric locomotives 
        in limited service by railroad museums. (Sec. 415).
  11.  Report to Congress on model plans and recommendations, to be 
        developed through a task force to be established by DOT, to 
        help railroads respond to passenger rail accidents. (Sec. 503).
                               Appendix 2
FRA's Completed PRIIA Requirements
   1.  Establish a grant process for Amtrak and submit a letter to 
        Congress. (Sec. 206).
   2.  Establish metrics and standards for performance and service 
        quality of intercity passenger train operations. (Sec. 207).
   3.  Report quarterly on performance and service quality of intercity 
        passenger train operations. (Sec. 207).
   4.  Review and approve Amtrak's Northeast Corridor State of Good 
        Repair Plan. (Sec. 211).
   5.  Establish a Northeast Corridor Infrastructure and Operations 
        Advisory Commission. (Sec. 212).
   6.  Establish a Northeast Corridor Safety Committee. (Sec. 212).
   7.  Complete a rulemaking to develop a pilot program for alternate 
        passenger rail service (Sec. 214).
   8.  Establish a grant program and make grants to implement or 
        improve intercity passenger rail service. (Sec. 301).
   9.  Make grants to reduce congestion or for facilitation of 
        ridership growth. (Sec. 302).
  10.  Establish requirements for State rail plan development and 
        review. (Sec. 303).
  11.  Establish and carry out a rail cooperative research program. 
        (Sec. 306).
  12.  Complete a preliminary National Rail Plan. (Sec. 307).
  13.  Establish procedures for preclearance of passengers traveling 
        from the U.S. to Canada. (Sec. 406).
  14.  Report to Congress on the results of a study and actions to 
        streamline compliance with historic preservation requirements. 
        (Sec. 407).
  15.  Establish a grant program and make grants for high-speed rail 
        corridor development. (Sec. 501).
  16.  Issue a request for proposals for projects on designated high-
        speed rail corridors. (Sec. 502).
  17.  Evaluate high-speed rail corridor proposals. (Sec. 502).

    Senator Blumenthal. Thank you very much, Administrator 
Szabo.
    And now to Administrator Ferro. Thank you for being here.

        STATEMENT OF HON. ANNE S. FERRO, ADMINISTRATOR,

          FEDERAL MOTOR CARRIER SAFETY ADMINISTRATION,

               U.S. DEPARTMENT OF TRANSPORTATION

    Ms. Ferro. Thank you. Mr. Chairman, Ranking Member Blunt, 
and members of the Subcommittee, thank you for inviting me to 
testify today on the Federal Motor Carrier Safety 
Administration's progress in implementing both our MAP-21 
requirements as well as the opportunity to lay out the safety 
provisions in the GROW AMERICA Act.
    Safety is FMCSA's top priority. And yet, since 2009, with 
the advent of our continued economic recovery, which is very, 
very good, the downside is, there has been an 18 percent 
increase in crashes involving commercial motor vehicles and in 
the number of people killed in those crashes. We can do better 
than that. And working together with Congress, enforcement, 
advocates, and our industry partners, using research, public 
dialogue, and sensible policies, we can raise the safety bar 
for truck and bus operations.
    MAP-21 has been part of the strategy, and FMCSA is pressing 
forward to meet all of the requirements. To date, we've 
completed more than half of the rulemakings required under MAP-
21. For example, at the outset, we implemented agricultural 
exemptions and new financial security requirements for brokers 
and freight forwarders, as required under the law. And we are 
well on our way to establish the first national drug and 
alcohol clearinghouse, which will, in fact, help employers 
determine whether a driver is complying with Federal drug and 
alcohol regulations, including mandatory testing. The notice of 
proposed rulemaking and the 90-day comment period closed, just 
last month.
    In March, we issued a supplemental notice to create an 
electronic logging device requirement across the industry. This 
proposal will improve hours of service compliance; and hence, 
the uniform use of those logs will actually improve and 
mitigate the impacts of fatigue-related driving and fatigue-
related crashes. In fact, the analysis of this proposal shows 
that it will help prevent approximately 20 deaths, over 400 
injuries each year, and have an annual safety benefit of almost 
$400 million. Comments on that proposal are still able to be 
made, up through the end of this month.
    MAP-21 is helping us reach our safety goal of getting to 
one level of safety for all passengers, regardless of what type 
of bus company they choose. FMCSA is training all of our 
special agents with new, enhanced investigation tactics to 
uncover safety deficiencies and remove dangerous buses and 
operators from the road. Some companies take full advantage of 
the opportunity we give them to get better, to use the 
information we've provided, use the audits to fix their 
problems. But, for those that don't, we will put them, and we 
have put them, out of business. In fact, last year we shut down 
over 100 unsafe bus operations.
    Looking at the long term, President Obama has laid out a 
vision in the GROW AMERICA Act that enhances our safety work. 
GROW AMERICA focuses on three key areas to improve commercial 
motor vehicle safety. On motorcoach safety, GROW AMERICA will 
expand our opportunities to inspect motorcoaches at additional 
sites, and it'll give FMCSA jurisdiction over passenger ticket 
brokers, folks who really do defraud customers as to what kind 
of company they're about to use. It takes strong steps to 
improve our effectiveness under GROW AMERICA by allowing 
criminal prosecution of companies that deliberately violate 
Federal out-of-service requirements.
    Another provision calls for requiring companies to pay 
drivers for uncompensated time. It's not news to know that when 
drivers are held up at the loading dock, waiting for shipments 
to be loaded or unloaded, they are often--more often than not--
unpaid, uncompensated. And hence, they face pressure to make up 
that lost uncompensated time by pushing both their physical 
limits as well as the legal driving limits. This proposal will 
ease the economic stress on long-distance drivers by ensuring 
that they receive fair compensation for the hours they work.
    And finally, GROW AMERICA streamlines and consolidates our 
Safety Grants Program; hence, improving and providing better 
efficiencies both for the agency, but, more importantly, for 
our State enforcement and licensing partners.
    Mr. Chairman, thank you for the opportunity to share a bit 
about what FMCSA is focused on and the opportunity to answer 
questions today. I look forward to your questions.
    [The prepared statement of Ms. Ferro follows:]

Prepared Statement of Hon. Anne S. Ferro, Administrator, Federal Motor 
    Carrier Safety Administration, U.S. Department of Transportation
    Mr. Chairman, Ranking Member Blunt, and Members of the 
Subcommittee, thank you for inviting me to testify today on the Federal 
Motor Carrier Safety Administration's (FMCSA) progress in implementing 
the Moving Ahead for Progress in the 21st Century Act (MAP-21) and the 
Department of Transportation's (DOT) reauthorization proposal--the 
Generating Renewal, Opportunity, and Work with Accelerated Mobility, 
Efficiency, and Rebuilding of Infrastructure and Communities throughout 
America Act (GROW AMERICA).
    Since FMCSA's establishment in 2000, the number of lives lost in 
large truck-and bus-related crashes has decreased 26 percent, from 
5,620 in 2000 to 4,183 in 2012. While this represents significant 
progress, more must be done. We are committed to reducing the number of 
crashes, injuries and fatalities involving commercial motor vehicles 
(CMV).
MAP-21
    Overall, FMCSA is working hard to implement many of the commercial 
motor vehicle safety provisions of MAP-21. To date, the Agency has 
implemented twenty provisions of MAP-21 and has issued three Notices of 
Proposed Rulemaking (NPRM); including proposals to mandate Electronic 
Logging Devices and to establish a Drug and Alcohol Clearinghouse. MAP-
21 gave the Agency important tools to improve CMV safety and remove 
unsafe operators from the Nation's highways. The Agency's plan aligns 
with three core principles: raise the bar to enter the motor carrier 
industry; require high safety standards to remain in the industry; and 
remove high-risk carriers, drivers, and service providers from 
operation. MAP-21 supports these core principles and our Agency's 
important safety initiatives.
Electronic Logging Devices
    MAP-21 included a provision mandating the use of electronic logging 
devices (ELD) for any driver required to keep a record of duty status 
(RODS) under the HOS regulations. The Agency published a supplemental 
notice of proposed rulemaking (SNPRM) on March 18 that would establish: 
(1) minimum performance standards for ELDs; (2) mandatory requirements 
for use of the devices by drivers required to prepare RODS; (3) 
requirements concerning HOS supporting documents; and (4) measures to 
ensure that the mandatory use of ELDs will not result in harassment of 
drivers by motor carriers or enforcement officials. The ELD 
requirements will improve HOS compliance by reducing the likelihood of 
falsification of drivers' duty status records, thereby decreasing the 
risk of fatigue-related crashes attributable to HOS non-compliance. The 
public comment period runs through June 26.
Drug and Alcohol Clearinghouse
    MAP-21 provided explicit authority for the Secretary to create an 
electronic repository for positive alcohol and controlled substances 
test results. In response, on February 20, FMCSA published a NPRM to 
establish the Commercial Driver's License Drug and Alcohol 
Clearinghouse for all CDL holders. The proposed rule would require 
employers of CDL drivers and service agents to report positive test 
results and refusals to test to the Clearinghouse and thus will improve 
both driver and employer compliance with DOT's alcohol and controlled 
substance testing program. Employers would be required to check the 
Clearinghouse to make sure current and prospective employees do not 
have drug and alcohol violations that would prohibit them from 
performing safety sensitive functions, such as driving CMVs. We 
solicited comments on this rule through May 21. Ultimately, the 
Clearinghouse will improve roadway safety by making it easier to 
determine whether a truck or bus driver is prohibited from operating a 
CMV for failing to comply with Federal drug and alcohol regulations, 
including mandatory testing.
Coercion
    On May 13, FMCSA published NPRM to adopt regulations that prohibit 
motor carriers, shippers, receivers, or transportation intermediaries 
from coercing drivers to operate CMVs in violation of certain 
provisions of the FMCSRs--including drivers' hours of service limits 
and the CDL regulations and associated drug and alcohol testing rules--
or the Hazardous Materials Regulations (HMRs). In addition, the NPRM 
would prohibit anyone who operates a CMV in interstate commerce from 
coercing a driver to violate the commercial regulations. This NPRM 
includes procedures for drivers to report incidents of coercion to 
FMCSA and rules of practice the Agency would follow in response to 
allegations of coercion and describes penalties that may be imposed on 
entities found to have coerced drivers. This proposed rulemaking is 
authorized by section 32911 of MAP-21, amending the Motor Carrier 
Safety Act of 1984.
Compliance, Safety, Accountability
    The Compliance, Safety, Accountability program, or CSA, is FMCSA's 
compliance model to improve CMV safety and reduce large truck and bus 
crashes, injuries, and fatalities on our Nation's highways. MAP-21 
included statutory revisions and additional authorities needed to 
improve the CSA model. For example, MAP-21 provided the Agency with 
flexibility to allow an investigator to display credentials in writing 
rather than in person. This clarifies FMCSA's authority to conduct off-
site enforcement interventions--to formally demand that a motor carrier 
provide records without having to travel to the motor carrier's 
business location. This has been vital to expanding FMCSA's and our 
State partners' enforcement efforts to include off-site reviews and 
investigations, increasing our ability to provide effective safety 
oversight on a larger portion of the industry than before.
Household Goods Provisions
    With regard to household goods transportation, MAP-21 authorized 
FMCSA to assign all or a portion of the penalties it receives from 
noncompliant moving companies to the aggrieved shipper. The Agency 
formed a working group to examine how to implement this new authority. 
A second provision granted the Agency authority to order moving 
companies to return household goods held hostage. FMCSA is aggressively 
using this new authority to protect consumers and ensure compliance 
with the Agency's regulations. Recent enforcement efforts resulted in 
significant civil penalties against moving companies involved in 
fraudulent activities, and also resulted in revocation of the operating 
authority registration of some of carriers due to their egregious 
violations.
Minimum Training Requirements for Entry-Level CMV Operators
    MAP-21 directed the Agency to issue final regulations to require 
training for entry level CDL applicants. The Agency's rulemaking must 
address knowledge and skills for safe operation and other issues. Last 
year, the Agency held public listening sessions on this issue. These 
sessions provided the Agency with substantial information about 
training for entry level CDL applicants. The Agency will soon engage 
the services of a convener to assess the feasibility of conducting a 
negotiated rulemaking to implement this important MAP-21 provision.
Miscellaneous Rule Text Changes in Provisions of MAP-21
    The Agency addressed numerous MAP-21 provisions in an omnibus final 
rule on October 1, 2013. This largely ministerial rulemaking action 
ensured that the regulations were aligned with the new statutory 
requirements. Most notable among the changes were the new financial 
security requirements for brokers and freight forwarders. As required 
by MAP-21, FMCSA amended its regulations to require a $75,000 surety 
bond or trust fund for brokers and extended the surety bond or trust 
fund requirement to freight forwarders for the first time.
National Registry of Certified Medical Examiners
    In April 2012, FMCSA issued a final rule as required by a previous 
statutory amendment, reaffirmed and modified in MAP-21, to establish a 
National Registry of Certified Medical Examiners (National Registry). 
The National Registry requires all Medical Examiners (ME) who conduct 
physical examinations for interstate CMV drivers to: complete training 
on FMCSA's physical qualification standards; pass a certification test; 
and demonstrate competence through periodic training and testing. It 
requires motor carriers and drivers to use only those MEs listed on the 
National Registry. On May 21, all CMV drivers whose medical 
certification has expired must use MEs on the National Registry for 
their exams. To date, there are more than 25,000 MEs on the National 
Registry with more in the pipeline. I emphasize that drivers' medical 
certificates remain valid until their expiration date, which may be up 
to 2 years following the date of the medical exam. We commend the 
healthcare community for working with the Agency to stand up this 
program, which we believe will significantly improve highway safety.
Passenger Carrier Safety
    FMCSA continues use of its MAP-21 authorities to strengthen the 
safety of passengers throughout our Nation who ride buses. In 2013, as 
part of an overall motorcoach safety initiative, we dispatched more 
than 50 specially trained investigators to conduct in-depth reviews of 
the safety management practices of the 250 most at-risk motorcoach 
companies during ``Operation Quick Strike.'' As a result, we removed 52 
unsafe bus companies and 340 vehicles from the road. During the second 
phase of the initiative FMCSA investigators visited more than 1,300 
carriers with minimal inspection history or data with the Agency. As a 
result, we identified more than 240 for follow-up investigations. Now 
we train all investigators to use the enhanced investigative techniques 
employed during Operation Quick Strike, and we have conducted 
evaluations and gap analyses with an eye toward how best to maintain an 
intensified level of oversight on the passenger carrier industry.
Registration Requirements
    MAP-21 strengthened the registration requirements for motor carrier 
operating authority registration and included new authority for safety 
registration, including a mandatory USDOT number for anyone operating a 
CMV in interstate commerce. These new authorities have helped, and will 
help, the Agency to continue its crack down on carriers that commit 
safety violations and then change their company identity, or 
``reincarnate.'' This growing and disturbing practice poses a real 
enforcement challenge to FMCSA's investigators and commercial law 
enforcement officers nationwide. Under MAP-21 FMCSA can withhold, 
suspend, amend or revoke a motor carrier's registration if the carrier 
fails to disclose its adverse safety history or if a motor carrier, 
employer, owner or operator does not disclose a relationship involving 
common ownership, management, control, or familial relationship to any 
other motor carrier, employer, or owner operator.
    Additionally, MAP-21 directed the Agency to establish a written 
proficiency exam for new operating authority registration applicants to 
test their knowledge of the safety regulations, applicable commercial 
regulations, and regulations relating to accessibility for disabled 
persons. This test will help ensure that companies understand these 
regulations before beginning operations. This year, we conducted 
listening sessions across the country to gather input on this issue.
Agricultural Exemptions
    MAP-21 included two provisions applicable to operating CMVs for 
agricultural purposes. The first exempts CMV drivers from the Federal 
hours of service (HOS) rules when transporting agricultural commodities 
and farm supplies within a 150 air-mile radius from the source of the 
commodities or the distribution point of the supplies. The second 
exempts the operation of ``covered farm vehicles'' by farm and ranch 
operators, their employees, and certain other specified individuals 
from most of the Federal Motor Carrier Safety Regulations (FMCSRs), 
including those pertaining to commercial driver's licenses (CDL) and 
driver physical qualifications (medical) requirements. These self-
executing statutory provisions took effect on October 1, 2012. The 
Agency published a Federal Register notice on October 1, 2012, to 
ensure motor carriers and enforcement officials were aware of the two 
statutory exemptions included in MAP-21. The Agency requested that 
States immediately take action to put into place policies and 
procedures to provide the regulatory relief provided by MAP-21, and to 
follow up with the appropriate amendments to their laws and regulations 
to reflect the statutory exemptions in MAP-21. In March 2013, FMCSA 
published a final rule to conform the FMCSRs to the statutory 
provisions in MAP-21. States have until March 14, 2016, to adopt 
compatible regulations to maintain eligibility for Motor Carrier Safety 
Assistance Program grants.
The GROW AMERICA Act
    The GROW AMERICA Act will support millions of American jobs 
repairing and modernizing our roads, bridges, railways, and transit 
systems. It will ensure that American businesses can compete in the 
global economy and increase access to opportunities for all Americans. 
The Act builds upon the gains achieved in MAP-21 for commercial motor 
vehicle safety and will further empower State and local communities 
through more streamlined and efficient grant programs, will build on 
FMCSA's unprecedented motorcoach safety achievements, and will ease 
economic stress on long-distance truck and bus drivers by ensuring they 
receive fair compensation for the hours they work.
Improvements to the Motor Carrier Safety Grants
    GROW AMERICA will streamline and consolidate five FMCSA safety 
grant programs into a single formula program--a change that will 
dramatically increase administrative efficiencies for FMCSA and its 
State partners. The grant programs affected would be the Motor Carrier 
Safety Assistance Program (MCSAP) Basic and Incentive; New Entrant; 
Border Enforcement; Performance and Registration Information Systems 
Management Program (PRISM); and Safety Data Improvement. The 
restructuring would allow the use of MCSAP funds to enforce household 
goods regulations. State participation in PRISM, Safety Data 
Improvement and New Entrant would become mandatory. Additionally, the 
proposal would restructure the Commercial Vehicle Information Systems 
and Networks (CVISN) program allowing greater flexibility for advanced 
technology solutions, and it would eliminate core and expanded funding 
caps.
Motorcoach Safety
    FMCSA is committed to raising the bar for safety in this highly 
competitive and rapidly changing industry by employing more effective 
investigation methods and strengthening the Agency's oversight 
authorities. Last year, FMCSA shut down more than 100 unsafe bus 
companies that put passengers at risk, and we significantly increased 
public education and awareness on safe motorcoach travel.
    GROW AMERICA would expand the locations where States may require 
motorcoach inspections to include en route locations where food, 
shelter and sanitation for passengers can be provided. The proposal 
also grants FMCSA jurisdiction over passenger carrier brokers, 
requiring them to register with the Agency. This proposal would help 
prevent unsafe bus companies from reorganizing as unregulated brokers 
and ensure transportation through authorized carriers only. The GROW 
AMERICA Act will also prevent unscrupulous motor carriers from skirting 
FMCSA enforcement actions by clarifying authority for criminal 
prosecutions of persons who knowingly and willfully violate imminent 
hazard out-of-service orders, which are issued to prevent the death or 
serious physical harm to the public.
Driver Compensation
    Many over-the-road truck and bus drivers are compensated by the 
mile or on a fixed-rate-per-load basis. As a result, drivers often are 
not paid for extended periods of time spent waiting at shipper or 
receiver facilities for shipments to be loaded or unloaded. Similarly, 
over-the-road motorcoach drivers are often compensated in a manner 
other than an hourly wage. This pay structure may create pressures to 
exceed HOS limits, risk driver fatigue, and jeopardize highway safety. 
The proposal provides the Secretary of Transportation authority to 
adopt rules to require motor carriers to compensate drivers for 
detention time and other non-driving work periods at a rate that is at 
least equal to the Federal minimum wage. The proposal would not amend 
the Fair Labor Standards Act (FLSA); this pay would be in addition to 
that required under FLSA.
Conclusion
    Thank you, Mr. Chairman and Ranking Member Blunt, for the 
opportunity to discuss the Federal motor carrier safety programs. We 
look forward to working with you to improve safety, reduce crashes, and 
save lives on our Nation's highways.

    Senator Blumenthal. Thank you very much.
    And now, Administrator Quarterman, thank you for being 
here.

            STATEMENT OF HON. CYNTHIA L. QUARTERMAN,

             ADMINISTRATOR, PIPELINE AND HAZARDOUS

                MATERIALS SAFETY ADMINISTRATION,

               U.S. DEPARTMENT OF TRANSPORTATION

    Ms. Quarterman. Good morning. Chairman Blumenthal, Ranking 
Member Blunt, and members of the Subcommittee, thank you for 
inviting me here today to testify on the Pipeline and Hazardous 
Materials Safety Administration's progress in implementing the 
hazardous materials safety provisions of MAP-21. I'm also 
delighted to discuss the ways the GROW AMERICA Act will further 
improve upon the efforts of PHMSA and the Department to enhance 
the safety of our Nation's hazardous materials transportation 
system. Safety is the top priority of Secretary Foxx, the 
Department of Transportation, PHMSA, and its sister modes. All 
of us at DOT appreciate your dedication and leadership in 
advancing hazardous materials transportation safety.
    For a relatively small agency with limited resources, the 
staff at PHMSA works diligently to protect the American public 
and the environment from hazardous materials transportation 
incidents and have made great strides in implementing the 
provisions of MAP-21.
    Since MAP-21's enactment in 2012, PHMSA has met, or will 
meet, more than 90 percent of the established time lines for 
the 32 separate provisions assigned to the agency.
    This is significant, given that--the many challenges and 
emerging issues that PHMSA has faced over the same time period, 
including efforts to enhance the safe transportation of crude 
by rail and continuing to consistently reduce the number of 
hazardous materials incidents over the past 25 years.
    A significant contributor to PHMSA's success has been the 
strategy and action plan we developed and implemented to take 
advantage of the additional resources MAP-21 provided to 
bolster compliance with hazardous materials regulations.
    As the transportation sector continues to evolve and become 
more interconnected with the international community, PHMSA has 
attempted to adopt smarter strategies to adapt to those 
changes. As a part of our enforcement strategy, and through the 
authority of MAP-21, PHMSA raised its maximum civil penalty 
amount for violations resulting in death, injury, or illness. 
We believe that clear and appropriate civil penalties can 
improve transportation safety by acting as a deterrent for 
noncompliance. That's why the GROW AMERICA Act submitted to 
Congress by Secretary Foxx proposes to further increase the 
maximum amount PHMSA can assess for violators of hazardous 
materials regulations. The increased civil penalty authority 
will allow us to address situations where a higher penalty is 
warranted, including those events resulting in death, injury, 
or illness.
    In addition, the GROW AMERICA Act will further build on 
MAP-21's successes and support the Department's safety 
initiatives by improving PHMSA's ability to oversee the safe 
transportation of hazardous materials. GROW AMERICA will give 
PHMSA the authority to issue orders to industry to cease 
activities, without prior notice, in response to emergency 
situations. Similar authority is already held by FRA and FMCSA, 
and GROW AMERICA will increase DOT's ability to stop unsafe 
conditions or practices that may threaten life, personal 
injury, or harm to property or the environment. GROW AMERICA 
will also enhance communities and improve safety by expanding 
hazardous registration requirements and improve the 
effectiveness of PHMSA's Hazardous Materials Emergency 
Preparedness Grants Program.
    These are just a few of the many ways MAP-21 and the GROW 
AMERICA Act can, and will, provide further safeguards against 
hazardous materials transportation risks for American 
communities. As I've stated earlier, PHMSA is committed to 
improving transportation safety, and I believe our approach is 
working. Our safety mission is guided by our vision that no 
harm results from hazardous materials transportation. And I 
truly believe our efforts will continue to prevent and mitigate 
accidents and move us closer to our goal of zero deaths and 
injuries.
    Thank you again for the opportunity to speak today. We look 
forward to continuing to work with this committee and Congress 
to protect people, property, and the environment from hazardous 
materials transportation risks. And I would be happy to answer 
any questions you may have.
    [The prepared statement of Ms. Quarterman follows:]

   Prepared Statement of Hon. Cynthia L. Quarterman, Administrator, 
Pipeline and Hazardous Materials Safety Administration, U.S. Department 
                           of Transportation
Introduction
    Chairman Blumenthal, Ranking Member Blunt, and members of the 
subcommittee, thank you for inviting me to testify today on the 
Pipeline and Hazardous Materials Safety Administration's (PHMSA) 
progress in implementing the Hazardous Materials Transportation Safety 
provisions of the Moving Ahead for Progress in the 21st Century Act 
(MAP-21) and the Generating Renewal, Opportunity, and Work with 
Accelerated Mobility, Efficiency, and Rebuilding of Infrastructure and 
Communities throughout America (GROW AMERICA) Act, which would provide 
important tools to further improve the safe transportation of hazardous 
materials.
    Safety is PHMSA's number one priority. PHMSA works diligently to 
protect the American people and the environment from the risks of 
hazardous materials transportation. PHMSA achieves its safety mission 
through efforts to prevent and mitigate accidents by developing 
regulations, taking rigorous enforcement actions, collaborating with 
stakeholders, and educating emergency responders and the public. MAP-21 
provides PHMSA with important new tools to improve the safety of 
transporting hazardous materials and the GROW AMERICA Act will build on 
the successes of MAP-21 and further support our agency's safety 
initiatives. With the positive outcomes already achieved through MAP-21 
and the improvements that the GROW AMERICA Act will provide, PHMSA will 
be strategically positioned to meet its safety goals and improve the 
safety of our Nation's transportation system.
MAP-21 Overview
    MAP-21 authorized or mandated numerous rulemakings, reports, and 
programmatic changes to enhance PHMSA's Hazardous Materials Safety 
Program. PHMSA finalized its strategy to implement the Act on August 
31, 2012 and a supporting Action Plan on October 10, 2012. The Action 
Plan assigned responsible staff to 13 areas, covering 32 separate 
provisions. As a result, PHMSA has met or will meet established 
timelines for more than 90 percent of the 32 provisions. This is 
significant given the many challenges and emerging issues that PHMSA 
has faced over the same period. The MAP-21 mandates are organized below 
into three categories: (1) Rulemakings; (2) Studies and Reports to 
Congress; and (3) Other Mandates, and Programmatic Changes.
Rulemakings
Update of Published Guidelines on Civil Penalty Amounts
    MAP-21 removed the minimum penalty amount for a violation, except 
that the minimum penalty amount of $450 was retained for a training 
violation. In addition, MAP-21 raised the maximum penalty amount for a 
knowing violation and a violation resulting in death, serious illness 
or severe injury to any person, or substantial destruction of property 
to $75,000 and $175,000, respectively. PHSMA adopted these changes in 
an April 17, 2013 final rule.\1\ PHMSA believes clear and appropriate 
civil penalties can improve transportation safety by acting as a 
deterrent for those violating the regulations. As I will discuss later, 
GROW AMERICA builds upon the MAP-21 enhancement to the civil penalties 
program.
---------------------------------------------------------------------------
    \1\ See 78 Fed. Reg. 22798 http://www.gpo.gov/fdsys/pkg/FR-2013-04-
17/pdf/2013-08981.pdf
---------------------------------------------------------------------------
Open Package--Resumption of Transportation
    MAP-21 required PHMSA to implement regulations by October 2013 to 
provide procedures for an agent of the Secretary of Transportation to 
open packages of perishable hazardous materials and to provide 
notification to the responsible party that an agent has performed a 
safety inspection or investigation. In addition, MAP-21 stressed that 
inspectors be provided appropriate training and equipment to open and 
close a package in accordance with the Hazardous Materials Regulations 
(HMR). PHMSA published a final rule \2\ in October 2013 to codify 
changes to Federal hazardous materials transportation law and to ensure 
transparency and consistency for hazardous materials inspectors across 
all modes of transportation.
---------------------------------------------------------------------------
    \2\ See 78 Fed. Reg 60755 http://www.gpo.gov/fdsys/pkg/FR-2013-10-
02/pdf/2013-23894.pdf
---------------------------------------------------------------------------
Failure to Pay Civil Penalties
    MAP-21 directed PHMSA to issue regulations by October 2014 to 
require a person who is delinquent in paying civil penalties for a 
violation of the hazardous materials transportation law or regulations 
to cease any activity regulated under the Federal hazardous materials 
transportation law until payment has been made or until an acceptable 
payment plan has been arranged. On September 24, 2013, PHMSA published 
a Notice of Proposed Rulemaking (NPRM)\3\ addressing the MAP-21 mandate 
to prohibit hazardous materials operations by persons delinquent on 
payment of civil penalties. The comment period for the NPRM closed on 
November 25, 2013. The final rule is currently under review.
---------------------------------------------------------------------------
    \3\ See 78 Fed. Reg. 58501 https://federalregister.gov/a/2013-22952
---------------------------------------------------------------------------
Standard Operating Procedures (SOPs) for Handling Applications for 
        Special Permits (SPs) and Objective Criteria for Evaluating SPs
    MAP-21 required PHMSA to issue regulations that establish (1) SOPs 
to support administration of the SP and approval programs, and (2) 
objective criteria to support the evaluation of SP and approval 
applications. MAP-21 mandates a final rule by October 2014. 
Stakeholders have expressed an interest and feedback in resolving SP 
and approval processing concerns through rulemaking and suggested 
several alternatives. PHMSA's NPRM is currently under Departmental 
review.
Incorporation of SPs into the HMR
    MAP-21 required an initial review and analysis of SPs that have 
been in continuous effect for a 10-year period to determine which ones 
may be converted into the HMR. MAP-21 mandates a rule by October 
2015.\4\ PHMSA's NPRM is currently under review.
---------------------------------------------------------------------------
    \4\ Although, MAP-21 limited the review and analysis to SPs with a 
lifespan of greater than 10 years, PHMSA decided that an initial review 
and analysis of all active SPs would be more beneficial, as many SPs 
are interrelated.
---------------------------------------------------------------------------
Continued Incorporation of SPs
    MAP-21 requires an ongoing review, analysis, and incorporation of 
SPs that are over 10 years old. Based on this review and analysis, 
PHMSA must either institute a rulemaking to incorporate the SPs into 
the HMR or publish in the Federal Register its justification for why 
the SPs are not appropriate for incorporation into the regulations. 
MAP-21 mandates a rule annually, beginning October 2016. As required by 
MAP-21, PHMSA plans to conduct future reviews of SPs with a lifespan of 
greater than 10 years on an annual basis. PHMSA's ongoing review and 
analysis of SPs will use the same methodology and tools as the initial 
NPRM, outlined above. PHMSA anticipates future analysis and review will 
be more streamlined due to the reduced volume of SPs to be evaluated.
Studies and Reports to Congress
Hazardous Materials Emergency Preparedness Grant Report
    The Hazardous Materials Grants Program (HM Grants Program) was a 
key focus area of MAP-21. The program is funded by registration fees 
collected from hazardous materials shippers and carriers who offer for 
transportation or transport certain hazmat in intrastate, interstate, 
or foreign commerce in accordance with 49 CFR Part 107, Subpart G. 
These fees fund training and planning grants, monitoring and technical 
assistance, curriculum development, and staffing costs. Registration 
fees also fund the publication and distribution of the Emergency 
Response Guidebook (ERG). The HM Grants Program is comprised of three 
types of grants:

                   Hazardous Materials Grants Program
------------------------------------------------------------------------
          Grant                       Summary                  Value
------------------------------------------------------------------------
Hazardous Materials        The purpose of this grant       $21.8 million
 Emergency Preparedness     program is to increase
 (HMEP) Grant               State, Territorial, Tribal,
                            and local effectiveness in
                            safely and efficiently
                            handling hazardous materials
                            accidents and incidents,
                            enhance implementation of
                            the Emergency Planning and
                            Community Right-to-Know Act
                            of 1986 (EPCRA), and
                            encourage a comprehensive
                            approach to emergency
                            training and planning by
                            incorporating the unique
                            challenges of responses to
                            transportation situations..
------------------------------------------------------------------------
Hazardous Materials        The HMIT Grant program is a        $4 million
 Instructor Training        competitive program by which
 (HMIT) Grant               instructors are trained to
                            deliver hazardous materials
                            training to hazmat
                            employees. Funding for the
                            program is made available to
                            non-profit organizations
                            that demonstrate: 1)
                            expertise in conducting a
                            training program for hazmat
                            employees and 2) the ability
                            to reach and involve, in a
                            training program, a target
                            population of hazmat
                            employees..
------------------------------------------------------------------------
Supplemental Public        These grants serve the             $1 million
 Sector Training (SPST)     purpose of aiding national
 Grant                      non-profit organizations
                            with training instructors to
                            conduct hazardous materials
                            response training programs
                            for individuals with a
                            statutory responsibility to
                            respond to hazardous
                            materials accidents and
                            incidents..
------------------------------------------------------------------------

    MAP-21 required PHMSA to submit a report to Congress by October 
2013 providing a detailed accounting and description of the HMEP grant 
expenditures by each grant recipient, including the amount of, and 
purpose for each expenditure. In addition, MAP-21 imposed a biennial 
reporting requirement on a State, political subdivision of a State, or 
Indian tribe that levies a fee in connection with the transportation of 
hazardous materials. In order to collect and report this information to 
Congress, PHMSA must receive approval to collect the necessary 
information in accordance with the Paperwork Reduction Act (PRA) (44 
U.S.C. Sec. Sec. 3501-3521). Once PHMSA obtains authorization to 
collect the additional information, grantees will be asked to submit 
quarterly and final reports containing the requisite information. PHMSA 
published a 60-day Federal Register Notice on December 4, 2013.\5\ 
PHMSA expects to publish the 30-day Federal Register Notice in June of 
2014 in order to begin collecting the information during Fiscal Year 
2015. The information collected during Fiscal Year 2015 will be 
reported on in the 2016 report to Congress.
---------------------------------------------------------------------------
    \5\ See 78 Fed. Reg. 72972 http://www.gpo.gov/fdsys/pkg/FR-2013-12-
04/pdf/2013-29015.pdf
---------------------------------------------------------------------------
Paperless Hazardous Materials Communication Pilot Program
    MAP-21 authorized PHMSA to conduct pilot projects to evaluate the 
feasibility and effectiveness of using paperless hazard communications 
systems. Upon the completion of the pilot program, a report to Congress 
is due by October 2014. Here, the PRA is also applicable, so PHMSA must 
receive approval to collect the necessary information. Once PHMSA 
obtains authorization to collect the additional information, it will be 
authorized to initiate a pilot program. PHMSA published a 60-day 
Federal Register Notice on July 19, 2013.\6\ PHMSA published the 30-day 
Federal Register Notice on November 25, 2013.\7\ In preparation for PRA 
approval, PHMSA hosted a roundtable discussion with law enforcement and 
the emergency response community on March 13, 2014.
---------------------------------------------------------------------------
    \6\ See 78 FR 43263 http://www.gpo.gov/fdsys/pkg/FR-2013-07-19/pdf/
2013-17363.pdf
    \7\ See 78 FR 70399 http://www.federalregister.com/Browse/Document/
usa/na/fr/2013/11/25/2013-28168
---------------------------------------------------------------------------
    In a matter related to the paperless hazardous materials 
communication initiative, PHMSA issued an SP to UPS, Inc., on December 
30, 2013 authorizing the electronic transfer of shipping paper 
information for certain low hazard shipments within their ground 
operation. PHMSA has made it a priority to cut red tape and improve 
efficiency and moved expeditiously with this SP. Further, sharing 
hazardous materials information electronically will improve 
transportation efficiency without sacrificing public safety.
Improving Data Collection, Analysis, and Reporting
    MAP-21 required PHMSA, in consultation with the United States Coast 
Guard, to conduct an assessment to improve the collection, analysis, 
reporting, and use of data related to accidents and incidents involving 
the transportation of hazardous materials. MAP-21 further required 
PHMSA to review methods for collecting, analyzing, and reporting 
accidents and incidents involving the transportation of hazardous 
materials. Upon completion of the assessment and review, PHMSA was 
required to report to Congress on its plan and timeline for improving 
the collection, analysis, reporting, and use of data, including 
revising PHMSA databases, as appropriate. PHMSA reported its findings 
to Congress on September 3, 2013. PHMSA continues to implement its 
recommendations based on the availability of resources.
Other Mandates and Programmatic Changes
Enhancing Emergency Preparedness, Response, and Training
    As mentioned in the HMEP Grant Report discussion above, MAP-21 
provided several provisions related to PHMSA's HM Grants Program. These 
changes came after PHMSA had already taken steps to enhance the 
program. Specifically, MAP-21 requires HMIT and SPST grants to be 
awarded through a competitive process. In addition, under MAP-21, PHMSA 
must ensure that HMEP and SPST grants are awarded to emergency 
responders that will have the ability to respond to effects of 
accidents or incidents involving the transportation of hazardous 
material in accordance with existing regulations or National Fire 
Protection Association (NFPA) standards. Further, SPST grant agreements 
must specifically state that training courses shall comply with Federal 
regulations and national consensus standards for hazardous materials 
response.
    As a result of its initiatives and the MAP-21 provisions, PHMSA has 
increased its oversight of grantee training programs to ensure that 
responders and instructors trained under PHMSA hazardous materials 
grant programs will have the ability to protect nearby persons, 
property, and the environment from the effects of accidents or 
incidents involving the transportation of hazardous material in 
accordance with existing regulations or NFPA standards.
    PHMSA is increasing its outreach to ensure that States, Native 
American Indian Tribes, Territories, and eligible non-profit 
organizations are aware of the MAP-21 program changes. This outreach 
will also serve to broaden the pool of applicants and ensure that 
stakeholders are aware that the HMIT and SPST grants are awarded 
competitively. PHMSA has created an online certification program that 
will require HMEP and SPST grantees to certify during the application 
process that they will use the grant funding to train to the NFPA 
standards.
Hazardous Material Enforcement Training
    MAP-21 mandated that by April 2014, PHMSA develop uniform 
performance standards for training hazardous materials inspectors and 
investigators on: (1) how to collect, analyze, and publish findings 
from inspections and investigations of accidents and incidents 
involving the transportation of hazardous materials; and (2) how to 
identify noncompliance with the HMR, and take appropriate enforcement 
action. The legislation also provided several options for how these 
standards are presented, including: (1) guidelines; (2) best practices 
and standards; or (3) standard protocols to coordinate efforts among 
Federal, State, and local jurisdictions. PHMSA, in collaboration with 
its modal partners, developed the standards, and the agencies have 
implemented them. Additionally, PHMSA is evaluating the effectiveness 
of the standards in coordination with other modal administrations.
Hazardous Material Technical Assessment, Research and Development, and 
        Analysis Program
    MAP-21 authorized PHMSA to develop and implement a hazardous 
material technical assessment, research and development, and analysis 
program. On January 17, 2014, PHMSA hosted a research and development 
forum to discuss the program with regulated entities and its modal 
partners, and to solicit comments. The forum transcript has been posted 
to PHMSA's research and development website (http://phmsa.dot.gov/
initiatives/r-and-d). The comment period for the research projects 
discussed at the forum closed on March 21, 2014. PHMSA is currently 
reviewing 11 comments received from our stakeholders. Though commenters 
are very supportive of our program, they do recommend changes to 
research activities involving liquefied petroleum gas odorization, 
anhydrous ammonia, and explosives. PHMSA will post the comments and 
responses to the research and development website.
Wetlines
    MAP-21 mandated that the Government Accountability Office (GAO) to 
evaluate and report on the safety of transporting flammable liquids in 
the external product piping of cargo tank motor vehicles (wetlines) by 
October 2013. MAP-21 also required that PHMSA not issue a final rule 
regarding wetlines prior to the completion of GAO's evaluation. Per 
MAP-21, the GAO completed an audit on wetlines-related issues and 
published the final report on September 11, 2013. This final report 
recommended that PHMSA re-evaluate its regulatory cost-benefit analysis 
to address uncertainty in the assumptions and data. PHMSA is committed 
to working with our stakeholders to discuss safe solutions to the risks 
posed by wetlines.
GROW AMERICA Act Overview
    On April 29, 2014, Secretary Foxx sent a transportation bill, 
entitled the GROW AMERICA Act, to Congress for consideration. This 
proposal is a $302 billion, four-year surface transportation 
reauthorization that provides increased and stable funding for our 
Nation's highways, bridges, transit, and rail systems.
    The GROW AMERICA Act will also improve PHMSA's ability to oversee 
the safe transportation of hazardous materials. Below is an overview of 
the key hazardous materials safety provisions of the GROW AMERICA Act.
PHMSA Key Provisions of the GROW AMERICA Act to Improve the Safe 
        Transportation of Hazardous Materials
Increases Authority to Stop Unsafe Conditions
    The GROW AMERICA Act will increase DOT's authority to stop unsafe 
conditions or practices that may cause an emergency situation involving 
a threat to life, personal injury, or harm to property or the 
environment. The Act will provide clear authority for PHMSA to issue 
Orders to industry in response to emergency situations without prior 
notice similar to the authority already available to the Federal 
Railroad Administration and the Federal Motor Carrier Safety 
Administration.
Reduces Taxpayer Burden to Administer the Special Permit and Approvals 
        Program
    The GROW AMERICA Act will authorize the Secretary to collect a 
reasonable fee for the administration of the special permits and 
approvals program. This fee will offset some of PHMSA's costs 
associated with the special permit and approvals process and transfer 
some of the costs of running the Special Permits and Approvals program 
from taxpayers to the program's applicants.
Improves National Emergency and Disaster Response
    Hurricane Sandy is the most recent example of a common problem that 
impedes the transportation of hazardous materials during national 
emergencies: differing opinions between Federal, state, and local 
officials regarding the types of hazardous materials authorized to move 
in affected areas that can delay or prevent the delivery of critical 
shipments. The GROW AMERICA Act will remedy this problem by clarifying 
DOT's authority to facilitate the movement of essential hazardous 
material during a national emergency or disaster.
Establishes Hazard Abatement Authority
    The GROW AMERICA Act will combat a growing problem of unscrupulous 
shippers abandoning hazardous materials in transit by providing DOT 
with the authority to hold a non-compliant shipper accountable for the 
remediation or disposal costs for the non-compliant shipment. This 
authority will build upon the improvements in hazardous materials 
enforcement and the civil penalties program that were implemented 
through MAP-21. Finally, this requirement will act as a deterrent to 
those who knowingly violate the hazardous materials regulations.
Expands Inspection of Non-Domestic Entities
    There remain instances when a person outside the U.S. seeks to 
manufacture, requalify, or inspect DOT specification packaging or 
special permit cylinders or certify compliance with U.S. regulations. 
The GROW AMERICA Act grants broader inspection and investigation 
authority over non-domestic entities, extending authority to those 
seeking approval from PHMSA to perform these functions outside the U.S. 
Once approved, the applicant must allow hazmat investigators to inspect 
the applicant's process and procedures, while bearing the cost of the 
initial and subsequent inspections. This shift in procedure will place 
the cost of the inspection on the user, and not on U.S. taxpayers.
Enhance Communities and Improve Safety
Enhances Registration Requirements
    The GROW AMERICA Act will expand the hazmat registration 
requirements to any entity that performs a regulated activity requiring 
training. This expanded registration requirement will provide more 
effective oversight of the hazardous materials program and provide a 
more accurate representation of the population composition of our 
stakeholders.
Improves the Effectiveness of the Hazardous Materials Emergency 
        Preparedness Grant Program
    The GROW AMERICA Act will improve the Hazardous Materials Emergency 
Preparedness Grant Program and build upon the improvements in MAP-21. 
The GROW AMERICA Act will reform the grant program by making several 
changes to ensure greater accountability of grantees and maximize the 
impact of grant funds. This proposal includes amendments to improve the 
effectiveness of the grant program. Some highlights include but are not 
limited to:

  <bullet> Reorganize the criteria and institute comparable 
        requirements for all instructor training grants to ensure that 
        all funds are effectively used to the fullest extent possible 
        by hazardous materials employees and emergency responders;

  <bullet> Broaden grants eligibility to increase competitiveness;

  <bullet> Allow states to apply for grants for ``planning and 
        emergency response'' to give grantees the flexibility to direct 
        funds between eligible planning and emergency response 
        activities according to need. This will enable states to more 
        fully utilize grants;

  <bullet> Eliminate the pass-through requirement to allow grantees to 
        provide funding towards training and planning activities as 
        they deem appropriate and to allow for more time to utilize 
        HMEP awards;

  <bullet> Allow PHMSA to provide supplemental grants to grantees with 
        a proven need for supplemental emergency response funding; and

  <bullet> Increase administrative cost allowance from 2 percent to 4 
        percent to permit better oversight and performance of the HMEP 
        grants program.
Increases Penalties for Violations
    The GROW AMERICA Act strengthens PHMSA's ability to ensure 
compliance by increasing the maximum amount that we can assess for a 
civil penalty, as well as provide us with the ability to address 
situations where a higher penalty is warranted. The Act will increase 
the maximum civil penalty amount from $75,000 to $250,000; or, for a 
violation that results in death, serious illness, or severe injury to 
any person or substantial destruction of property, from $175,000 to 
$500,000. As I previously stated, PHMSA believes clear and appropriate 
civil penalties can improve transportation safety by acting as a 
deterrent for those violating the regulations.
Conclusion
    Thank you for the opportunity to discuss PHMSA's implementation of 
MAP-21 and the recently submitted GROW AMERICA Act. We very much 
appreciate your partnership as we work together to safeguard people, 
property, and the environment from hazardous materials transportation 
risks. I truly believe that the GROW AMERICA Act is a logical and 
important step forward in improving hazardous materials transportation 
safety.

    Senator Blumenthal. Thank you very much.
    Assistant Secretary Winfree.

        STATEMENT OF HON. GREGORY D. WINFREE, ASSISTANT

             SECRETARY FOR RESEARCH AND TECHNOLOGY,

               U.S. DEPARTMENT OF TRANSPORTATION

    Mr. Winfree. Thank you, Chairman Blumenthal, for the 
opportunity to visit with you, Ranking Member Blunt, and 
members of the Committee to talk about the Department's 
progress in implementing MAP-21 and the administration's 
proposal to reauthorize surface transportation programs, the 
GROW AMERICA Act. The Office of the Assistant Secretary for 
Research and Technology continues to lead the Department's 
research coordination and commercialization efforts, driving 
cross-modal collaboration to meet our challenges.
    Congress has long recognized the value of transportation 
research by funding research and data programs through the 
Highway Trust Fund. In my organization, three programs that you 
authorized under MAP-21 have continued to advance departmental 
goals for American transportation: the Intelligent 
Transportation Systems Research Program, the University 
Transportation Centers Program, and the Bureau of 
Transportation Statistics.
    In ITS research, some of our team's progress has been 
attracting public attention, most notably through the ITS-
funded connected vehicle safety pilot in Ann Arbor, Michigan, 
which is the largest such test program in the world and 
conducted--in collaboration with the University of Michigan's 
Transportation Research Institute. The results led to NHTSA's 
decision to proceed with vehicle-to-vehicle--V2V--communication 
technology for light-duty vehicles. This technology will 
improve safety and has the potential to reduce non-impaired 
fatalities by up to 80 percent. The Department continues to 
work toward connected vehicle applications for heavy-duty 
vehicles. And the Federal Highway Administration is preparing 
to issue guidance in 2015 for installing vehicle-to-
infrastructure--V2I--applications for roadway safety and 
improved traffic operations. I note that all of the success and 
the standards that support it are based upon the availability 
of the 5.9-gigahertz dedicated short-range communications 
spectrum.
    Our UTCs continue bringing innovation to the transportation 
system and developing the next generation of transportation 
leaders. We are extremely pleased with the nationwide consortia 
of universities selected under the open competition enabled by 
MAP-21. Covering over 120 universities, which bring expertise 
in multiple disciplines, UTCs enable some of the systemic 
interdisciplinary cross-modal research we need to address 
increasingly complex challenges. We are seeing exciting work in 
robotic bridge inspections, automated vehicles, wireless 
monitoring of bridge integrity, and disaster resilience, with 
much more to come.
    BTS continues to fulfill its role as one of the Federal 
Government's 13 independent statistical agencies producing key 
information to illuminate decisionmaking. BTS places a priority 
on making data readily available and has improved access to 
data through such applications as the National Transportation 
Atlas Viewer and to all forms of transportation data through 
the National Transportation Library. BTS products include the 
commodity flow survey and its transborder freight data program, 
which are the foundations of our understanding of freight 
transportation. The range of BTS's airline data is widely 
cited. BTS led the establishment of the continually growing 
SafetyData.gov website and supports MAP-21's performance 
measurement goals.
    The item with the largest impact on my organization took 
place after the passage of MAP-21. January's omnibus 
appropriations bill transferred the powers and authorities of 
the Research and Innovative Technology Administration to the 
Office of the Assistant Secretary for Research and Technology. 
This is the culmination of an initiative begun in the 
President's FY-13 budget request. The elevation to the Office 
of the Secretary will bring more leadership insight into 
transportation research and development and data and 
statistics, and will heighten their influence on policy 
discussions and decisionmaking. The Trust Fund programs of the 
Office of the Assistant Secretary will continue their existing 
missions and remain key components of the newly elevated 
office.
    In addition, the elevation returns responsibility for 
positioning, navigation and timing, and spectrum management to 
the Secretary's office, appropriate for a critical 
responsibility which impacts all nonmilitary users of GPS. We 
will continue to oversee the wide-ranging and cross-modal 
efforts of the Volpe National Transportation System Center and 
the Transportation Safety Institute.
    The GROW AMERICA Act recognizes that research and data play 
a significant part in improving safety, transportation planning 
and decisionmaking, and preparing the Nation's workforce. The 
GROW AMERICA Act requests a few changes in research and data 
programs; specifically, implementing the results of the second 
Strategic Highway Research Program by allowing the allocation 
of up to 25 million per year from the highway account; 
establishing a national cooperative freight research program in 
support of departmental freight goals, including a targeted 
focus on hazardous materials; creating a priority multimodal 
research program enabling cross-agency research and innovation 
in three priority areas: infrastructure systems resilience and 
recovery, a zero-emissions transportation system, and a 
multimodal STEM education and workforce development program.
    Thank you for this opportunity to update you on our 
progress, and I look forward to your questions.
    [The prepared statement of Mr. Winfree follows:]

   Prepared Statement of Gregory D. Winfree, Assistant Secretary for 
       Research and Technology, U.S. Department of Transportation
    Chairman Blumenthal, Ranking Member Blunt, and Members of the 
Committee, thank you for the opportunity to appear before you with my 
colleagues today to talk about the Department's progress in 
implementing the directions of the Moving Ahead for Progress in the 
21st Century Act (MAP-21), and the Administration's proposal to 
reauthorize surface transportation programs, called the GROW AMERICA 
Act. I will also discuss the recent elevation of the former Research 
and Innovative Technology Administration (RITA) into the Office of the 
Secretary.
    Transportation research, technology and data are critical tools for 
improving the safety, efficiency, mobility, capacity and state of good 
repair of America's transportation systems; and for reducing 
transportation's environmental and societal impacts. The Office of the 
Assistant Secretary for Research and Technology is pleased to continue 
to lead the Department of Transportation's research coordination 
efforts, driving cross-modal collaboration to meet 21st Century 
challenges.
    Continual development and adoption of new processes and advanced 
technologies are reducing project delivery times, improving system 
operations and capacity, extending the life of transportation 
infrastructure, and providing actionable information to travelers and 
transportation planners. As Secretary Anthony Foxx noted at January's 
Transportation Research Board's Annual Meeting, research and data have 
a significant role to play in addressing America's infrastructure 
deficit by improving planning and adopting innovative best practices; 
stretching scarce resources with well-researched, data-driven 
innovation resulting in smarter capital projects which are built better 
and cost less, making more funding available for projects. A good 
example of this is accelerated bridge construction, reducing the time 
for small bridge replacement--saving funds which can then be used for 
other work.
Moving Ahead for Progress in the 21st Century Act (MAP-21)--Our 
        Progress
    The Congress has long recognized the value of transportation 
research by funding research and data programs through the Highway 
Trust Fund. In my organization, three programs that you authorized 
under MAP-21 have continued to advance our common goals for American 
transportation--the Intelligent Transportation Systems (ITS) Research 
Program; the University Transportation Centers (UTC) Program, and the 
data and information programs of the Bureau of Transportation 
Statistics (BTS). Allow me to take a few moments to describe the 
progress we have made.
Intelligent Transportation Systems (ITS) Research
    In ITS research, some of our team's progress has been attracting 
public attention--most notably through the ITS-funded Connected Vehicle 
Safety Pilot, the largest such test program in the world, conducted 
through the University of Michigan Transportation Research Institute 
(UMTRI) in Ann Arbor, Michigan. The Department tested safety 
applications with everyday drivers under both real-world and controlled 
test conditions. These test results led to the National Highway Traffic 
Safety Administration's (NHTSA) February decision to move forward with 
vehicle-to-vehicle (V2V) communication technology for light duty 
vehicles. This technology will improve safety and has the potential to 
reduce non-impaired fatalities by 80 percent. It would do so by 
allowing vehicles to ``talk'' to each other and ultimately avoid many 
crashes altogether by exchanging basic, anonymous safety data, such as 
speed and position, ten times per second. This major decision was based 
largely on the research, technology developments, test deployments, and 
data collections and analyses conducted under the ITS Research Program. 
Research indicates that safety applications using V2V technology can 
address a large majority of crashes involving two or more motor 
vehicles. With safety data such as speed and location flowing from 
nearby vehicles, vehicles can identify risks and provide drivers with 
warnings to avoid other vehicles in common crash types such as rear-
end, lane change, and intersection crashes.
    But that's certainly not all. The Department continues to work 
collaboratively across the Operating Administrations towards connected 
vehicle applications for heavy duty vehicles, and our colleagues at the 
Federal Highway Administration are preparing to issue guidance in 2015 
for installing vehicle-to-infrastructure applications for roadway 
safety and improved traffic operations and maintenance, drawing on the 
connected vehicle data that will be made available. ITS research has 
enabled multimodal Integrated Corridor Management (in part through 
demonstration projects in Dallas and San Diego), and Next Generation-
911. Additionally ITS is using connected vehicle technology research to 
reduce congestion, improve road weather information and real-time data 
capture, and reduce emissions.
    In support of these advances, the ITS program continues to assess 
the legal and policy structures needed to make these safety, 
operational and environmental improvements a daily reality, with an 
emphasis on ensuring data privacy and on the technologies enabling 
security of cyber-physical systems. And, we continue to work actively 
with our partners in the standards developing organizations (SDOs) to 
ensure that the many private sector actors involved in ITS deployment--
from Original Equipment Manufacturers (OEMs) to suppliers to technology 
firms to infrastructure and construction firms--all produce 
interoperable equipment and systems that can seamlessly share the data 
that enables safety and other applications. We continue to pursue this 
interoperability with our international partners as well, as 
transportation equipment and services are a global market. Finally, I 
note that all of this success, and the standards that support it, are 
based upon the availability of the 5.9 GHz Dedicated Short Range 
Communications (DSRC) spectrum. Allocated in the U.S. and 
internationally for transportation safety, the 5.9 GHz band was 
specifically selected to enable the ten-times-per-second exchange of 
information needed to bring to reality the safety improvements that 
remain the primary goal of ITS research.
University Transportation Centers (UTC) Program
    Since the late 1980s, Congress has acknowledged the important 
contributions made to transportation research, technology transfer, 
education and workforce development by America's universities. While 
the form and structure of the UTC Program has changed many times over 
the years, the work of the UTCs in developing solutions to the problems 
faced by the Federal and state departments of transportation, in 
bringing innovation to the transportation system, and in developing the 
next generation of transportation leaders, has enriched the Nation.
    We are extremely pleased with the consortia of universities 
selected under the full and open competition enabled by MAP-21. 
Covering over 120 universities which bring expertise in multiple 
disciplines, both traditional (civil engineering) and not (public 
health, psychology and sociology, studying safety culture), UTCs enable 
the systemic, interdisciplinary, cross-modal research we need to 
address increasingly complex challenges that cross traditional 
boundaries. UTCs do this while educating undergraduate and graduate 
students in the technical and problem-solving skills we need moving 
forward--a ``win -win'' if I've ever heard one. I always enjoy the 
opportunity to meet with the bright young students at our UTCs, to hear 
about what exciting new things they are developing in the laboratories 
and classrooms, and how their own lives are changing, even as they add 
to our transportation knowledge. I encourage the members of this 
Committee to take those opportunities as well.
    In MAP-21, we were directed to expand the transparency of the UTC 
grant selection process; to include more external reviewers; and to 
select and fund the selected grants by October 1, 2013. I am pleased to 
report that we met all of these mandates, and in doing so selected the 
most vibrant group of UTCs yet. Starting from a relatively new place 
for us--with no designated UTCs and with a Secretarially-determined set 
of strategic research goals--we established robust, thematically-
focused review teams so that experts in topic areas were aligned with 
the proposals most appropriate to their areas. While my office was 
ultimately responsible for the process, well-managed by the hardworking 
UTC program staff, the review teams drew from all DOT Operating 
Administrations and from numerous outside experts, organized by topic 
area. Together, the teams worked through the 142 applications received 
for the 35 UTC grants--a record response--to bring out the best fits to 
meet our research goals. As required by MAP-21, each applicant received 
copies of the written reviews used in the evaluation process, so that 
those not selected know how to improve their applications for the next 
time, and those selected know how to improve upon identified weaknesses 
as they execute the grants. This enhanced process worked so well that 
we received no complaints about the process or the fairness of the 
selections. In addition, we were able to recompete two grants for which 
we did not receive applications the review teams thought sufficient, 
instead of being forced to select lower quality applications. It is our 
hope that this demonstrated process will be continued under the next 
authorization.
    It is exciting to me to see the results we are already starting to 
garner from our MAP-21 UTCs. For example, in the aftermath of 
Superstorm Sandy, one of our UTCs collaborated with a private partner 
to use mobile Light Detection and Ranging (LiDAR) technology to assess 
storm damage to buildings, roadways, and utilities in the devastated 
coastal communities of New York and New Jersey. This work has led 
directly to commercial availability of equipment and techniques to 
quantify the disastrous effects of a major storm, and to use that data 
to help communities prepare for and recover from future extreme weather 
events.
    Work in robotic bridge inspections, automated vehicles, wireless 
monitoring of the structural integrity of bridges, improvements in 
livability and environmental sustainability, and broad advances in 
freight movement and capacity, economic competitiveness, passenger 
safety, and more effective operations and maintenance--all are 
developments we are already starting to see, and we look forward to 
more innovations in the future as our UTCs partner with state DOTs, 
local agencies, transit agencies, rail companies, and the private 
sector to deliver solutions and a trained workforce for American 
transportation.
Bureau of Transportation Statistics (BTS)
    BTS continues to fulfill its role as one of the Federal 
Government's thirteen designated principal statistical agencies, 
producing key information to illuminate public and private decisions on 
a range of transportation-related topics. BTS places a priority on 
making data readily available, and has recently taken steps to improve 
access to geospatial data through the National Transportation Atlas 
Viewer and to all forms of transportation data through BTS' National 
Transportation Library (NTL). BTS products include the Commodity Flow 
Survey and its Transborder Freight Data Program, which are the 
foundation of our understanding of freight transportation and of the 
Federal Highway Administration's (FHWA) Freight Analysis Framework 
(FAF). BTS data on airline traffic, finance, and on-time performance 
are widely cited. BTS also compiles a wide range of performance data in 
the National Transportation Statistics and State Transportation 
Statistics online reports.
    While MAP-21 largely continued existing BTS functions and products, 
there were several new requirements on which we have been making 
significant progress. Asked to establish a program to integrate safety 
data across modes, and to address gaps in safety data programs of the 
Department, BTS led the establishment of the continually-growing 
Safety.data.gov, and is continuing to drive the multi-Operating 
Administration assessment of safety data gaps. BTS has also expanded 
its Confidential Close Calls Reporting Program. BTS supports MAP-21's 
performance measurement goals by publishing performance data through 
the National Transportation Statistics and the Transportation 
Statistics Annual Report; and by providing performance data to the 
annual DOT Performance and Accountability Reports.
    BTS's National Transportation Library was given a much broader 
mandate in MAP-21, now being required to serve as a central depository 
for research results and technical publications of the Department; to 
provide a central clearinghouse for transportation data and information 
of the Federal Government; to serve as coordinator and policy lead for 
transportation information access; and to coordinate efforts among, and 
cooperate with, transportation libraries, information providers, and 
technical assistance centers, with the goal of developing a 
comprehensive transportation information and knowledge network. 
Accomplishing this far-reaching mandate within the unchanged BTS 
authorized funding level has been a significant challenge, but we are 
making progress. The dedicated NTL staff digitized 20,000 pages of DOT 
historical documents in FY13, and expects to meet the same target for 
FY14, to make these documents accessible. NTL established the National 
Transportation Knowledge Network Steering Committee to receive, 
monitor, and implement coordinated information management projects 
across the community, and plans to launch a National Transportation 
Data Archive. NTL will serve as the public access repository for USDOT 
publications as the Department implements the Office of Science and 
Technology Policy memorandum, ``Increasing Access to the Results of 
Federally Funded Scientific Research.''
Elevation of RITA into the Office of the Secretary
    However, the item with the largest impact on my organization took 
place after the passage of MAP-21. As you know, the Consolidated 
Appropriations Act of 2014, enacted this past January, transferred 
``the powers and duties, functions, authorities and personnel of the 
Research and Innovative Technology Administration. . .to the Office of 
the Assistant Secretary for Research and Technology in the Office of 
the Secretary.'' This is the culmination of an initiative begun in the 
President's FY13 Budget, which requested the elevation of RITA:

        To strengthen research functions across the Department by 
        providing a prominent, centralized focus on research and 
        technology. . .The proposed Office of the Assistant Secretary 
        for Research and Technology will improve coordination and 
        collaboration between operating administrations, resulting in 
        higher quality research outcomes.

    The Department has hit the ground running in adopting the changes 
enacted into law, is transitioning to ensure this new office is the 
focal point for research across DOT, and is looking across the research 
investments made in all of the modes to improve the delivery of 
transportation research and technology programs, and of national 
statistical programs. I had the privilege of being confirmed by the 
Senate as the RITA Administrator on October 16, 2013, and was sworn in 
as the Assistant Secretary for Research and Technology on January 23, 
2014. We continue to pursue all of the missions and programs of the 
former RITA as we transition to the new organizational construct.
    The elevation to the Office of the Secretary will bring more 
leadership insight into transportation research and development, and 
data and statistics, and will heighten their influence on policy 
discussions and decision-making. Organizational change does not happen 
overnight, but I am already seeing how what we do is being drawn into 
leadership discussions as part of the Office of the Secretary, in a way 
we were not when we were an Operating Administration. The elevation 
also places a new emphasis on our research, development and technology 
coordination and collaboration role, and on our technology transfer 
functions. In addition, the elevation returns responsibility for 
Positioning, Navigation and Timing (PNT) to the Secretary's Office, 
appropriate for a critical responsibility of the Department which 
impacts all non-military users of the Global Positioning System (GPS). 
We will continue to oversee the wide-ranging and cross-modal efforts of 
the Volpe National Transportation Systems Center and the Transportation 
Safety Institute.
GROW AMERICA Act
    The Generating Renewal, Opportunity, and Work with Accelerated 
Mobility, Efficiency, and Rebuilding of Infrastructure and Communities 
throughout America Act, or GROW AMERICA Act, is a $302 billion, four-
year transportation reauthorization proposal that provides increased 
and stable funding for our Nation's highways, bridges, transit, and 
rail systems, and for the research and data that support them. The GROW 
AMERICA Act recognizes that research and data play a significant part 
in improving safety, transportation planning and decision making, and 
preparing the Nation's workforce as we move forward into the 21st 
Century. Altogether, the GROW AMERICA Act commits more than $2.6 
billion over four years to advance research and innovations, ensuring 
decision makers at all levels will have access to enriched data and 
analysis, advanced research, and cutting-edge technologies.
    The Highway Trust Fund research and statistical programs of the 
Office of the Assistant Secretary will continue their existing missions 
and remain key components of the newly-elevated office. The GROW 
AMERICA Act would provide these programs with a small inflationary 
increase in funding levels to address critical priorities in delivering 
actionable research and statistical results to the Department and to 
our many external partners. However, in coordination with our modal and 
interagency partners, we are proposing a few changes in the research 
and data programs to support Administration priorities, especially the 
proposed freight investment program, which I would like to highlight 
for you.
New Programs

  <bullet> National Cooperative Freight Transportation Research 
        Program: The GROW AMERICA Act establishes the National 
        Cooperative Freight Research Program in support of Departmental 
        freight goals, including a specific, targeted focus on 
        hazardous materials transportation. (Section 8101)

  <bullet> Prioritizing a Multimodal Research Program: The GROW AMERICA 
        Act creates a Priority Multimodal Research Program enabling 
        cross-agency research and innovation along three priority 
        areas: infrastructure systems resilience and recovery; advanced 
        research towards a Zero Emissions Transportation System; and a 
        multimodal STEM Education and Workforce Development program. 
        (Section 8103)
Changes to Existing Programs

  <bullet> Advancing Intelligent Transportation Systems: The GROW 
        AMERICA Act will improve vehicle and passenger safety by 
        advancing intelligent systems in vehicles and in smarter 
        infrastructure across all modes, and by exploring new ways to 
        utilize real-time information to aid the flow of goods along 
        America's freight corridors.

  <bullet> Accelerating Deployment of Highway Technologies and 
        Innovations: The GROW AMERICA Act allows the allocation of up 
        to $25 million per year from the Highway Account to implement 
        the findings and results of the second Strategic Highway 
        Research Program (SHRP2), which promises innovations in highway 
        safety, renewal, reliability, and capacity. (Section 2003)

  <bullet> Maximizing the Research, Technology and Workforce Results of 
        the UTCs: The GROW AMERICA Act enhances the effectiveness of 
        the current University Transportation Centers (UTCs) program by 
        enabling funds to flow into cross-disciplinary university 
        transportation research by expanding the sources for grant 
        matching funds to include funding from more Federal-Aid 
        accounts and funding provided by other DOT operating 
        administrations. (Section 8102)

  <bullet> Supporting National Goals in Freight Policy and Planning: 
        The GROW AMERICA Act will improve data and technology support 
        to national freight goals by strengthening the Bureau of 
        Transportation Statistics' (BTS) ability to require responses 
        to freight and intermodal data surveys, and by enabling 
        nationally consistent statistics on maritime port performance. 
        In addition, the Act will add an Intelligent Transportation 
        Systems (ITS) freight research, demonstration and applications 
        focus to the ITS Research Program goals. (Sections 8104, 8105)
Reflecting Organizational Change
    The GROW AMERICA Act continues the transformation of research 
offices, as laid out by Congress, elevating the former Research and 
Innovative Technology Administration (RITA) into the Office of the 
Assistant Secretary for Research and Technology. As is the case with 
other transportation programs, having multi-year certainty of our 
authorization and funding allows for better planning and decision-
making about research and data investments.
    Thank you for this opportunity to update you on our progress, and I 
look forward to your questions.

    Senator Blumenthal. Thanks, Mr. Winfree.
    I'd like to begin my questioning with Mr. Szabo and really 
pursue a point that Ms. Quarterman raised and I emphasized 
earlier, which is that standards need to be sufficiently high, 
they need to be enforced rigorously, and that penalties have to 
provide a deterrent to violation of them. And Ms. Quarterman 
rightly emphasized the need for increased penalties when they 
fail to provide a deterrent to violation-of-safety standards.
    The experience of Metro-North, I think, provides a national 
poster railroad in culminating years of neglect and systematic 
and cultural failure in a series of catastrophic incidents 
costing lives and injuries, as well as dollars. And I think 
that a lot of eyes were opened by the series of reports, most 
significantly in the Connecticut Post, that detailed the 
absence of significant penalties over a period of time, 2004 to 
2013, where most of the penalties were in the range of $5,000 
or $10,000--the total, I think, was around $220,000--for a 
series of defects in procedures and operations that were 
serious and severe. One of them, for example, applied to Robert 
Luden, a Metro-North worker killed on the tracks near West 
Haven as a result of a senseless and needless neglect of safety 
by Metro-North. The $5,000 was nowhere near a measure of the 
kind of message and penalty that should have been imposed. More 
recently, a report about Kenneth McGrath, whose death in 2009 
resulted in a penalty of $2,000. These relatively minuscule 
penalties of $2,000 or $5,000 or $10,000--I think the highest 
over that period of time was $39,000--plainly, I think, provide 
an inadequate deterrent to violation-of-safety standards.
    My question to you is, What is the reason for these small-
to-minuscule penalties? What can be done to increase them? And 
isn't it, in a sense, a mark of inadequate scrutiny--and it may 
be that your authority needs to be increased--that we have this 
kind of pattern?
    Mr. Szabo. Well, thank you for the question, Senator.
    First, let me say that, you know, the series of events on 
Metro-North were an eye opener for all of us. As you've heard 
me say, you know, the goal of my agency is continuous safety 
improvement. It's what I expect from myself, it's what I expect 
from my agency, it's what I expect from the industry that we 
regulate. And so, even though we've been able to drive down 
accidents, injuries, and fatalities over the past decade to 
record lows, we always look for the avenues that we can take to 
improve, to ensure that we continue to achieve new record lows. 
How do we get to zero? And then, once we get there, how do we 
stay there?
    Certainly, penalties and fines are one piece of the mix. 
It's one tool in our toolbox. It's one that we try to use 
effectively. You know, if you're a carpenter, a hammer is 
important--you bet--but, it's not the only tool that you use to 
build a house.
    Certainly, coming out of the ranks, as a railworker that's 
been out there, and as a union rep that's written up complaints 
to the agency I now head, there has always been a frustration 
with the level of penalties. So, one of the things that I did 
when I got here was make it a priority to do what I could with 
the tools that I had to increase our level of penalties. In the 
5 years I've been here, Senator, we have, in fact, assessed the 
highest number, the highest dollar amount, of penalties in any 
5-year period in the agency's history.
    Senator Blumenthal. But, those penalties, in the Metro-
North incidents, were extraordinarily low, were they not?
    Mr. Szabo. Well, there's a penalty schedule that we have to 
follow. And, while certainly we can and will once again take a 
look at reviewing that penalty schedule, our authority is 
somewhat limited, I think, to get to the level of penalties 
that you're talking about.
    Senator Blumenthal. Well, that's----
    Mr. Szabo. But, Senator----
    Senator Blumenthal.--where I think the----
    Mr. Szabo. Yes.
    Senator Blumenthal.--important point is, whether we need to 
increase that authority or provide some other incentives for 
the agency to be more rigorous and vigorous, more aggressive, 
in its enforcement. Because, frankly, Mr. Szabo, a lot of 
riders have lost trust and confidence, not only in the 
railroad, but also in the enforcement authority of the FRA, and 
similar of Federal watchdogs that are responsible for 
protecting safety.
    Mr. Szabo. Well, and we certainly owe the public. You know, 
we owe the public better. We always owe the public better. We 
have our work to do as an agency, and certainly Metro-North as 
a railroad, to regain that trust.
    But, I really think that if you take a look at what has 
been proposed in the GROW AMERICA Act, it has the package that 
we need to achieve the next generation of safety. And, while 
penalties and enforcement are one piece of that puzzle, I would 
argue that it's only a piece. What we've learned through Metro-
North is less about the need for more inspection, more 
enforcement, and, frankly, comes more down to the need to 
advance proactive risk-based programs that identify and 
mitigate risk in advance, things like confidential close calls 
in the system safety rule that will be final later this year 
that will require all passenger railroads to do an analysis and 
then file a risk mitigation plan with us that we review and 
approve. And this gets refreshed on an annual basis. So, I 
think there are more tools in the package that we have in Buy--
or, GROW AMERICA--is the appropriate mix of tools.
    Senator Blumenthal. I'm going to return to this line of 
questioning. My time is expired for right now, but----
    Mr. Szabo. Sure.
    Senator Blumenthal.--we'll have a second round. And I 
appreciate your responses to my question. I continue to believe 
that there has to be attention to the penalty provisions to 
make sure that they are commensurate with the kind of neglect 
and failing that we've seen at Metro-North on occasion to deter 
that kind of violation of basic standards that the public has a 
right to expect.
    I'm going to turn to Senator Thune, the Ranking Member of 
the Commerce Committee, now.

                 STATEMENT OF HON. JOHN THUNE, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    Senator Thune. Thank you, Mr. Chairman. I want to thank you 
and Senator Blunt for holding this hearing. I've said many 
times that maintaining and improving our Nation's 
infrastructure is absolutely vital to our country's economic 
prosperity. And it's also essential that we have a reliable and 
a safe system of transportation in this country.
    You all represent agencies that are key to that mission, 
and I appreciate you being here and your willingness to answer 
questions.
    I want to direct the first question, if I might, to 
Administrator Szabo, and that has to do with positive train 
control. I was pleased to see that the GROW AMERICA Act, for 
the first time, formally acknowledged the need for an 
extension. But, my question has to do with why there wasn't a 
straightforward extension of the entire deadline, as opposed to 
trying to deal with this, as has been suggested, on a case-by-
case basis, knowing full well that none of these railroads are 
going to be able to meet that 2015 deadline.
    Mr. Szabo. Senator, we really believe that the package that 
we've put together under GROW AMERICA, particularly relative to 
positive train control, gives us the right tools and provides 
the right balance to most advance and ensure public safety. You 
know, we believe--you've got two extremes on this argument. And 
every time I come and testify, I hear it from the different 
Senators--you know, those that are saying that under no 
circumstances should you expand the 2015 deadline, to those 
that say there should be a blanket extension. We believe that, 
with the proposal that we have for provisional certification, 
that, by working with each carrier to modify their 
implementation plan in setting up the milestones that fit for 
each railroad, based on the technical and programmatic 
challenges that each one has individually, and then being able 
to provisionally certify a piece of the system, that we can 
best advance the benefits--achieve the benefits of as much of 
PTC as possible, as soon as possible. So, we really think that 
it's the right approach that recognizes the challenges while 
also having that accountability and giving the public what they 
deserve.
    Senator Thune. But, doesn't it make sense if you want to 
hold the railroads' feet to the fire: there's no deadline in 
what you're talking about. Many of us, my colleagues on the 
Committee here and others, have introduced legislation that 
would provide this blanket extension that I referred to, which 
does have a hard, firm deadline. We know that no single 
railroad, freight or passenger, is likely to meet the 2015 
deadline, but the proposal that you're suggesting here doesn't 
have any particular sense of urgency attached to it, 
especially, if you're going to be able to waive this kind of on 
a case-by-case basis. So, it strikes me, at least, that it 
would make a lot more sense if you want to treat the railroads 
in sort of a fair way, you have to push that out there, knowing 
that they're not going to be able to meet the 2015 deadline, 
but still keeping that sense of urgency and their feet to the 
fire, if you will.
    Mr. Szabo. The key, though, Senator--it's still critically 
important that you give us the authority that we need for 
provisional certification. Because, otherwise, we can't approve 
an implementation plan that doesn't fully meet the deadline. We 
can't approve partial deployment. And so, the industry needs, 
as well as my agency needs--the industry deserves--the 
opportunity for us to have the appropriate element of 
flexibility to work with them on the challenges that they're 
facing while still advancing as much of the system as possible, 
as quickly as possible. The technology will save lives. It 
would have saved lives on Metro-North. You know, so it's 
critical that we have the tools that we need to properly manage 
deployment.
    Senator Thune. Well, I think the legislation also has the 
provisional certification that you talked about, as well. It 
has some flexibility, but it also has the deadline attached to 
it. It just seems like a better approach.
    Mr. Szabo. Well, we'd certainly be willing to work with you 
on some technical assistance to try and strike the right 
balance, here.
    Senator Thune. OK.
    Quickly, because I have a lot of colleagues that have 
questions. I want to direct this to you, Ms. Ferro. This 
spring, both the DOT Inspector General and the GAO reviewed the 
CSA program, and you reportedly concurred with the IG's six 
recommendations, but two GAO recommendations remain open, and 
the official FMCSA comments were not provided to the GAO. Does 
FMCSA plan to take action on those recommendations? And could 
you provide us an update? And, if not, explain why.
    Ms. Ferro. Certainly. The Compliance Safety Accountability 
Program, otherwise known as CSA, is, at its heart, a program to 
improve our overall enforcement and focus on the highest-risk 
carriers with our limited resources. And the data structure, 
which takes advantage of over 3 million inspections managed 
each year to get at the performance of individual carriers, 
really does provide carriers, as well, an opportunity to look 
at their own performance and improve, before we even need to 
get there, if, in fact, they're showing high-risk behavior.
    That being said, it is an improvement over the prior 
system, but it's a program that we can continue to work on. And 
the GAO report, as well as the Inspector General's report, 
identify strategies for us to improve both the adequacy of the 
data, the utilization to ensure we're looking at the highest 
risk carriers, as well as the access of the data to all--the 
public that takes advantage of it.
    We did, in fact, reply in full to the GAO. I'm sorry you 
don't have a copy of that. We'll make sure you see that. They 
received our response last month. And there are certainly 
aspects of the GAO analysis that we are making full use of. The 
core component that we disagreed with really relates to a 
methodology they proposed that isolates the CSA analysis to a 
very small group of carriers, only the largest ones. And, while 
large carriers have a significant impact on crash activity 
across our country, smaller carriers impact about half of those 
fatalities and injury crashes. So, it's important we look at 
the full spectrum.
    So, to cut to the chase, we are utilizing the 
recommendations from both agencies in continuing to improve the 
CSA program, the underlying data analysis, and accessibility to 
that data.
    Senator Thune. Thank you, Mr. Chairman. Thank you, Senator 
Blunt.
    Senator Blumenthal. Thanks, Senator Thune.
    Senator Klobuchar.

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. Thank you very much, Mr. Chairman. Thank 
you, to you and Senator Blunt, for your good work in this area.
    I just want to start off by saying we need to get MAP-21 
done, and we need to move forward on these rail safety rules 
and everything else. I was just in southern Minnesota on 
Highway 14, which has received some Federal funding in the 
past, but now 125 people have died in two decades on one 
highway that's a two lane highway in southern Minnesota, a lot 
of it because of freight that should be on a four lane highway. 
Some of it because we simply don't have enough rail in this 
country, and it's not safe enough. And so, in Minnesota, thanks 
to the good fortune of our neighbors in North Dakota, where 
they're producing oil and natural gas, it has put a strain on 
our rail system, and a lot of our ag products are having a hard 
time finding rail. And we need to upgrade everything we have, 
as far as I'm concerned, because if we're going to actually be 
this export economy that we want to be, we need to have a 
transportation system that's up to the task.
    Ms. Quarterman, PHMSA recently sent its proposed rule for 
rail tank car standards to OMB for review. I know your agency 
is working diligently to finalize a rule. It's a complex task. 
Can you tell me when the final rule will be completed?
    Ms. Quarterman. I cannot tell you when the final rule will 
be completed. I can tell you what the process is.
    The process is that it goes over to----
    Senator Klobuchar. No, I kind of know the process.
    Ms. Quarterman. OK.
    Senator Klobuchar. I'm just wondering----
    Ms. Quarterman. I can assure you, Senator, that----
    Senator Klobuchar.--if you have any timeline for when it 
will be done?
    Ms. Quarterman.--Senator, we're working very hard to get 
the rule out as soon as humanly possible. It's a first priority 
for Secretary Foxx and for me, so we are working as hard as we 
can to get the rule out as soon as possible.
    Senator Klobuchar. There are currently about 228,000 DOT-
111 rail tank cars which are designed to carry a wide range of 
products, including hazardous and nonhazardous materials. 
Roughly 92,000 are used to move flammable liquids, yet only 
about 14,000 of these are built to the latest industry safety 
standards.
    Ms. Quarterman, considering the large number of the DOT-
111s in the fleet, is PHMSA considering different rules on what 
product is being shipped? And would such an approach enable 
PHMSA and the industry to better apply resources and get the 
quickest safety improvements?
    Ms. Quarterman. Well, the rule that we discussed earlier 
includes, not just tank cars, it's a comprehensive approach to 
rail safety. And included in that rule are issues related to 
the existing and the new tank cars. So, I can't go into the 
details of what's in that rule, but we are taking a 
comprehensive approach to deal both with prevention, 
mitigation, and response to crude-by-rail incidents.
    Senator Klobuchar. OK. As you know, we've had one in 
Minnesota and one in North Dakota. Last month, Canada's 
Transportation Safety Board announced that all older tank cars 
used for carrying crude must be phased out by May 2017. How is 
PHMSA approaching the issue of whether to phase out older tank 
cars? And has Canada's action increased pressure to include a 
phaseout requirement as part of the rulemaking?
    Ms. Quarterman. I can tell you that we are working very 
closely with Canada. We are talking to them on a weekly basis 
about their actions, and coordinating, to the extent we can, 
actions here with them, as well. We applaud their movement to 
remove 111 tank cars in three years' time. Secretary Foxx has 
already said that those cars should be removed from crude oil 
service, or retrofitted. Canada has the advantage of being able 
to say, in a public forum, that they can remove those cars from 
service in 3 years. Because we have a pending rulemaking under 
the existing--the requirements here in the United States, we 
cannot say anything comparable on the record until it goes 
through the rulemaking process.
    Senator Klobuchar. OK.
    Mr. Szabo, this committee last passed a rail safety bill in 
2008. Since then, we all know that the landscape of freight 
rail has changed dramatically. A transportation reauthorization 
bill would be an opportunity to update some of the rules and 
standards that govern the freight rail industry. How is the 
increase in freight rail traffic over the past few years 
changed how this committee should view rail safety? And what do 
you think are the issues we could address in that bill?
    Mr. Szabo. Well, thank you, Senator.
    I mean, I think it's, first, important to note that, by 
many respects, rail is, in fact, the safest means of moving 
both people and goods. When you compare it to the other 
transportation modes, under most measurements, most 
circumstances, we're the safest transportation mode. And again, 
statistically, the industry is at an all time best, part of a 
decades-long continuous improvement in rail safety, to record 
low numbers of accidents, injuries, and fatalities.
    But, there is no question that the change of products being 
hauled, and particularly with these hazardous, flammable 
materials, that it's forcing us to really change the way that 
we view safety, you know, take a fresh look, a new look, at 
everything that we think that we have known about safety. Even 
though we have historically been very, very good, and continue 
to get better, particularly when it comes to these volatile 
products, we're going to have to be near perfect. And so, as 
Administrator Quarterman said, you know, it's a matter of 
taking a look at everything from the tank car, to understanding 
the product, ensuring proper classification. You know, those 
things that we've put into place with the industry through the 
voluntary agreement are the appropriate steps to be taking, 
using the routing protocol, using the 27 factors to, through 
the computer model, ensure that we're using the most safe, most 
secure route for moving the products, hardening the assets, 
additional track inspections, both by the industry as well as 
with my inspector resources, ensuring a higher level of health 
to the equipment, you know, and continuing on.
    Senator Klobuchar. Thank you very much.
    Senator Blumenthal. Thank you, Senator Klobuchar.
    Senator Blunt.
    Senator Blunt. Thank you, Chairman.
    Mr. Szabo, I was confused by your answer on positive train 
control. Do you have the authority to extend the deadline, or 
not?
    Mr. Szabo. No, we do not. Only Congress can extend the 
deadline.
    Senator Blunt. Well, that's what I thought. So, you don't 
have any authority--there are no provisions that you have that 
allow you to do a provisional certification.
    Mr. Szabo. Not at all, Senator. And that's why we believe 
it's so critical that we be granted that authority so we can 
manage this in a rational manner.
    Senator Blunt. And does that mean you don't want a deadline 
in the----
    Mr. Szabo. Well, we believe that----
    Senator Blunt. The bill that Senator Thune and I are 
sponsoring with several other people on this committee sets a 
new deadline of 2018 and gives you provisional abilities to 
implement between now and then. What more than that do you 
want?
    Mr. Szabo. I think the key is ensuring that we have the 
appropriate flexibility that we need with the provisional 
certifications, the ability to effectively manage the 
implementation plans on each railroad. I would have to take a 
look at how your legislation does, or does not, address that.
    So, like I say, through technical assistance, we'd be happy 
to work with you----
    Senator Blunt. Well, since--you don't think the compliance 
by 2015 by the commuter lines is possible, do you?
    Mr. Szabo. I don't believe there is a railroad in this 
country that will achieve full deployment by 2015. Partial 
deployment could be possible. The one exception might be 
Metrolink, in California. There's a fighting chance that they 
can reach their 2015 deadline. We'll see. But, there's 
certainly not another railroad in this country that can fully 
deploy by the 2015 deadline.
    Senator Blunt. Well, since you don't think that anybody can 
comply with the 2015 deadline, and I don't think that anybody 
can comply with the 2015 deadline, I'd like you to look at our 
legislation and give us some advice on how you think it could 
be improved. We don't want to just blow by this deadline as if 
it's not there. That's not--surely, that's not the right thing 
to do. And I'll continue to have some concerns about 
provisional compliance, for the freight lines particularly, 
that may put them at some competitive disadvantage.
    Mr. Szabo. Right. And it does the opposite, Senator. I 
think that's a real important point. I saw your question to the 
Secretary. And we're concerned with that issue, too. Two 
things. One, I think the final rule amendments that are in 
executive clearance right now are going to partially address 
those concerns. And then the approach for provisional 
certification would fully address those concerns. We agree that 
this is about advancing safety, not putting somebody who's been 
out in front on deployment doing all the right things at a 
competitive disadvantage, where if they have hiccups during 
early deployment, that it ends up gumming up their capacity.
    Senator Blunt. Well, and I think, also, that early 
deployment can create test cases where we see what the problems 
are, what can be done better. I think----
    Mr. Szabo. Precisely.
    Senator Blunt.--it could be a helpful thing.
    Mr. Szabo. Precisely.
    Senator Blunt. OK.
    Mr. Szabo. And that's what provisional certification gives 
us the flexibility----
    Senator Blunt. And have you had a chance----
    Mr. Szabo.--to do.
    Senator Blunt.--to look at the new tower siting agreements 
that appear to be there between the FCC and the Tribal 
Councils?
    Mr. Szabo. Yes. And we think it's a good first step. 
There's clearly more work that needs to be done, but we think 
there is significant movement. But, I would also note that our 
proposal in GROW AMERICA actually gives FRA a little more 
formal seat at the table in working with the FCC. So, again, we 
would urge the adoption of those provisions that we have. We 
think that it can actually help everybody work through this 
tower problem with the FCC.
    Senator Blunt. And of the 10,000 towers that still need to 
be approved, what's your estimate of how quickly the first ones 
may be approved by the FCC?
    Mr. Szabo. I'll have to get back to you for the record on 
that.
    [The information requested follows:]

    Mr. Szabo's Response: In May 2014, the Advisory Council on Historic 
Preservation (ACHP) issued a Program Comment pursuant to its 
regulations implementing Section 106 of the National Historic 
Preservation Act (NHPA). The Program Comment provides an alternative 
method for compliance with Section 106 for certain signal antennas that 
the railroads need to install for Positive Train Control (PTC). The 
Federal Communications Commission (FCC) has also begun to issue 
guidance to provide the railroads and other stakeholders with clarity 
on the process for the implementation of the Program Comment. 
Throughout this process FRA has, and will continue to be, a technical 
resource for FCC. However, FCC is the Federal agency with oversight 
responsibility and authority for tower approval and is responsible for 
the implementation of the Program Comment. Therefore, FCC is best able 
to address specific details and schedules for processing applications 
received under the Program Comment. FRA would encourage the Senator to 
reach out to FCC as the agency best able to answer the Senator's 
question.

    Mr. Szabo. But, I think certainly we continue to make sure 
that the FCC is aware of the sense of urgency. I believe they 
are. I know the industry, I think, was at least reasonably 
pleased with the recent movement by FCC. So, we'll keep 
pressing on the issue.
    Senator Blunt. Ms. Ferro, when Senator Warner was the 
Chairman of this committee--this subcommittee, briefly--he and 
I introduced legislation regarding sleep apnea. The legislation 
required that any action on obstructive sleep apnea be taken 
only through official rulemaking. That was passed unanimously 
by Congress, signed into law. I'm told that medical trainers 
are still referring doctors to past guidance, even though 
there's no rule that has been promulgated yet. Do you know if 
that's true or not?
    Ms. Ferro. Well, Senator, first and foremost, we absolutely 
are abiding by the mandate of Congress that any change to the 
current medical guidance regarding obstructive sleep apnea 
would be done through a rulemaking.
    That being said, what initiated much of the concern, I 
think, that resulted in that law was that we were working to 
clarify the information that's on the long medical form that 
medical examiners who administer the DOT physical for 
truckdrivers and busdrivers follow, and have followed for 
years. The same information that they have always had is still 
in the long form. That has not changed. And, in fact, the 
training that medical examiners--the curriculum that medical 
examiners are required to follow, now that we have a registry 
of certified medical examiners in place, follows the same 
provisions that have always been there. So, there has been no 
change, I assure you.
    Senator Blunt. Let's follow up on that between your----
    Ms. Ferro. We will----
    Senator Blunt.--office and my office, and maybe the 
Committee, and be sure what--we understand what ``no change'' 
means.
    I think the legislation was not very complicated and----
    Ms. Ferro. That's right.
    Senator Blunt.--very specific in what it required. And I'm 
not sure we're in compliance with what the law now says. So, 
let's be sure we are.
    Ms. Ferro. We will follow up. And I will tell you, for 
sure, medical examiners are expected, when they examine a truck 
or a bus driver, to meet--and determine if they meet the 
physical qualifications for holding a commercial driver's 
license, they include a full examination of chronic conditions 
and conditions that could affect that driver's ability to be 
alert and at all times conscious behind the wheel. So, among 
those conditions that they have always looked at have been 
breathing disorders and pulmonary disorders that obstructive 
sleep disorder falls into. So----
    Senator Blunt. Are you in the process of promulgating new 
rules on that----
    Ms. Ferro. We are not.
    Senator Blunt.--as the law would anticipate?
    Ms. Ferro. We absolutely are not. The only--but, we will 
follow up and--as you directed, and meet with your staff and 
make sure that there's a clear sense that we are conforming 
both with the law that you passed last year, as well as a very 
visible and transparent process.
    The requirements haven't changed one bit.
    Senator Blunt. Well, let's be sure we're----
    Ms. Ferro. We will.
    Senator Blunt.--in compliance with the law----
    Ms. Ferro. Absolutely.
    Senator Blunt.--and follow up on that.
    Thank you, Chairman.
    Ms. Ferro. Absolutely. Yes, sir.
    Senator Blumenthal. Thanks, Senator Blunt.
    Senator Fischer.

                STATEMENT OF HON. DEB FISCHER, 
                   U.S. SENATOR FROM NEBRASKA

    Senator Fischer. Thank you, Mr. Chairman.
    And thank you all for being here today.
    Administrator Quarterman, as you know, the rail industry 
worked with a number of agencies in coming to an agreement, and 
it was a voluntary agreement, on the speed reduction standards 
that you recently came up with. Does PHMSA support that 
voluntary agreement?
    Ms. Quarterman. Senator Fischer, the Secretary put together 
a very, I think, aggressive plan, an action plan. The 
Administrators who are sitting here with me today--
Administrator Szabo, Administrator Ferro, and myself--were 
there with the Secretary and the Deputy Secretary when we 
talked to both petroleum and the railroad industries about what 
immediate actions could they take while we do our comprehensive 
rulemaking process to improve safety. And one of the items that 
they put on the table was to restrict the speed. And it is a 
very important element. So, we are supportive that they have 
gone forward to do that with respect to certain trains.
    Senator Fischer. Part of that agreement was community 
relations, emergency response, but specifically to the speed 
reductions. In working voluntarily with agencies, I think 
that's a good way for industry to operate. I think it's a good 
way for the agencies to operate. So, my question to you again 
is, do you support that? Do you support the agencies coming 
with industry, with private industry, in trying to reach these 
voluntary agreements instead of a mandate from the top down 
always?
    Ms. Quarterman. I absolutely support industries coming 
forward. We think that compliance with regulations is not 
enough, in many instances, that when we're talking about moving 
hazardous materials across the country, in the backyards, the 
main streets of America, both the railroad and petroleum 
industries have been given a public trust, and complying with 
the regulations is not necessarily enough. Safety is our 
ultimate goal. So, absolutely, we think it is great when 
industries come together and agree, on a cooperative, 
collaborative basis, to take steps that have not yet been put 
into regulations.
    Senator Fischer. Do you feel that the railroads negotiated 
in good faith during the voluntary negotiations that took 
place?
    Ms. Quarterman. I have no reason to view anything 
otherwise.
    Senator Fischer. I guess I would ask Administrator Szabo 
the same question. Do you support a voluntary agreement with 
the railroads with regards to the speed reductions? We all want 
safety.
    Mr. Szabo. Yes.
    Senator Fischer. That's the number one concern. We all want 
that. We want to make sure that the tank cars that are being 
refitted, possibly--and I know there are some railroads that 
are taking the lead on that, in trying to move forward to make 
sure that we move certain materials in the safest way that we 
possibly can. Do you think this voluntary agreement was a good 
step?
    Mr. Szabo. I think it was very significant, and certainly 
commend the industry for coming forward with it. But, as I said 
earlier to Senator Klobuchar, we have to rethink everything 
that we know and everything that we've been doing relative to 
safety. And so, while I think it's an exceptionally good 
agreement that immediately provides significant benefits to the 
public on safety, it doesn't change the fact that, as we look 
at this entire process, from the time the product comes out of 
the ground until it's delivered to the refinery, that there's 
more work to be done.
    Senator Fischer. OK, thank you.
    I would ask Administrator Ferro--with the new truck driver 
hours of service rules that you put in place in July 2013, do 
you think that they're having a substantial impact on 
productivity? I'm curious, and I wonder how your department is 
going to measure and confirm whether any health benefits have 
really been realized for these.
    Ms. Ferro. Absolutely. And so, the hours of service rule 
that was finalized in December 2011, and, as you note, went 
into full effect last July, was identified, with rigorous 
analysis, to project an impact of saving up to 19 lives per 
year, or at least 19 lives per year, and avoiding at least 500 
crashes--injury crashes--and then significantly more crashes 
and overall net benefit to the Nation. There was also clearly 
in the analysis a recognition of the economic impact on 
industry, a recognition and an analysis that identified about a 
$500 million economic impact--cost to industry. A small portion 
of that is the cost to--or some portion is a cost to our law 
enforcement partners across the country if they went through 
the retraining.
    So, your question as to the point of, ``Do we think that 
has happened yet? What do we think has happened yet?'' So, yes, 
there has been an economic impact on industry. We certainly 
recognized that that would happen. We identified, through an 
unprecedented level of both analysis and solicited public input 
throughout the rulemaking process, as much fact and information 
and data as we could muster from all parties to be sure that we 
were analyzing the components of the industry that that rule 
would affect.
    The majority of the impact is on the long-haul, over-the-
road, irregular-route driver. What we have seen in recent 
months--and I think you probably have heard from some of these 
individuals--is that carriers whose schedules are not 
necessarily an irregular route, but they are scheduled service 
to their customers, that still exceed a 60 hour, 7 day week are 
feeling the impact of the rule, as well. And I think, early on, 
the estimate was, overall, about a 3 percent impact on 
productivity for some of the sectors.
    Now, with regard to the safety benefits, the way crash and 
injury data is reported, we don't have the data yet to show, 
but we certainly do know that it is having an impact, and 
continue to press forward with a rule that's in place, and will 
press forward as we committed, even the rulemaking, to a very 
robust analysis of fatigue, of measuring fatigue, of monitoring 
and measuring the impact of the rule itself, going forward. 
But, with new technologies, we have the ability to do that much 
better than we could before--the electronic logging devices, 
onboard technologies, monitoring of drivers. So, all of that 
will be part of our analysis, going forward, through 
naturalistic driving studies.
    It's very important to reflect on a history of hours of 
service rulemaking, because, much like what Administrator Szabo 
described, where there are--we all agree we want to get to 
safety. And in the motorcarrier industry, no different. We want 
to drive to zero fatalities. There are different points of view 
as to how you get there. There's a great deal of agreement in 
the middle.
    In the case of the hours of service rule, one side of the 
argument felt we didn't go far enough in regulating the hours, 
in the modest changes we made, and the other side feels as 
though we may have gone too far. Both sides took us to court; 
and the court, for the first time in 15 years of litigation 
over hours of service--the court actually deemed that the 
agency, while--and I think the court's own language says, ``We 
think the agency has acted reasonably, if incrementally, in 
tailoring the restart to promote driver health and safety.'' 
But, we now have a rule that has withstood that challenge. And 
so, it's very important, in our view, that we continue the 
analysis. Let's get through several years of this operation, 
let's begin the data collection now, and the analysis now, so 
we can continue reporting.
    Senator Fischer. And, just short answer, do you have a 
timeframe when you'll be able to confirm that?
    Ms. Ferro. No, but I'd like to follow up with you on a 
clearer timeline.
    Senator Fischer. Great, thank you. Thank you----
    Ms. Ferro. Yes.
    Senator Fischer.--for answering the question.
    Ms. Ferro. Thank you.
    Senator Fischer. I appreciate it.
    Thank you, Mr. Chairman.
    Senator Blumenthal. Thank you.
    Senator Ayotte.

                STATEMENT OF HON. KELLY AYOTTE, 
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Ayotte. Thank you, Mr. Chairman.
    Administrator Ferro, it's my understanding that your agency 
is planning to move forward on an issue of increasing the 
minimum insurance requirements for the trucking industry. Is 
that true?
    Ms. Ferro. We have recommended that--we're moving forward 
with an ANPRM to gather data, so yes.
    Senator Ayotte. In doing that, will you commit to ensuring 
that you comply with the Motor Carrier Act of 1980 that says 
that the Secretary shall also include an estimate of the impact 
of the regulations upon the safety of motor vehicle 
transportation, the economic impact on the motor carrier 
industry, including, but not limited to, small and minority 
motorcarriers and independent owner/operators and the ability 
of the insurance industry to provide the designated coverage?
    Ms. Ferro. Yes, you absolutely have our--my commitment and 
the agency's commitment----
    Senator Ayotte. Very good.
    Ms. Ferro.--in that regard.
    Senator Ayotte. And will you make that information public 
in your analysis----
    Ms. Ferro. Yes, we will.
    Senator Ayotte.--when you announce the rule?
    Ms. Ferro. Yes, we will----
    Senator Ayotte. Excellent.
    Ms. Ferro.--as we do. And we'll hope that comments--if we 
aren't going far enough, we hope comments will help us get to 
that----
    Senator Ayotte. Thank you, I appreciate that.
    Ms. Ferro. Thank you.
    Senator Ayotte. I want to follow up on the hours of service 
rules issue. One question--I have a couple of questions. As I 
understand, you've talked about the rigorous--in response to 
Senator Fischer's question, the rigorous analysis in issuing 
that rule. And the Federal Motor Carrier Safety Administration, 
the FMCSA, recently released the results of its MAP-21 mandated 
study on the real world impacts of the hours of service. And 
that was something that was recently released, correct?
    Ms. Ferro. Correct. That's correct.
    Senator Ayotte. So, I assume, when you're talking about 
``rigorous analysis,'' that's what you're referring to, in 
terms of part of your analysis in issuing the hours of service 
rule.
    Ms. Ferro. It is an example of the rigor that we use. It 
is, in fact, in relation to two lab studies in a congressional 
requirement, the broader naturalistic----
    Senator Ayotte. So----
    Ms. Ferro.--going forward, yes.
    Senator Ayotte.--I want to ask you a few questions about 
the study.
    Ms. Ferro. Sure.
    Senator Ayotte. The study pointed out that drivers 
operating under the old rule had greater lane deviations, as I 
understand it. What was the difference, in centimeters, between 
the two groups of drivers?
    Ms. Ferro. So, let's back up so I can just kind of put it 
in context. The study in question was a study actually mandated 
by Congress----
    Senator Ayotte. Right. For good----
    Ms. Ferro.--in MAP-21----
    Senator Ayotte.--reason, because many----
    Ms. Ferro. Yes.
    Senator Ayotte.--of us have heard deep concerns about the 
hours of service rule and how it is impacting the economic--
economically, jobs. And so, Congress, obviously, asked you to 
do a----
    Ms. Ferro. Yes.
    Senator Ayotte.--study as a----
    Ms. Ferro. Yes.
    Senator Ayotte.--result of it.
    Ms. Ferro. Yes. Fair enough. And so, it was very carefully 
scripted--the language was very scripted and constrained us 
from doing the kind of broader, I think, naturalistic analysis 
that we're going to be doing, going forward. So----
    Senator Ayotte. So----
    Ms. Ferro. So--oh, pardon me.
    Senator Ayotte. So--I'm sorry--so, I just----
    Ms. Ferro. Yes.
    Senator Ayotte.--want to make sure that I get a couple of 
these answers.
    Ms. Ferro. Sure.
    Senator Ayotte. So, you feel that that study--so, let me 
just get to the heart of it, then--you felt that study was 
constrained. Because the study itself, as I understand it, only 
included an average of less than 12 days' worth of data with 
106 drivers. Is that true?
    Ms. Ferro. It's true that it contained close to a half a 
million miles, and it included, for each driver, 12 days of 
driving.
    Senator Ayotte. With 106 drivers, correct?
    Ms. Ferro. That's correct.
    Senator Ayotte. And you think that's a large enough sample?
    Ms. Ferro. The study requirements were very closely tied by 
statute----
    Senator Ayotte. OK, but----
    Ms. Ferro.--to the way we conducted the----
    Senator Ayotte.--but do you think----
    Ms. Ferro.--way we conducted the lab study.
    Senator Ayotte.--that's a large enough sample to draw 
conclusions? That's my question.
    Ms. Ferro. Well, interestingly enough, it's the largest 
naturalistic driving study that has ever been done in the 
commercial vehicle industry, so it is statistically a very 
relevant study, yes.
    Senator Ayotte. Did the study show that drivers operating 
under the new rule were more likely to operate during daytime 
hours than nighttime hours?
    Ms. Ferro. It reflected that drivers who are most impacted 
by the rule changes--specifically, the 1:00 to<greek-m>00 a.m. 
sleep requirement, if they use the restart--are most impacted. 
So, the nighttime-schedule driver is the most impacted driver.
    Senator Ayotte. So, my question, simply, to you is that, 
under this rule, we are going to have more drivers driving 
during daytime hours. Isn't that true?
    Ms. Ferro. That will be part of what we continue to 
analyze, going forward. We have not seen that. It is an 
incremental impact. And in the mix of all the commercial 
traffic that starts early mornings across our country, we think 
that impact is far outweighed by the improved driver safety.
    Senator Ayotte. Well, you would agree with me that there's 
a higher crash impact during the day, isn't that correct?
    Ms. Ferro. Yes, it's a much higher concentration of traffic 
during the day.
    Senator Ayotte. So, one of the things I'm hearing from my 
constituents is that, because of the new hours of service rule, 
they actually are going to have to put more trucks on the road 
during the daytime hours, which are the highest crash times, 
because, obviously, there's more traffic during the day that 
you could interact with. And so, have you come up with data as 
to how many more trucks are going to have to be on the road, 
because of the new hours of service rule, during daytime hours 
that, again, in some ways, I think, could undermine what you're 
hoping to accomplish with this rule?
    Ms. Ferro. The analysis in developing the rule did identify 
a marginal impact, but, again, outweighed by the improvements 
of a better-rested driver.
    Senator Ayotte. But, do you----
    Ms. Ferro. But, we----
    Senator Ayotte.--do you know how many more trucks are going 
to have to be on the road during daytime hours? And do we have 
analysis of those numbers so that we can understand (a) the 
impacts on congestion, (b) the impacts on, potentially, I 
suppose, the environment, as well, the impacts on more crash 
potential, because we've got more drivers and congestion during 
the daytime hours? Do we know the answers to those questions?
    Ms. Ferro. Those are all core elements of a data collection 
effort. The rule has been in place now, everybody's been 
operating on it, for 11 months. So, again, we are gearing up 
for doing improved and additional analysis with new data.
    Senator Ayotte. See, here's the problem that we face.
    Ms. Ferro. Yes.
    Senator Ayotte. You're gathering this data, and yet, what 
I'm hearing already from companies that have to operate under 
these rules, both large and small, that have a significant 
impact on our economy, is that they are going to have to drive 
more during the day, they're having to put more trucks on the 
road. So, by the time we have this data, instead of having done 
the analysis in advance, we can have a situation where we are 
not having the impact we want to have on safety, number one, 
which we all want to make sure people are safe and secure, and, 
second, we see the negative impacts on the economy, which--I'm 
shocked at how many businesses are coming up to me, telling me 
about the impact of this rule. And it's not just long-haul 
businesses. I was with a short-haul beer distributor this week, 
and the problem is, they require the long haul to get their 
product to them, and then they drive short-haul distances. So, 
I think there are many impacts to this rule. And, my concern is 
that we've gone forward with it without the type of analysis of 
how many more trucks we'll have on the road as a result of 
this.
    Ms. Ferro. Well, again, we did significant analysis in the 
rulemaking process, solicited as much data and information as 
we could possibly solicit. What has clearly transpired is that 
the trucking industry is hitting profitability levels that 
they've never seen before. I mean, this is among the strongest 
period that the trucking industry has ever experienced, when 
you look at their returns. They are healthy. It has not been an 
easy change for all companies. The vast majority--85 percent of 
the industry out there--is operating--based on the analysis we 
had done. There are those that have had to make adjustments, 
and many have made those adjustments. There are some for whom 
it has been harder. And I recognize that. And I started, last 
December, saying, ``Please, let's sit down, let's walk through 
the logbooks, let's look at the experiences you are having, 
let's get the facts.'' I was out in Minnesota, I was down in 
Arkansas. We just had a meeting in Virginia recently. Again, we 
are very--I am committed, and the agency is committed, to 
gathering the kind of data, to recognizing where the impacts 
are so that we can build the right analysis, going forward.
    Senator Ayotte. Well, I appreciate that. I know my time is 
up.
    In New Hampshire, we have the largest wholesale--the 
largest food wholesaler in the country--CNS Wholesale Grocers--
and they're seeing a very significant impact, I mean, because 
of having to get food there on time.
    Ms. Ferro. Yes.
    Senator Ayotte. And also during seasonal issues, and also 
weather issues, which are significant across the country and in 
New England. So, I would ask, also, that you take their 
concerns into consideration, as well.
    Ms. Ferro. Absolutely. Absolutely.
    Senator Ayotte. Thank you.
    Senator Blumenthal. Thank you.
    Senator Rubio.

                STATEMENT OF HON. MARCO RUBIO, 
                   U.S. SENATOR FROM FLORIDA

    Senator Rubio. Thank you, Mr. Chairman.
    Thank you all for being here today.
    Administrator Szabo, thank you for being here, as well. I 
wanted to talk to you briefly about All Aboard Florida, which I 
know is a project you're aware of. As it's currently proposed, 
the public benefits of that project would largely be 
concentrated in the areas like West Palm Beach, Fort 
Lauderdale, Miami, and Orlando, where the stops are, but it 
would impose some costs and impacts to all local governments 
along that corridor. There is this feeling along the corridor 
in some of the areas that don't have that concentration, that 
there are virtually no public benefits provided to them, but 
all the costs that come along with this project. We're hearing 
a lot of concern about that from our constituents.
    In particular, I wanted to ask you a couple of points and 
see where FRA is with regards to this. In the midst of 
conducting an environmental impact statement for the project, 
I've heard from constituents and local officials who support 
this project, and I've also heard from constituents, including 
many in the Treasure Coast, which is just north of West Palm 
Beach, expressing concerns about the impacts this could have on 
their communities. The issues they're concerned about include 
safety at the gate crossings and noise pollution, among others.
    I've passed these comments along to the FRA as we've gotten 
them, and I hope the agency has reviewed them. Can you share 
with us whether you are taking these concerns into 
consideration when you're making assessments and conducting 
oversight over this project?
    Mr. Szabo. Yes. Senator, it's really important, and I 
strongly encourage you, as well as all citizens, to stay 
engaged in the EIS process to make sure that they get their 
concerns--their voices heard, and get on the record in that 
process. Because that process is, in fact, what is used to make 
sure that these concerns get addressed as the project moves 
forward.
    So, you know, yes, we're hearing the concerns, we're making 
sure that everything gets forwarded to the record. Rest 
assured, there will be a robust process with public hearings. 
And for those people that have reached out to us, we'll make 
sure that they're aware of those public hearings. We'll make 
sure that they're fully publicized.
    So, all of these concerns get on the record, and we ensure 
that there are measures to address these concerns as part of 
that record.
    Senator Rubio. Let me ask specifically about safety. 
There's already been an EIS conducted on the West Palm Beach-
to-Miami segment. And FRA issued a finding of ``no significant 
impact.'' In that finding, the FRA lists over 120 locations for 
proposed crossing upgrades. Is the FRA proposing that those 
crossings be upgraded, or are those upgrades that are being 
recommended by All Aboard Florida? Do you know?
    Mr. Szabo. No, we intend to hold All Aboard Florida to the 
highest standard of safety. We have guidance that is out there 
for the grade crossing protection, approaches, and systems that 
we expect in any of our--in this case, it's not a high-speed 
rail project, it's a regional express project, but there are 
standards for that. And we expect that high bar to be met.
    Senator Rubio. So, it's safe to say that the FRA is going 
to be monitoring these crossings to ensure that they're 
upgraded and to ensure that the public safety is protected? 
You're not just deferring to All Aboard Florida on issues like 
crossing upgrades.
    Mr. Szabo. No, we plan to hold them accountable on that.
    Senator Rubio. OK. On the funding side of it, as you may be 
aware, All Aboard Florida has applied for a railroad 
rehabilitation and improvement financing loan. My question is 
about the review of this loan. Does FRA strictly look at the 
financial stability and proposed business plan when deciding to 
award the loan, or do you take local comments and concerns, 
like the safety and environmental ones that I've mentioned, 
into account, as well?
    Mr. Szabo. Yes. When it comes to the loan, it really comes 
down to two simple questions. Are they eligible? And, in this 
case, the answer is yes. And then, two, can we make a finding 
of repayability? It's strictly a mathematical----
    Senator Rubio. It's a financial review.
    Mr. Szabo. That's right.
    Senator Rubio. You don't take into account----
    Mr. Szabo. That's right. When it comes to the loan, it's 
not about public policy, it's about, ``Is it eligible? And can 
we make the documented finding of repayability?'' So, it's a 
financial transaction.
    But, the EIS is the process that the public needs to 
continue to use to make sure their voices are heard and that 
their concerns get addressed.
    Senator Rubio. All right. I have one last question, and it 
has to do with Sun Rail, a different project.
    Mr. Szabo. OK. We'll go to Orlando.
    Mr. Szabo. Yes, exactly. It's a new commuter rail system, 
for those that are not familiar with it, that just started 
operations last month. There was an incident in which a car 
stalled on the tracks and was struck by a Sun Rail train. 
Luckily, there was no one injured, but the collision, along 
with other close calls on the rail lines, has prompted calls 
for additional safety measures on the system. In fact, 
yesterday, the Florida Highway Patrol announced that it's going 
to be patrolling Sun Rail intersections to make sure drivers 
are following the law.
    So, as the agency with safety jurisdiction over Sun Rail, 
is FRA looking at these incidents? And what role does the FRA 
play in recommending safety precautions or improvements?
    Mr. Szabo. Are we looking at it? Absolutely. Senator, it 
comes back to a couple of things. First off, the three 
fundamental premises under Operation Lifesaver, the three E's: 
education, enforcement, and engineering. And we need to make 
sure we're advancing all of these. But, I really take you back 
to what we're proposing in GROW AMERICA. There are significant 
benefits in there relative to grade crossing safety. That 
continues to be our biggest challenge nationwide. While I talk 
about the dramatic drop in rail accidents, incidents, injuries, 
fatalities, across the board, the one vexing challenge we have 
is on grade crossing safety. And through GROW AMERICA, there 
would be funding available for local communities to make grade 
crossing enhancements. We also need, to the extent possible, to 
advance what I call ``sealed corridors,'' eliminating grade 
crossings, where possible, with the strategic placement of 
overpasses and underpasses so we ensure the efficient flow of 
pedestrians, trains, vehicles. But, the safest grade crossing 
is one that doesn't exist.
    Senator Rubio. OK. Just to close up, I'll go back to All 
Aboard Florida for a moment. As you work through the EIS 
process and the public hearings and so forth, those will be 
announced? In essence, how can my constituents best know where 
and when these hearings are going to take place, and how they 
could best provide input?
    Mr. Szabo. There'll be significant public notice, but we'll 
also make sure that your office is aware.
    Senator Rubio. Thank you.
    Mr. Szabo. So, it's not just going to be the traditional 
public approach. We'll make sure that your office is aware of 
those hearings.
    Senator Rubio. And we'll work with the congressional 
delegation in Senator Nelson's office, as well, in making sure 
that we get people to turn out and, in fact, get engaged in 
this process. So, thank you.
    Mr. Szabo. OK. Thank you.
    Senator Blumenthal. Thanks, Senator Rubio.
    And the record should note that Senator Nelson was here 
earlier, and expressed to me his interest in these areas of 
inquiry. And he had hoped to return. I'm not sure that he'll be 
able to do so.
    I want to come back, Mr. Szabo, to the penalty issue.
    Mr. Szabo. Yes.
    Senator Blumenthal. Because I think that the record here of 
minimal and minuscule penalties really is emblematic more than 
symbolic of a problem that really spans the entire area of 
scrutiny here, and pertains to other agencies, as well. And to 
come back to the Luden and McGrath incidents, wouldn't you 
agree with me that the $5,000 penalty, under those 
circumstances of neglect, the severity of the consequences, the 
seriousness of the safety violations, is atrociously inadequate 
as a measure of what happened here.
    Mr. Szabo. Senator, I don't know the specifics of those two 
cases, but I do know the process that we go through, that we're 
required to go through as we assess fines, and that we do, in 
fact, take a look at the severity of the violation. You have to 
realize that the penalty is relative to the violation, not 
necessarily the outcome of that violation. And so, there has 
got to be a----
    Senator Blumenthal. Well, when you say ``not 
necessarily''----
    Mr. Szabo.--direct connection. Well----
    Senator Blumenthal. When you say ``not necessarily,'' it 
can be. And in both instances, there were deaths.
    Mr. Szabo. But, it--Senator, as I understand it, in the one 
case, in 2009, before I was with FRA, it's my understanding, if 
I've been briefed properly, that it was relative to radio 
procedures that occurred after the fatality. So, it had nothing 
to do with the fatality itself, but it was a failure on the 
part of the engineer or the conductor to say the word 
``emergency'' three times, which is required under our radio 
regulations. You have to say, ``Emergency, emergency, 
emergency'' before you start speaking. And so, the fine was for 
his failure to say that.
    But, the point I make is, we have to make sure that we have 
a legally sustainable position. We use the penalty schedule 
that's in place.
    Senator Blumenthal. Well, what's your explanation of the 
Luden incident? You were at the agency at that time.
    Mr. Szabo. Yes, I--I'm not--which specific--I don't know 
these by----
    Senator Blumenthal. That's the West Haven death. A worker 
was struck on the West Haven line----
    Mr. Szabo. Yes.
    Senator Blumenthal.--after the controller----
    Mr. Szabo. You know, I will say this, that clearly----
    Senator Blumenthal.--the controller failed----
    Mr. Szabo.--clearly----
    Senator Blumenthal.--to prevent a train from----
    Mr. Szabo. Yes.
    Senator Blumenthal.--going on the same track where he was 
working.
    Mr. Szabo. Clearly----
    Senator Blumenthal. And the railroad failed to have in 
place basic technology that was state-of-the-art for railroads 
around the country.
    Mr. Szabo. Yes. Our regulation will address roadway worker 
prevention. In fact, that regulation, final rule, should be out 
this fall--we're targeting for September--that will require the 
appropriate protections for all roadway workers and, in fact, 
would address that case.
    But, coming back to the penalty itself----
    Senator Blumenthal. In other words, you will issue a 
regulation that might have saved his life.
    Mr. Szabo. Yes, we've already been in the works. That's 
been----
    Senator Blumenthal. And why----
    Mr. Szabo.--in our pipeline.
    Senator Blumenthal.--why wasn't that issued earlier?
    Mr. Szabo. It's part of a pipeline, Senator. We have a 
process that we have to go through. My agency's the first step 
in that process, then it goes into clearance with the offices 
upstairs, the offices by--of the Secretary, and then it goes 
over to OMB. And so, our regulatory approach is for us to 
continue to constantly come up with rules that feed into that 
pipeline, come through the pipeline. There has to be the 
appropriate periods of public comment and review. And so, it's 
a never-ending process. We're constantly feeding them through.
    So, this is the--one of the rules that were required, 
actually, under the Rail Safety Improvement Act. It's been in 
the hopper, moving through the pipeline----
    Senator Blumenthal. How long has that regulation been in 
the pipeline, as you----
    Mr. Szabo. I'm not sure when it actually started, but I do 
know this, Senator, that we actually complete some kind of 
regulatory document more than once a month. We complete about 
15 a year that we put into and move through the process. So, 
it's a never-ending flow.
    You know, Senator, not only did the Rail Safety Improvement 
Act require of us an unprecedented number of rulemakings, 
regulations, studies, and reports, but it also at that time 
promised us 200 additional employees, you know, positions that 
were not filled, or at least not immediately filled. They've 
been partially filled now. But, we work every day as 
effectively and efficiently as we can with the resources that 
we're given.
    Senator Blumenthal. Well, on the Rail Safety Improvement 
Act of 2008, the Inspector General of the Department of 
Transportation found, just last--a year ago, April--that 9 of 
the 17 mandated rules had not been issued. I understand that 
two have been issued since then. When are the other six rules 
going to be issued?
    Mr. Szabo. I know that--I would have to actually take a 
look at what the six are, but there would be a couple of them 
that I believe are waiting on the training standards. Some of 
these have to be queued up----
    Senator Blumenthal. Well, can you give us dates for when 
those rules will be issued?
    Mr. Szabo. I can provide them to you. I can give you an 
update right now of where my pipeline is today. The final 
amendments on positive train control are due to be out this 
month. Training standards for railroad employees, a final rule 
is due to be out this month. Our risk-reduction program for 
freight railroads, the notice of proposed rule is due to be out 
in April--I'm sorry, in August. Our system safety program for 
commuter railroads, the final rule, we're targeting for 
October. The roadway worker protection that I was talking 
about, that final rule is scheduled to be done in September. 
Passenger equipment safety standards for high-speed train sets, 
the notice of proposed rule is due to be out in November. Our 
fatigue management plans, the notice of proposed rule is 
targeted to be out in November.
    Senator Blumenthal. Well, I think you may have covered 
them--some of them, some of the six, because these outstanding 
rules involve risk-reduction plans, safety----
    Mr. Szabo. Yes, that will be--final risk reduction will be 
final----
    Senator Blumenthal.--fatigue management----
    Mr. Szabo.--in October.
    Senator Blumenthal.--training standards, emergency 
breathing apparatus--all of those six rules will be finalized 
in November?
    Mr. Szabo. Emergency breathing apparatus will not. We have 
a significant challenge there with the cost-benefit ratio. 
Obviously, any rule that I promulgate has to go through a 
rigorous cost-benefit ratio, and we have to be able to prove 
that the benefits, you know, equal or outweigh the cost. And 
we've got a real challenge on finding a cost-effective way to 
advance emergency breathing apparatus.
    Senator Blumenthal. Just so we're clear here, these are 
rules that were authorized and required by the law approved in 
2008.
    Mr. Szabo. That is correct.
    Senator Blumenthal. So, here we are, 6 years later, and 
they still haven't been issued. What is the reason for that 
delay?
    Mr. Szabo. We prioritize our rules and move them as 
efficiently and effectively as we can through the pipeline. So, 
the highest priority for us, obviously, was positive train 
control. That was the single most important regulation that we 
could get out that would have the greatest benefit to the 
public on safety. And the complexity of that rule, the need to 
go back and make amendments to it, you know, dealing with suits 
that happen with rules, coming up with--trying to get a cost-
benefit ratio that would work. There are complexities here. And 
so, we prioritize all of these rules, start feeding them into 
the pipeline, and advance all of them as quickly as we can.
    But, the number of rules that were required of us was an 
unprecedented level, likely unmatched by any other period of 
time in the agency's history.
    Senator Blumenthal. The NTSB currently has 56 open 
recommendations to you. For some of them, the NTSB has given a, 
quote/unquote, ``unacceptable response,'' in fact, on 29 of the 
recommendations, meaning that the FRA failing to move in the 
right direction to implement those recommendations. I also 
understand this is the highest number of open unacceptable 
recommendations for any entity within the United States 
Department of Transportation. Some of these recommendations 
concern rules that, as you've mentioned earlier, could have 
prevented the Metro-North catastrophic incidents; for example, 
inward- and outward-facing recording and audio devices on 
local----
    Mr. Szabo. Senator, that would not have prevented that 
accident. In fact--now, don't get me wrong. We believe inward/
outward-facing cameras have safety benefits. That's why back in 
2013, we chose to make it a part of our rulemaking program for 
2014, engaged the RSAC on it. Certainly, it will help in 
accident investigations. So, there are safety benefits. But, 
sir, it would not have prevented Spuyten Duyvil. And, in fact, 
the requirements that we put forward in our emergency order 
were, in fact, the very steps that were appropriate to 
immediately eliminate those risks: the signal upgrades, the 
civil speed, you know, restrictions enforcement.
    As I said, every rule that we want to promulgate, every 
rule we want to move, has to go through a cost-benefit ratio. 
And we're not allowed to take the benefits twice. So, for 
example, the benefits of Spuyten Duyvil, preventing that, are 
being captured in the positive train control rule. So, when I 
go to advance a rule now on inward/outward-facing cameras, I'm 
going to have a challenge, relative to my cost-benefit ratio, 
on what it would have prevented.
    So, this is just one of the challenges that, you know, as 
agencies, we face. It's part of what we deal with, but we 
attempt to deal with effectively.
    Senator Blumenthal. Well, I am not here to debate you. My 
point was not that it would have, not that there was any 
certainty that it would have prevented Spuyten Duyvil, but that 
it could have. Inward- and outward-facing cameras could have 
provided a deterrent to that conductor nodding off.
    Mr. Szabo. Yes.
    Senator Blumenthal. In other words, his knowing that he was 
on camera. There are a variety of other rules here that might 
have similarly prevented Spuyten Duyvil, including research 
that would mitigate fatigue, which is recommendation----
    Mr. Szabo. And again, that's about to be completed. Our 
fatigue mitigation plans will be required, under the risk 
reduction and system safety program, so----
    Senator Blumenthal. Rules that would have greatly enhanced 
inspection practices, which might have prevented the derailment 
in Bridgeport, which resulted from the failure to inspect and 
maintain properly that track, causing the joints to fail and 
the derailment to occur. You observed, yourself, that there 
were actions that might have been taken by Metro-North, and 
actions that could have been required----
    Mr. Szabo. Yes.
    Senator Blumenthal.--by FRA rules, that would have 
prevented these----
    Mr. Szabo. We go back, Senator, after every accident, no 
matter how large or how small, to review what we can do 
differently. It's all a part of our drive for continuous safety 
improvement.
    Our approach, we use our data to--and it goes into a 
computer model--to allocate our resources. It's, you know, the 
staffing allocation model. And so, we use our inspection data 
to ensure that we're strategically deploying the limited 
resources that we have. As you've noted before, we only have 
the resources to inspect about 1 percent of the Nation's rail 
trackage each year. And so, we have to follow our data.
    And it's following that data, it's that approach, that has 
been so effective in driving this 95 percent drop in accidents, 
injuries, fatalities to record lows.
    Senator Blumenthal. Let me just ask you----
    Mr. Szabo. That--but----
    Senator Blumenthal.--a more general question. Wouldn't you 
agree with me that these rules have to be issued more quickly?
    Mr. Szabo. I wish that that was feasible, Senator. But, you 
know, all I can assure you is that----
    Senator Blumenthal. Well, what would it----
    Mr. Szabo.--with the resources----
    Senator Blumenthal. What do you need for it to happen?
    Mr. Szabo. Well, the important thing to note here is, it's 
a matter of growing the entire pipeline. Even if you give me 
more resources, which, of course, I always love, you know, to 
have more resources--all that allows me to do is enter the 
rules into the pipeline more quickly. But, there's still going 
to be a bottleneck having it flow through. It's a matter of 
resources at every step of the process.
    The point I was coming back to, though, sir, is that I 
believe that we can, in fact, continue to improve safety every 
day. In 2013, we had fewer accidents than in 2012. In 2012, we 
had fewer accidents than in 2011. My goal is to ensure, in 
2014, we have fewer than we had in 2013. And so, I was talking 
about our data based approach to inspection. There's no 
question that, when you take a look at Metro-North--and 
certainly, if you talk to Canada, if you take a look at Lac-
Megantic, there was no data in either case that would have 
triggered the fact that there was an extraordinary amount of 
risk there.
    And so, while we should not throw away what has worked so 
effectively for us the past decade, there's no question we have 
to lay over on top of it additional steps. And so, under GROW 
AMERICA, I'm talking about a three-pronged approach. We 
continue our data based oversight and enforcement program, but 
we have to get to the second step, which is the progressive 
risk-reduction, risk-analysis programs that, one, will be 
required in the system safety program--that final rule will be 
done--what did I say?--the target is for October of this year. 
Over and above that, GROW AMERICA gives us the resources we 
need to make confidential close-calls reporting a nationwide 
program. And we think that that's critically important. You 
know, from what we've seen in the pilot projects where this has 
been implemented--most notably, our most mature pilot project, 
there was a 70 percent--70 percent--reduction in accidents and 
injuries. And so, we believe that this has tremendous potential 
to get us to the next level of safety.
    And in that regard, Senator, I had told you--I had promised 
you--that when the Deep Dive report was done, we were going to 
use it as a learning tool for the entire industry and for my 
agency. And I called together all the commuter railroad CEOs, 
from across the country, to New York. Metro-North hosted us. 
They all responded, brought staff. There were 100 people in 
that room. And we went through that Deep Dive report, you know, 
had a lessons-learned discussion on it, and then had an open 
discussion on all of them, ``All right, based with this new 
knowledge, what are you going to do? What are each one of you 
going to do to be more proactive and identify and mitigate 
these risks well in advance?'' A very robust discussion.
    Based on that, a meeting with all the commuter rail CEOs in 
about 10 days at their after-meeting and bringing in----
    Senator Blumenthal. I hear you--you'll make that meeting. 
We won't keep you that long.
    Mr. Szabo. We might. But--Senator, I'll have to make that 
meeting--but, we're going to have a full-blown, several hour 
conversation on confidential close calls. And the president of 
the Union Pacific Railroad, who's had my most successful pilot 
project, at his own expense is flying to that meeting to engage 
with these CEOs and share his experience in why he believes it 
has so much value in advancing safety.
    To the other piece--so, this is what we're doing with the 
industry to learn from that--the other piece I talked about 
that I have to learn, my agency has to learn. So, I brought in 
all of my regional administrators from across the country for 
that meeting in New York. Two reasons. All of them have 
commuter properties within their jurisdiction, so I wanted them 
to be a part of the conversation. But, then, we all came back 
here to D.C. and spent a day together taking a look at and 
talking about those things that we need to do differently. 
We're doing good work. We know we must always do better work. 
We're at a record low number of passenger fatalities, but that 
doesn't bring back the lives of those four people that perished 
up on Metro-North. I know I own that. Our goal is to get to 
zero, and stay there. And with what we're proposing in the GROW 
AMERICA Act, I'll have the tools to get us there.
    Senator Blumenthal. Mr. Szabo, I've given you the floor to 
provide a full answer, and I very much appreciate----
    Mr. Szabo. Thank you.
    Senator Blumenthal.--your doing so.
    And I want to make clear to you that the critical questions 
that I've been raising are not directed at you, personally, or 
even solely at your agency. They're really directed at a broken 
system for rulemaking. What you've referred to as a 
``pipeline'' is more like an obstacle course ridden with 
hurdles that are insurmountable for many of these essential 
rules that protect health and safety. And it is a broken 
system, not only for your agency and your rules, but for many 
other rules in the Federal Government. And so, I hope we can 
use your agency as an example of how the system can be 
improved, because we can debate whether specific rules--cameras 
facing in and out, alerters, automatic train control, as 
distinguished from positive train control--whether these basic 
safety measures----
    Mr. Szabo. Yes.
    Senator Blumenthal.--could have prevented--no one can say 
they would have prevented----
    Mr. Szabo. Senator, to----
    Senator Blumenthal. But, the point here is, they should 
have been issued long ago. The recommendations made by the NTSB 
should have been implemented long ago. And that may be an issue 
of resources or complexity of decision issues or the failings 
of the administrative system itself, and the Administrative 
Procedure Act perhaps should be reviewed. But, one way or the 
other, the system has to be reviewed and changed.
    Mr. Szabo. Well, thank you for indulging me, Senator, 
because, you know, I do take this very, very personally. It's 
personal to me. As I said, I come out of the ranks. I've had my 
share of close calls. I don't know any railroader that hasn't. 
I've had five friends killed on duty. I've been to those 
funerals, I know those families. And so, when it comes to 
safety, this is very personal for me.
    And yes, I want to achieve perfection. We're not there yet, 
but every year I've been here--and frankly, my last two 
predecessors, every year, made continued progress. And, you 
know, my staff knows that it's all about continuous safety 
improvement.
    And, Senator, I can't tell you how much I believe in this 
team of professionals that I have--these inspectors and my 
staff. These are incredibly dedicated people, they work so 
hard, and this mission is personal for them, also. And so, 
we're truly on the same page with what it is we want to 
achieve.
    Senator Blumenthal. Let me ask you about the Deep Dive 
report.
    Mr. Szabo. Yes.
    Senator Blumenthal. Are you satisfied with Metro-North's 
response so far?
    Mr. Szabo. At this point, they have certainly said all of 
the right things. And from what I've seen, I'm seeing the right 
things. But, you know, it's going to take time to play out. My 
Deep Dive team continues to have a presence up there to monitor 
their compliance with what they have promised us. We continue 
to meet with senior leadership every 30 days. We also continue 
to meet with the labor folks up there just to hear what we hear 
from them at the ground level.
    But, certainly when I talk with Joe Giulietti and Tom 
Prendergast, and I'll be meeting with them personally again 
this week--I think they're in to see me on Thursday, I 
believe--the appropriate level of commitment clearly seems to 
be there. You know, they understand, as I said we do, the job 
that we have to do to regain the confidence of the riders up 
there. And I believe they're up to the task.
    Senator Blumenthal. So, fair to say they're saying the 
right things, but the jury's still out on whether they're doing 
the right things.
    Mr. Szabo. They're saying the right things. We're seeing 
the right things in the initial steps. But, you know, it's 
going to take time. There's a lot of work up there, and 
particularly when it comes to changing safety culture. That is 
a drawn-out process. It doesn't happen overnight. And so, it's 
going to take just continued--continued reinforcement. But, I 
clearly believe that they're heading in the right direction.
    Senator Blumenthal. On the 100-day plan that they have 
announced and promised to fulfill--in fact, by June 11, so 
we're coming close to it--have you been working with them on 
that 100-day plan?
    Mr. Szabo. Staff has been engaged. Yes, my regional 
administrator is up there on a regular basis. As I said, even 
parts of my Deep Dive team, which I brought in from across the 
country from other regions, have been engaged with them. So, 
yes, we're--they're cooperating with us, we're cooperating with 
them, and we're monitoring their progress.
    Senator Blumenthal. And do you have a view as to whether 
that plan will be, in fact, achieved?
    Mr. Szabo. As I said, at least at this point they are 
clearly on track to achieve what they have set out to do, and 
now it becomes our job to continue to monitor that progress.
    Senator Blumenthal. Do you have any assessment as to why 
the Metro-North bridge that went down recently failed to open, 
or failed to close once it had opened, as to what the reasons 
were for that mishap?
    Mr. Szabo. We will get you a fuller explanation for the 
record.
    But, as I understand it, that bridge is well over 100 years 
old. You know, it really speaks to the state of the 
infrastructure, particularly on the Northeast Corridor, and is 
one of the things that our proposal under GROW AMERICA is 
explicitly put together to address: modernizing that 
infrastructure to make sure that it is more safe, more 
reliable, and more efficient. This asset on the Northeast 
Corridor, you know, is one of the prize assets that we--it's 
one of the best passenger rail markets in the world--in the 
world. But, because of decades and decades of underinvestment, 
it has never reaped its fullest potential. And so, that's the 
case in that bridge, and, you know, the concerning thing is, 
there are so many other bridges and tunnels on the Corridor 
that are of a similar age.
    Senator Blumenthal. And again, it's not just about the 
Metro-North railroad, or even----
    Mr. Szabo. That's right.
    Senator Blumenthal.--the Northeast Corridor. Senator Coons 
noted for me--and, in fact, wanted me to ask you about--a 
bridge on I-495, which, late yesterday, encountered a similar 
problem. It's a bridge over the Christina River, I believe, in 
Delaware, which now has been shut down. It is closed 
indefinitely. It carries about 90,000 vehicles a day, and it 
will have a huge impact in creating congestion, from Florida to 
Maine.
    Mr. Szabo. Yes.
    Senator Blumenthal. Especially in trucking.
    Mr. Szabo. You know--is this a rail bridge or a highway 
bridge? This is a highway bridge, OK.
    Senator Blumenthal. Highway bridge.
    Mr. Szabo. But, to rail bridges, Senator--to rail bridges, 
you know, there are a couple of elements of GROW AMERICA that 
really help with railroad bridges. I talked about the two 
pieces, the one for Amtrak to be able to bring their railroad 
to a state of good repair. That's a critical part. The second 
piece is for other corridors to be upgraded through competitive 
grants. And these are the kind of infrastructure improvements 
we're talking about.
    But, the last one I want to touch on is a grant program for 
short-line railroads. And I think this is critical, 
particularly as we talk about the movement of crude oil. The 
Class I railroads, for the most part, can take care of 
themselves. They have deep pockets. But, the short lines are 
very capitally constrained in what is a very capital intensive 
industry. And so, there are bridges out there, there's track 
structure out there, that have not been upgraded to modern 
standards. And so, in GROW AMERICA, we're advocating for 
competitive grants for short-line railroads to make critical 
safety upgrades to bridges, critical safety upgrades to track 
structure to be able to safely haul heavier loads, and critical 
upgrades to signaling systems for short lines. So, we're 
looking to address this in our proposal.
    Senator Blumenthal. I think one of the problems we can 
agree--and maybe this is an issue that pertains to all your 
agencies--is the resources available for enforcement. And, as 
you well know, Senator Schumer and I advocated, successfully, 
for an additional $185 million in the last fiscal year, Fiscal 
Year 2014, which was to hire 45 additional critically necessary 
safety inspectors for your agency. Can you tell me what the 
status of the hiring is for those----
    Mr. Szabo. Yes. We moved immediately--now, again, you don't 
just, you know, snap your fingers and have 45 people in place, 
but we have moved immediately on the first 15. Ten of them 
have, in fact, been hired. But, Senator, to be clear, it takes 
about a year--by the time you recruit, hire, go through the 
training that is necessary, it takes about a year to be a 
qualified inspector to be turned loose on your own. But, we've 
moved right away when there's an opportunity for more 
resources. We're not going to wait in----
    Senator Blumenthal. Do you need more?
    Mr. Szabo.--moving on that. Senator, it's my job to ensure 
the safety of this industry with the resources you choose to 
give me. And, you know, so certainly----
    Senator Blumenthal. Well, we can----
    Mr. Szabo.--I'm thankful----
    Senator Blumenthal.--we can only give you what you request. 
We can give you more, but the best indication of whether you 
need more is whether you request them.
    Mr. Szabo. Yes. It's my job to work with the resources that 
I have and to strategically deploy--you know, that's why we use 
the staffing allocation model to make sure that we're as 
effectively deploying as well as we can.
    Senator Blumenthal. Again, I don't want to put you on the 
spot here, but I'd like to ask you, for the record, to provide 
me with an estimate, as specific as possible, of the additional 
resources you need for enforcement.
    Mr. Szabo. OK.
    Senator Blumenthal. And I'd like to make the same request 
of all of your agencies.
    Mr. Szabo. Thank you, Senator.
    Senator Blumenthal. Not to be critical of what you've done 
in the past, but simply to show what we need to do to have 
adequate enforcement of the rules and laws on the books. If 
they're on the books and they're not enforced, they're dead 
letter. In fact, they're worse than dead letter, because they 
encourage noncompliance. People who know that rules aren't 
going to be enforced aren't going to obey them. When the 
penalties aren't sufficient, there's no incentive to obey them. 
If they're part of the cost of doing business, the big 
companies that you regulate will thumb their nose at your 
agencies, which is to say at public health and safety. So, I'm 
going to ask that, for the record.
    And let me just conclude with these questions, Mr. Szabo. 
My understanding is that the maximum penalty for the violations 
of orders and rules such as pertained in the Luden--Robert 
Luden incident--was $25,000, and that the--in the case of 
egregious and aggravated cases, the maximum is $105,000. Is 
that correct?
    Mr. Szabo. I believe that's correct. For the record, I can 
confirm that for you.
    Mr. Szabo. Those are established via statute. But, there 
are other elements that come into play as we're determining how 
much a particular violation--you know, what we'll be able to 
sustain with a fine. So, it's not for every violation that's 
out there, that we can instantly go and levy the maximum 
against them.
    Senator Blumenthal. Can you give me examples of when the 
maximum of $25,000 or $105,000 have been imposed?
    Mr. Szabo. We'll get you that for the record. That way I 
can let you know what the history has been, those cases where 
that may have been done, and the legal basis that was in place 
to support that.
    Senator Blumenthal. How quickly can you provide that for 
the record?
    Mr. Szabo. I'll put staff to work on it. But, again, 
there's a clearance----
    Senator Blumenthal. These are cases that have already----
    Mr. Szabo. Yes.
    Senator Blumenthal.--occurred, they have already been 
closed, the penalty's been imposed. I'm asking for examples of 
them.
    Mr. Szabo. I will put staff to work on it today, Senator, 
but there's a clearance process on everything that we provide.
    Senator Blumenthal. Why was the Luden death on those tracks 
in West Haven not an egregious and aggravated case?
    Mr. Szabo. For the record, we'll get you, again, what we 
believe was the legal basis for our fine. But, Senator, again, 
I want to come back to something that I said earlier, that the 
purpose of fines is to ensure compliance, it's not necessarily 
to punish. And, you know, the hammer is but one tool that we 
have in our toolbox, and we need to make sure that we have 
multiple approaches to drive continuous safety improvement.
    Senator Blumenthal. Well, it may be only one tool, but it 
is one of the preeminent tools. And when you fail to use it, 
you are leaving yourself, essentially----
    Mr. Szabo. Yes. Well, as I said, Senator----
    Senator Blumenthal.--weak and worse----
    Mr. Szabo.--the 5 years I've been here, we have, in fact, 
you know, set a record for the highest dollar amount of fines 
levied for any 5 year period. So----
    Senator Blumenthal. But, the----
    Mr. Szabo.--with the tools I have----
    Senator Blumenthal.--the Luden penalty----
    Mr. Szabo.--we're doing what we can do.
    Senator Blumenthal.--and I'll just conclude on this point--
is only one of minuscule penalties, $5,000 and $10,000 over 
that period of 10 years, that's been documented.
    Mr. Szabo. Yes. You know, Senator, certainly we'd be happy 
to work with you on some technical assistance if you would like 
to take a look at legislation that addresses our penalty 
schedule. So----
    Senator Blumenthal. Well, if I were in your shoes, I would 
be advocating for more authority.
    Mr. Szabo. We'll work with you.
    Senator Blumenthal. Let me ask you, talking about answers 
for the record--when you were last here, you promised some 
answers. We still haven't received them.
    Mr. Szabo. I--they've been completed, both by me and my 
staff. I worked on those personally, staff has prepared them, 
and they're in the clearance process. I certainly had hoped 
they would have been delivered to you in advance of this, but 
you should have them very shortly.
    Senator Blumenthal. They're in the pipeline?
    Mr. Szabo. That's right.
    Senator Blumenthal. When are we going to see them?
    Mr. Szabo. I can't answer that, other than to say I believe 
that it's very close. And I--it wouldn't surprise me if it's 
this week, but I don't control that piece.
    Senator Blumenthal. Well----
    Mr. Szabo. So----
    Senator Blumenthal.--I'm not going to put you--again, I'm 
not here to embarrass anyone, but I'd like to know who has to 
clear them. Whom should I contact?
    Mr. Szabo. We can--for the record, I'll get you--in fact, I 
believe, in the Q&A that you proposed to us, we've got in there 
the process that is used for clearance. It actually was 
relevant to at least one or two of the questions that you asked 
me. So, you know, you'll have that information.
    Senator Blumenthal. I thank you all for being here today. 
And I hope that we can continue this conversation.
    I have additional questions for the record. I don't want to 
detain all of you here. I understand my colleagues may, as 
well, so we're going to keep the record open for a week.
    And again, my thanks to you for spending the time with us 
and being so forthright and helpful.
    The hearing is adjourned.
    [Whereupon, at 11:30 a.m., the hearing was adjourned.]
                            A P P E N D I X

 Response to Written Question Submitted by Hon. John D. Rockefeller IV 
                         to Hon. Anne S. Ferro
    Question. The Federal Motor Carrier Safety Administration (FMCSA) 
uses Hours of Service regulations to help prevent fatigue-related 
accidents in the trucking industry. After years of working on hours of 
service regulations, some in Congress want to stop enforcement of 
important provisions.
    I'm concerned this could have unintended consequences on safety. 
What are the real world impacts of rolling back these provisions?
    Answer. Rolling back the once-a-week limit on use of the 34-hour 
restart that FMCSA adopted in its December 2011 final rule would allow 
employers to require their commercial truck drivers to work an average 
of more than 80 hours per week and remain behind the wheel on our 
Nation's highways. This would significantly increase the risk of a 
fatigue-related crash. No other mode of transportation allows employers 
to demand that safety-sensitive employees work such grueling schedules.
    The current 34-hour provision that has been in effect since July 1, 
2013, limits truck drivers to an average of 70 hours on duty per week. 
FMCSA estimates that limitation on the use of the 34-hour restart will 
save 19 lives per year, prevent hundreds of injuries, and improve 
driver health. Were the proposed legislation suspending enforcement of 
the rule enacted, these safety benefits would be lost.
                                 ______
                                 
 Response to Written Questions Submitted by Hon. Richard Blumenthal to 
                          Hon. Joseph C. Szabo
    Question 1. As you know, on December 10, just days after the 
Spuyten Duvyil derailment, the FRA issued Safety Advisory 2013-08. The 
advisory recommended that all railroads: (1) Review the circumstances 
of the December 1 Spuyten Duyvil incident; (2) Instruct employees on 
the importance of compliance with maximum authorized speed 
restrictions; (3) Remind employees that FRA regulations prohibit the 
operation of a locomotive or train at a speed which exceeds the maximum 
authorized speed by at least 10 mph; (4) Evaluate quarterly and 6-month 
reviews of testing data; (5) Reinforce the importance of communication 
between train crewmembers located in the controlling locomotive. How 
has the industry responded to this advisory? Are railroads nation-wide 
heeding your call and learning from the tragedy of Spuyten Duyvil? What 
actions have you seen other railroads take due to these lessons?
    Answer. On April 14, I addressed an assembly of commuter rail 
executives from across the Nation and, with Metro-North and the 
Metropolitan Transit Administration, discussed Operation Deep Dive, its 
findings and its implications for the rest of the commuter rail 
industry. In that meeting, many commuter rail executives expressed 
their intentions to conduct internal and/or contractor-performed 
evaluations of their operations to identify possible safety culture 
degradation. For example, New Jersey Transit is conducting both an 
internal and contractor-performed evaluation of its operations and will 
brief FRA in early August on the results of both.
    In addition, there was strong interest expressed by many in 
learning more about FRA's Confidential Close Calls Reporting program. A 
follow up meeting with the Commuter Rail COEs has been scheduled for 
June 14.

    Question 2. How FRA is ensuring that Metro-North is responding to 
the overall recommendations in the Deep Dive Report?
    Answer. As you know, after months of review, the FRA released its 
Operation Deep Dive Report in March 2014. I was glad to see the results 
of that study and stay in close contact with your office during its 
development. The report--as I've said since--is a searing indictment of 
Metro-North's leadership, its lack of safety culture, and its 
inattentiveness to the basics of infrastructure maintenance. The report 
also notes that ``FRA will continue its oversight in order to ensure 
that the immediate improvements implemented during Deep Dive are 
reviewed, evaluated, and modified.''
    Since March, Metro-North has had an opportunity to respond, and on 
May 15 the railroad released a plan for addressing the many faults 
outlined in the Deep Dive assessment.

    Question 3. What actions are you taking, specifically, ``to ensure 
that the immediate improvements'' are ``reviewed, evaluated, and 
modified''?
    Answer. FRA meets with Metro-North senior management every 30 days 
to review the carrier's progress with continuous safety improvement; 
the fourth 30-day review meeting is scheduled for July 14. Meanwhile, 
FRA inspectors are on the property conducting inspections and 
conducting audits to validate the carrier's progress in achieving the 
Operation Deep Dive directed actions, ensure regulatory compliance, and 
promote railroad safety. Additionally, FRA meets with labor 
representatives to gain their perspectives on the carrier's progress.
    In addition to oversight, FRA has provided technical assistance to 
Metro-North to further improve safety. One example is the technical 
assistance that resulted in a much improved and compliant operational 
testing and observation program.

    Question 4. What is the nature of your day-to-day interactions with 
Metro-North?
    Answer. FRA Region 1 inspectors have a daily presence on Metro-
North property with heightened inspections conducted by FRA track and 
operating practices inspectors as both track infrastructure and 
transportation oversight were identified in the Operation Deep Dive 
investigation as problematic. Daily communication between FRA Region 1 
and Metro-North senior management occurs. Additionally, FRA Region 1 
has initiated and facilitated meetings to promote continuous safety 
improvement. Examples include the January 14 meeting to promote an 
improved internal rail flaw inspection protocol, the May 4 meeting to 
encourage Metro-North to adopt autonomous (unmanned) track inspection 
technology and improved internal rail flaw protocol, the June 9 meeting 
to assist Metro-North with moving forward with an autonomous track 
inspection program, and the June 26 meeting, which established a 
collaborative outreach effort between Engineering Department management 
and the Teamsters Union to promote safety culture among maintenance-of-
way employees.
    FRA is also exploring a possible research project in collaboration 
with Metro-North on fouled ballast conditions, which are track bed 
conditions identified by the Operation Deep Dive investigation.

    Question 5. How much more often do you review and evaluate Metro-
North's practices in June 2014 than in May 2013?
    Answer. There has been heightened oversight in response to the 
Metro-North accidents and employee fatalities, reaching its highest 
level during the 60-day Operation Deep Dive investigation, and 
remaining elevated during the current follow-up monitoring and 
validation period. Additionally, FRA conducted an extensive accident/
incident reporting audit in June 2014. Inspections have measurably 
increased and oversight continues to be substantially higher on Metro-
North's operations when compared with previous years.

    Question 6. Many of the problems outlined in the Deep Dive report 
are quite specific. These include recommendations that Metro-North use 
advanced track inspection technology, improve its employee training, 
improve operational testing and inspections, document testing 
requirements and test results, ensure blue signal protection is 
effective, and address fatigue--among maintenance of way employees and 
controllers, too. But some recommendations are written in rather less-
than-concrete terminology, e.g., ``develop a plan''; ``develop a 
strategy''; and ``consider a change.'' In turn, Metro-North has checked 
the box on many of these proposals, implying they're well on their way 
to having been achieved. How can we know--including my many 
constituents, who were alarmed by the report--that Metro-North is truly 
making progress?
    Answer. FRA inspectors are on the property monitoring Metro-North 
progress in completing the Operation Deep Dive directed actions. 
Inspections and audits validate progress as evidenced by the resulting 
inspection reports and audit reports. FRA will continue with its 
heightened oversight activities until it is satisfied Metro-North has 
achieved safety parity with the rest of the commuter rail industry.

    Question 7. If Metro-North truly carries out the recommendations, 
how will it stack up against other commuter railroads? How does it 
compare now?
    Answer. As Metro-North carries out the recommendations and directed 
actions, it will move to or near the top of commuter railroads. This is 
because of Operation Deep Dive's focus on safety culture, FRA's first 
attempt to evaluate a railroad's safety culture, above and beyond the 
existing regulations. In directing Metro-North to place enhanced safety 
above on-time performance, to reorganize the safety department to be a 
force for continuous safety improvement, and to improve its training 
across all operating departments, FRA has taken the unprecedented 
action of directing a railroad to improve its safety culture to the 
benefit of its customers and its employees.
    Currently, Metro-North is moving in the right direction and, with 
FRA's continuous oversight, is expected to achieve and move beyond 
parity.

    Question 8. I'm very concerned about FRA and its treatment of 
practices that led to death and injuries. For instance, in May of 2014, 
track worker Robert Luden was killed in West Haven in Connecticut. 
We've learned that his death could have been avoided by simple tools 
called shunt technology. We've also learned that Metro-North was fined 
a mere $5,000 for the safety lapses that led to Mr. Luden's death. Yet 
FRA is permitted to fine up to $25,000 in penalties and is even allowed 
to fine up to $105,000 for egregious and aggravated cases. Is $5,000 a 
sufficient fine in Luden's death? Will $5,000 truly incentivize changes 
in workplace practices that will ensure accidents like this don't take 
place?
    Answer. As a fifth generation railroader, I am personally affected 
by the death of any railroad employee performing his or her job. Over 
the course of my railroad career I have lost five friends to on-duty 
fatalities. Use of shunt technology can be problematic on third-rail 
electrified railroads, creating additional risks that nullify the very 
protection desired. FRA considered all of the available evidence 
concerning the accident in deciding what enforcement action to take.
    In a situations involving a fatality, and depending upon the 
circumstances, a railroad could be subject to civil liability under the 
Federal Employers' Liability Act. Potential liability for civil 
damages, incentivizes safety compliance. FRA civil penalties do not 
provide monetary compensation for harm suffered by railroad workers. 
Rather, civil penalties are intended to promote compliance with Federal 
railroad safety laws and regulations. Civil penalties are also only one 
of the enforcement tools available to FRA. Indeed, FRA subsequently 
issued Emergency Order No. 29 later in 2013 to require Metro-North to 
make immediate, necessary changes in railroad safety practices that 
civil penalties alone could not. FRA will use any and all of the 
enforcement tools available to it to take whatever action is necessary 
to help ensure railroad safety.

    Question 9. What changes should we make in Congress to ensure that 
FRA can properly penalize railroads for improper practices?
    Answer. The statutory changes that FRA requires are those in rail 
safety provisions of the GROW AMERICA Act, which the Secretary sent to 
Congress on April 29. For example, FRA wants the authority (1) to 
require certain harmonization of railroads' operating rules in small 
geographic areas where two or more railroads serve as host railroads 
for joint operations; (2) to regulate the hours of service of freight 
train crews, signal employees, and dispatchers based on sound, up-to-
date science; and (3) to grant merit-based extensions of the current 
statutory deadline for certain railroads to implement a positive train 
control (PTC) system and take other action related to PTC.

    Question 10. What circumstances would warrant a fine of $25,000? 
What circumstances would warrant a fine of $105,000?
    Answer. The railroad safety statutes and the Federal Civil 
Penalties Inflation Adjustment Act provide for assessing a civil 
penalty of up to $25,000 for a violation of a rail safety regulation or 
order or of certain provisions of the rail safety statutes except that 
when a grossly negligent violation or a pattern of repeated violations 
has caused an imminent hazard of death or injury to individuals, or has 
caused death or injury, the amount may be not more than $105,000. 49 
U.S.C. 21301-21303; 28 U.S.C. 2461 note. Each day that the violation 
continues is a separate violation. The statute does not provide 
explicit guidance on the circumstances in which the ordinary maximum of 
$25,000 or the aggravated maximum of $105,000 should be assessed. As 
stated in FRA's guidance at 49 C.F.R. part 209, appendix A, ``This 
authority to assess a penalty for a single violation above $25,000 and 
up to $105,000 is used only in very exceptional cases to penalize 
egregious behavior. FRA indicates in the penalty demand letter when it 
uses the higher penalty amount instead of the penalty amount listed in 
the schedule.'' FRA makes these determinations on a case-by-case basis; 
however, the statutory language on factors to be considered when 
compromising the amount of a penalty assessed for a rail safety 
violation provides a general framework for making initial assessment 
determinations: ``(A) the nature, circumstances, extent, and gravity of 
the violation; (B) with respect to the violator, the degree of 
culpability, any history of violations, the ability to pay, and any 
effect on the ability to continue to do business; and (C) other matters 
that justice requires.'' See 49 U.S.C. 21301(a)(3)(A)-(C), 49 U.S.C. 
21302(a)(3)(A)-(C), 49 U.S.C. 21303(a)(3)(A)-(C). FRA also has internal 
procedures for what should be done when the Office of Railroad Safety 
makes recommendations to the Office of Chief Counsel for such ordinary 
maximum or aggravated maximum penalty assessments.

    Question 11. Will FRA produce a list of recent fines, when imposed, 
and the legal basis for each fine, as you said at the hearing you'd be 
able to produce? Can this list go back ten years?
    Answer. Yes, FRA is in the process of generating such a list. 
However, any analysis of a ten-year period would be confounded by 
capturing the period both before and after the Rail Safety Improvement 
Act of 2008. Additionally, FRA updated its system for managing the 
enforcement of railroad safety statutes and regulations in 2008; while 
it is technologically possible to compile a full list of fines going 
back to 2004, the time and expense to do so are probably not justified 
by the elucidative benefit of this additional information. To provide 
context into the scope of the undertaking, the initial list of all 
fines assessed since October 1, 2008--to capture violations since the 
passage of the Rail Safety Improvement Act of 2008--contained 
approximately 30,000 distinct violations and associated fines.

    Question 12. NTSB has issued many safety recommendations to FRA 
over the past few years. Many of those have been turned into 
rulemakings that have led to new rules and regulations that are 
intended to save lives and improve reliability. Many of those 
recommendations, however, have sat dormant or have been rejected. NTSB 
currently has 56 open recommendations to FRA. And for some of them, the 
NTSB has given FRA an ``unacceptable response'' on 29 of the open 
recommendations--meaning that the FRA is failing to move in the right 
direction to implement those recommendations. I also understand that 
this is the highest number of ``open unacceptable'' recommendations for 
any entity within the U.S. Department of Transportation.
    Some of these recommendations urge rules requiring the use of 
inward-and outward-facing recording and audio devices on locomotives 
(recommendations R-10-001 and R-10-002--both open and unacceptable); 
some urge FRA rules and research that would mitigate fatigue 
(recommendations R-12-016; R-12-018; R-12-019 and R-13-021--all open 
and acceptable); and one urges greatly enhanced inspection practices 
(recommendation R-14-012--just recently opened). While this most recent 
recommendation came out on May 19, 2014 others have been around for 
years. And had the recommendations been implemented before the spate of 
Metro-North incidents, lives could have been saved. While mandates 
issued by Congress are certainly important, how urgently are you 
working to implement these recommendations?
    Answer. FRA recognizes the significance of each open recommendation 
and has focused its efforts on implementing or addressing each of them 
in an appropriate and timely manner. FRA maintains open communications 
with the NTSB to address any open recommendations. As the Federal 
agency charged with carrying out the railroad safety laws and 
prescribing regulations as necessary for railroad safety, FRA reviews 
and makes judgments whether or not to adopt the NTSB recommendations, 
in whole or in part, and how best to do so. FRA does not and cannot 
automatically adopt them, especially not those recommendations 
requiring rulemaking without considering the agency's regulatory 
priorities and the requirements of the rulemaking process. In this 
regard, FRA carefully considers whether the safety issues raised in 
NTSB recommendations may be addressed by non-rulemaking means.
    FRA continues to act diligently in completing its regulatory 
workload, placing a priority on those rulemakings that will most 
effectively advance safety. In general, FRA has to strike a balance 
between speed and quality. ``Quality'' includes adherence to demanding 
procedural and substantive legal requirements. As you know, all three 
branches of the Federal Government--Congress, the courts, and the 
Executive Branch--have established certain mandatory procedures and 
substantive requirements related to the rulemaking process (i.e., the 
development and issuance of regulations, including FRA safety 
regulations). With few exceptions, before FRA is permitted to issue a 
final rule, there must be public notice of the proposal and an 
opportunity for public comment; a reasonable response to any public 
comments; an articulated, rational basis for the rule; and consistency 
of the rule with any applicable laws.
    For many FRA rulemakings, other Federal agencies and offices are 
part of the clearance process: these draft rulemaking documents, 
cleared by FRA staff and by me as Administrator, go into a pipeline 
that extends from this agency to the Office of the Secretary of 
Transportation, which circulates the document to other agencies and 
offices within the Department, and then to the Office of Management and 
Budget, where the draft rule is circulated to relevant non-DOT agencies 
and offices.
    Costs and benefits of a draft proposed rule and draft final rule 
must be identified, analyzed, and weighed against each other. This 
evaluation can be very complex, but provides critical information to 
decision makers, reviewers, and the public. It should also be noted 
that the complex nature of the administrative review process for draft 
rulemaking documents means that widening one part of the pipeline 
(e.g., by adding resources) is not enough to expedite issuance of a 
rule if the rest of the pipeline remains narrow; the delay simply 
occurs at a different stage of the process. After FRA issues a final 
rule, FRA's procedural rules provide for the filing of petitions for 
reconsideration, a vehicle through which litigation is often avoided, 
thus conserving administrative and judicial resources. A final rule is 
also subject to judicial review in the U.S. Courts of Appeals and may 
be set aside by the court. (By contrast, NTSB does not issue rules; it 
issues recommendations, and these recommendations are not subject to 
notice and comment, cost-benefit analysis, or judicial review.)
    Regarding inward- or outward-facing cameras, it is important to 
note they would not have prevented the December 1st Spuyten Duyvil 
derailment. FRA acted appropriately with Emergency Order 29 to require 
those measures that had a direct relationship to the accident and would 
provide immediate safety benefits to Metro-North's operation. While 
Congress could have mandated a camera when it passed the RSIA in 2008, 
it chose not to, so congressionally mandated rulemakings were given 
priority in the rulemaking process. FRA does believe that inward-and 
outward-facing cameras can provide value and will assist in accident 
investigations. That is why in the summer of 2013, while giving 
priority to finishing the 42 Congressional mandates established in the 
RSIA, FRA was involved in various camera projects occurring in the 
industry. Based on what we learned, FRA placed this issue on our 
internal rulemaking agenda in November of 2013 for action in 2014. As 
planned, the Railroad Safety Advisory Committee (RSAC) has accepted the 
task of formulating recommendations on the appropriate design and use 
of locomotive-mounted cameras and will begin RSAC working group 
meetings on the topic this summer, with recommendations due early next 
year.
    FRA is a data-driven agency, dedicated to achieving its safety 
mission for the good of the public, and subject to the highest ethical 
standards. FRA works tremendously hard to ensure that it prioritizes 
its rulemaking endeavors to address the most safety-critical issues in 
the timeliest fashion. Given the 42 individual mandates imposed on the 
agency in the RSIA, FRA has utilized its limited resources in an 
efficient manner in order to advance and address the safety needs of 
the country and industry in a timely fashion. During the five-year 
period from February 1, 2009, to January 31, 2014, FRA published 
approximately 76 major regulatory documents, including 66 advance 
notices of proposed rulemaking, notices of proposed rulemaking (NPRMs), 
and final rules; 3 emergency orders; and 7 interpretations, for an 
average of more than 15 major regulatory documents per year. We are 
also actively involved in many pending rulemakings, including one on 
fatigue management, which will address the issue of sleep apnea and 
other fatigue-related issues.
    We believe our approach to handling and prioritizing rulemakings 
has increased the level of safety across the industry. This is 
evidenced by the historically low accident statistics during the last 
ten calendar years. During this period, total derailments decreased 48 
percent, total train accidents decreased 48 percent, and total highway-
rail grade crossing accidents decreased 32 percent. The year 2012 had 
record low numbers of train accidents, and that safety record was 
surpassed in 2013. But we always owe the public better. Our goal is to 
drive continuous safety improvement. We expect this of ourselves, and 
we expect it of the industry we regulate.

    Question 13. As I raised in your last appearance before this 
committee, an April 2013 DOT IG report found that FRA was delayed on 
issuing rules required of it under the Rail Safety Improvement Act of 
2008 (RSIA). When that report was issued, FRA had not issued 9 of 17 
mandated rules. The report also found inefficiencies in FRA's 
rulemaking process, including failure to properly communicate and share 
documents with the Rail Safety Advisory Committee, also known as the 
RSAC.
    There are still six rules to go. And at the hearing you mentioned 
producing a list that prioritizes the rulemakings with dates as to when 
the rulemakings would be finalized. Can you produce said list?
    Answer. Below is a list of the remaining RSIA-mandated rulemakings, 
in priority order. The dates when these rulemakings will be finalized 
are not known and are particularly hard to predict for rulemakings that 
the Office of Management and Budget (OMB) has determined to be 
significant and therefore subject to Department of Transportation and 
Executive Branch review.

  1.  The final rule on training standards is in review in the 
        Executive Branch.

  2.  The NPRM on risk reduction plans is in review in the Executive 
        Branch.

  3.  The final rule on system safety plans is in review within the 
        Department of Transportation.

  4.  The NPRM to extend the alcohol and drug rule to maintenance-of-
        way workers had been redesignated by OMB as non-significant and 
        is now expected to be published in July.

  5.  The final rule on railroads' reports to the National Crossing 
        Inventory is now expected to be published by August, if the 
        final rule is determined by OMB to be non-significant.

  6.  FRA staff is currently developing the fatigue management plan 
        NPRM. This plan would be a required part of a railroad's system 
        safety or risk reduction plan, alluded to earlier.

  7.  The final rule on emergency escape breathing apparatus is delayed 
        due to competing priorities and the need to reexamine data for 
        an economical option to comply with the RSIA. The rule has been 
        designated by OMB as significant.

  8.  The rulemaking on dark (unsignaled) territory is being held in 
        abeyance because technology implementation plans expected in 
        railroads' risk reduction and system safety plans will likely 
        make the rule unnecessary for safety. (The mandate is for 
        either a rule or guidance.)

    Question 14. I understand we are waiting on the Office of 
Management and Budget (OMB) to release a proposed rule concerning the 
possible need to retrofit DOT-111 cars, which DOT submitted earlier 
this year. I also know that 111 cars account for nearly 70 percent of 
the U.S. tank car fleet, and they have been involved in a number of 
high-profile derailments in the past year.
    This concerns many of my constituents as a CSX train derailed just 
north of New York City last summer. It was carrying trash--but had it 
been carrying crude, it could have been devastating.
    Given this increase in hauling, what is your agency's plan to 
ensure the safe transport of this product, which poses significant 
danger? Does your agency have the resources necessary to address this 
surge in accidents? What actions are you taking in the interim before 
the OMB releases the proposed rule? Can you confirm that any focus on 
crude oil transportation--as critical as it is--will not distract your 
agencies--especially FRA--from other key safety priorities, like those 
affecting passenger and commuter rail?
    Answer. In the last twelve months the Department has taken a number 
of steps to improve the safety of transportation of crude oil by rail. 
These steps include three emergency orders and enforcing compliance 
with existing regulations and emergency orders. The emergency orders 
were intended to: (1) ensure proper securement of trains carrying 
certain hazardous materials in specific volumes, (2) ensure the proper 
classification and packaging of crude oil, and (3) notification of 
first responders of the number of Bakken crude oil trains moving 
through their jurisdictions. FRA has initiated and will continue 
enforcement efforts to ensure industry compliance with the requirements 
of these emergency orders. We are also in the process of codifying 
securement requirements of Emergency Order No. 28.
    Additionally, the Secretary issued a ``Call to Action'' challenging 
all stakeholders, including Chief Executive Officers (CEOs) of member 
companies of the American Petroleum Institute (API) and CEOs of the 
railroads, to identify prevention and mitigation strategies that could 
be implemented quickly to enhance the safe transportation of crude oil 
by rail.
    In response, industry committed to a number of voluntary actions 
intended to mitigate the risk of transporting crude oil by rail. These 
measures address prevention of train accidents and mitigation of their 
consequences, including by improving response to such accidents. FRA 
will work closely with industry to monitor adherence to their 
commitments as well as to provide assistance where needed.
    Finally, FRA is compiling incident and compliance data and 
overlaying this information on identified crude oil routes. This 
information will be assembled in the form of maps that will inform and 
guide coordinated multi-discipline inspection and enforcement 
strategies and initiatives. In addition, FRA's rail integrity rule went 
into effect on March 25, 2014. The rule requires railroads to submit to 
FRA rail internal flaw data. FRA, in turn, is developing a repository 
for this data. This data will provide additional information related to 
identified crude oil routes.
    The focus on crude oil transportation will not detract from other 
safety priorities, especially those affecting passenger rail. FRA has 
actually increased overall safety resource levels and dedicated those 
resources to the safe transport of crude oil by rail. We have added new 
inspector positions and are focusing on all aspects of crude oil train 
movements through the rail network. We have also collaborated with 
PHMSA and industry to help ensure railroads and the crude oil industry 
implement additional safety measures for crude oil transport. We have 
also increased the use of our Automated Track Inspection Program 
(ATIP), and added manned equipment, to cover higher risk routes such as 
crude oil routes. In addition to a comprehensive review of the Metro-
North safety program, we are embarking on additional safety reviews of 
other passenger railroads as necessary. We are also encouraged by the 
level of interest expressed by both intercity passenger and commuter 
railroads in implementing risk reduction programs such as Confidential 
Close Call Reporting Systems, which will help ensure continuous safety 
improvement in an area that is already very safe. And the Passenger 
Rail Division has been working with new operators to ensure the safety 
of new passenger service.
    Safety is FRA's highest priority, and we allocate our resources 
accordingly. As noted above, we have increased overall safety resource 
levels.
                                 ______
                                 
 Response to Written Question Submitted by Hon. Richard Blumenthal to 
                           Hon. Anne S. Ferro
    Question. Your agency uses hours of service (HOS) regulations to 
limit the number of hours a truck driver can operate. This is done to 
prevent fatigue-related accidents in the trucking industry. After years 
of working on this matter, the final rule implementing the HOS 
framework became effective in 2013. The new rules have garnered some 
criticism and some are seeking to roll them back--especially provisions 
related to the 34-hour re-start, even though they went through years of 
public comment and litigation. What impact would rolling back these 
rules have on safety?
    Answer. The Federal Motor Carrier Safety Administration (FMCSA) has 
worked hard to reduce the likelihood of fatigue among drivers of 
commercial motor vehicles (CMVs) and to provide greater opportunity for 
rest through our HOS rule and other initiatives. As stated previously, 
rolling back the once-a-week limit on use of the 34-hour restart that 
FMCSA adopted in its December 2011 final rule would allow employers to 
require their commercial truck drivers to work an average of more than 
80 hours per week and remain behind the wheel on our Nation's highways. 
This would significantly increase the risk of a fatigue-related crash. 
No other mode of transportation allows employers to demand that safety-
sensitive employees work such grueling schedules.
    The current 34-hour provision that has been in effect since July 1, 
2013, limits truck drivers to an average of 70 hours on duty per week. 
FMCSA estimates that limitation on the use of the 34-hour restart will 
save 19 lives per year, prevent hundreds of injuries, and improve 
driver health. Were the legislation currently proposed by Congress 
suspending enforcement of the rule enacted, these safety benefits would 
be lost.
                                 ______
                                 
 Response to Written Questions Submitted by Hon. Richard Blumenthal to 
                       Hon. Cynthia L. Quarterman
    Question 1. I understand we are waiting on the Office of Management 
and Budget (OMB) to release a proposed rule concerning the possible 
need to retrofit DOT-111 cars, which DOT submitted earlier this year. I 
also know that 111 cars account for nearly 70 percent of the U.S. tank 
car fleet, and they have been involved in a number of high-profile 
derailments in the past year. This concerns many of my constituents as 
a CSX train derailed just north of New York City last summer. It was 
carrying trash--but had it been carrying crude, it could have been 
devastating. Given this increase in hauling, what is your agency's plan 
to ensure the safe transport of this product, which poses significant 
danger?
    Answer. With regard to rail safety, PHMSA and FRA have taken a 
comprehensive approach when developing a proposal to reduce risks posed 
by the bulk transport of hazardous materials by rail. Specifically, FRA 
and PHMSA are focusing on methods to prevent accidents and incidents 
from occurring, mitigate the effects of those events that do occur, and 
improve emergency preparedness and response. Aside from the draft 
proposal, the Department has taken numerous actions in the form of 
safety advisories, emergency orders, enforcement actions and 
inspections and crude testing to improve the safe transportation of 
crude by rail. On the prevention front, FRA and PHMSA are working 
together to implement necessary operational controls and rail track 
integrity requirements to lessen the likelihood of accidents. PHMSA has 
requirements in place (Hazardous Materials Regulations) to mitigate the 
effects of potential accidents through appropriate packaging of the 
materials based on classification; and effectively and accurately 
communicating the hazards to transportation workers and first 
responders.
    PHMSA's plan to address the risks posed by the bulk transport of 
hazardous materials by rail includes both non-regulatory and 
regulatory, short-and long-term solutions. This plan includes 
clarifying and improving requirements and conducting outreach to 
stakeholders such as the regulated community, industry, state and local 
government, and emergency response sectors. PHMSA is also collaborating 
and actively engaging all stakeholders with our Hazardous Materials 
Safety Assistance Team and our field operations staff. A list of 
actions taken as part of PHMSA's comprehensive approach to reducing the 
risks and mitigating the consequences of the bulk transport of 
hazardous materials by rail can be viewed at our Operation Safe 
Delivery website (http://www.phmsa.dot.gov/hazmat/osd/chronology).

    Question 2. Does your agency have the resources necessary to 
address this surge in accidents?
    Answer. PHMSA's Office of Hazardous Material Safety (OHMS) includes 
a staff of 175 employees at headquarters and five regional offices, 
including a total of 57 investigators. OHMS's operating budget is 
approximately $45 million. Since October 1, 2014, PHMSA has obligated 
approximately $1.4 million to support investigation and testing, 
regulatory initiatives, and outreach in support of this priority. For 
multi-modal prevention and response activities associated with the safe 
transportation of crude oil, the President's Budget for FY 2015 
requests $40,000,000, This appropriation would provide funds for a 
multi-modal initiative to support prevention and response activities 
associated with the safe transportation of crude oil, including 
enhanced inspection levels, additional safety inspectors, investigative 
efforts, research and data analysis, economic analysis, training and 
outreach, and testing in high risk areas. The funds would be available 
for initiatives within the Federal Railroad Administration, Pipeline 
and Hazardous Materials Safety Administration, and the Federal Motor 
Carrier Safety Administration.

    Question 3. What actions are you taking in the interim before the 
OMB releases the proposed rule?
    Answer. While the proposed rulemaking provides a comprehensive 
proposal to address these risks, PHMSA has continued to actively pursue 
other initiatives to achieve interim safety improvements. A list of all 
actions taken as part of comprehensive approach to preventing and 
mitigating the risks posed by the bulk transport of hazardous materials 
by rail can be viewed at the Operation Safe Delivery website (http://
www.phmsa.dot.gov/hazmat/osd/chronology), the following highlights some 
efforts PHMSA, FRA, and the Department have taken in the interim, while 
a proposed rule is being developed and reviewed.

  <bullet> June 12, 2014--PHMSA hosted a Crude Oil Emergency Response 
        Workgroup Meeting in conjunction with the U.S. Fire 
        Administration--National Fire Academy. The workgroup was 
        comprised of subject matter experts from the emergency response 
        community, rail carriers and the petroleum industry with the 
        goal of providing technical information to better respond 
        incidents involving crude oil.

  <bullet> May 29, 2014--PHMSA convened a Lessons Learned Roundtable 
        Forum where public safety and emergency response officials from 
        jurisdictions where a crude oil or ethanol rail transportation 
        incident occurred came together to share their experiences.

  <bullet> May 7, 2014--USDOT issued Emergency Order requiring railroad 
        carriers to inform first responders about crude oil being 
        transported through their towns and communities.

  <bullet> May 7, 2014--PHMSA and FRA issued a Safety Advisory 
        requesting companies to take steps to avoid the use of DOT 111 
        tank cars when transporting Bakken crude oil.

  <bullet> March 6, 2014--To provide further clarity for shippers and 
        to prevent attempts to circumvent the requirements in the 
        recent Emergency Order concerning the safe transport of crude 
        oil by rail, the Department issued an amended version that 
        specifies which tests are required, while also prohibiting 
        shippers from switching to an alternate classification that 
        involves less stringent packaging.

  <bullet> February 25, 2014--USDOT issues Emergency Order requiring 
        shippers to properly test and classify the crude oil prior to 
        transportation.

  <bullet> February 10, 2014--PHMSA met with emergency response 
        stakeholders and industry groups to discuss training and 
        awareness related to the transport of Bakken crude.

  <bullet> January 21, 2014--Secretary Foxx issued follow-up letter to 
        Call to Action participants summarizing industry commitments.

  <bullet> January 16, 2014--Secretary Foxx met with rail company CEOs 
        and rail and energy association leadership as part of the 
        Department's Call to Action to discuss how to maintain safety 
        record even as domestic crude oil production and movement has 
        increased.

  <bullet> January 2, 2014--PHMSA issued a safety alert to notify the 
        general public, emergency responders, and shippers and carriers 
        that the type of crude oil being transported from the Bakken 
        region may be more flammable than traditional heavy crude.

  <bullet> November 13, 2013--PHMSA and FRA issued a safety advisory 
        reinforcing the importance of proper characterization, 
        classification, and selection of a packing group for Class 3 
        materials.

    Question 4. Can you confirm that any focus on crude oil 
transportation--as critical as it is--will not distract your agencies--
especially FRA--from other key safety priorities, like those affecting 
passenger and commuter rail?
    Answer. The focus on crude oil transportation will not detract from 
other safety priorities, especially those affecting passenger rail. FRA 
has actually increased overall safety resource levels and dedicated 
those resources to the safe transport of crude oil by rail. We have 
added new inspector positions focused on all aspects of crude oil train 
movements through the rail network. PHMSA and FRA have also 
collaborated with industry to help ensure railroads and the crude oil 
industry implement additional safety measures for crude oil transport. 
FRA has increased the use of the Automated Track Inspection Program 
(ATIP), involving manned equipment, to cover higher risk routes such as 
crude oil routes. In addition to a comprehensive review of the Metro-
North safety program, FRA is embarking on additional safety reviews of 
other passenger railroads as necessary. We are also encouraged by the 
level of interest expressed by both intercity passenger and commuter 
railroads in implementing risk reduction programs such as Confidential 
Close Call Reporting Systems, which will help ensure continuous safety 
improvement in an area that is already very safe. The Passenger Rail 
Division has been working with new operators to ensure the safety of 
new passenger service. Safety is the Department's highest priority, and 
we allocate our resources accordingly.

    Question 5. Considering the derailments and fiery explosions we've 
seen arising from the transportation of crude by rail in Canada, North 
Dakota and just recently, Virginia, many states and cities have raised 
concerns about what's moving on the rails through their communities. 
DOT has also called on the industry to provide more data on crude so 
that DOT can better understand how crude should be handled. Do you have 
the data you need to make appropriate assessments of the amount and 
volatility of crude being shipped by rail?
    Answer. As part of rulemaking efforts, PHMSA has developed a 
regulatory impact assessment (RIA) that addresses the issue of the bulk 
transportation of certain flammable materials by rail. This RIA has 
compiled various statistical and economic data that stakeholders 
provided and that PHMSA developed. This data includes, but is not 
limited to, estimates of tank car fleet size, assessments of quantity 
of materials shipped, and impacts of proposed changes. In addition, 
based on PHMSA`s and FRA's testing and sampling efforts, combined with 
the voluntarily submitted testing data by industry, PHMSA better 
understands the properties of crude oil and has used this understanding 
to help develop a comprehensive rulemaking. Further test data will 
continue to be considered in any regulatory action. PHMSA and FRA are 
confident that the proposal, along with public input, will account for 
the unique characteristics of crude oil and improve safety. We look to 
public comment on these proposals and the data that supported their 
development.
    However, PHMSA believes additional data from stakeholders would be 
helpful. The NPRM will be accompanied by the publication of the RIA. 
Both of these documents seek comments from the public on the estimates 
and assumptions used throughout them. Further, with regard to physical 
testing of crude oil, PHMSA continues to evaluate current test methods 
and whether alternative methods will provide more meaningful results. 
As part of this effort, the Agency participates in the American 
Petroleum Institute working group charged with developing industry best 
practices, including those regarding testing and sampling methods for 
crude oil.

    Question 6. The oil industry has released studies in recent weeks 
claiming the Bakken crude is safe to transport by rail using current 
technology. Do you agree?
    Answer. While many of the findings of the industry studies are 
compelling, a number of them can only be verified through additional 
research. For example, do current test methods need to be improved or 
are there new test methods that need to be implemented to better 
characterize crude oil? While PHMSA evaluates these findings, the 
Agency is also actively involved in an American Petroleum Institute 
working group tasked with developing industry best practices, including 
those regarding testing and sampling methods for crude oil. We also 
continue to perform our own testing on crude oil characteristics in the 
Bakken and other shale plays.
    PHMSA recognizes that Bakken crude has more light end materials 
that may present increased safety risks, when compared to other types 
of crude oil; particularly when considering the quantity in which it is 
usually shipped. Bakken crude is a light crude oil and has more gas 
content than conventional crude oil. PHMSA's proposed rule, is intended 
to improve the integrity and safety of not just Bakken crude oil, but 
other flammable materials. PHMSA will seek public comment on all 
aspects of the proposal, to ensure the best available data and 
information is available in the decision making process.
    PHMSA is confident that its proposal, in coordination with public 
input, will account for the unique characteristics of crude oil and 
improve safety, and looks forward to public comment on these proposals 
and the data that supported their development.
                                 ______
                                 
 Response to Written Questions Submitted by Hon. Richard Blumenthal to 
                        Hon. Gregory D. Winfree
    Question 1. The Office of the Assistant Secretary for Research and 
Technology (OST-R) coordinates DOT's research and development programs. 
The Research Office is responsible for integrating research across the 
transportation agencies and modes. And your office has done 
considerable work evaluating close call systems, something that Metro-
North has been urged to adopt. What are the benefits of close call 
systems?
    Answer. The Confidential Close Call Reporting System (C3RS) has 
contributed to noticeable improvements in five key elements of system-
based safety management. Those are: risk identification; collaborative 
problem solving; root cause identification and analysis; implementation 
of corrective actions; and establishing a venue through which unsafe 
and sensitive situations can be openly addressed without fear of 
retribution.
    The Bureau of Transportation Statistics (BTS) has collected close 
call reports from conductors and engineers working for three railroad 
companies (Union Pacific Railroad Company, Canadian Pacific Railroad 
(i.e., its railroads that conduct operations in the United States), and 
New Jersey Transit Rail Operations since February 2007. So far over 
3,500 close call reports have been submitted to BTS. Quantitative 
analysis of these sites indicated:

  <bullet> 90 percent reduction in disciplinary cases;

  <bullet> 31 percent reduction in de-certifications per 200,000 worker 
        hours;

  <bullet> 41 percent reduction in human factors derailments per 
        100,000 cars moved (reportables and non-reportables);

  <bullet> 53 percent reduction in incident cost; and

  <bullet> a significant reduction in derailments caused by running 
        through switches, primarily in rail yards.

    Most importantly, program evaluation analyses confirmed that a 
close call system leads to significant improvement in safety awareness, 
safety culture, and employee engagement by providing a safe, non-
punitive, confidential, non-confrontational model for labor and 
management to jointly develop and implement safety improvements.

    Question 2. How does your research and statistical tracking inform 
safety policy at DOT?
    Answer. The Department of Transportation (DOT) takes a system-wide, 
multi-modal approach to collecting and analyzing safety data. The 
Department is working to standardize data collection, evaluation and, 
ultimately, data-driven decisions to improve safety. Safety research 
comprises 42 percent of the Department's total RD&T funding, which is 
significantly higher than the amount expended on the next-highest goal 
(23 percent, Economic Competitiveness). Through this cross-modal 
approach, safety benefits will be seen across the transportation 
network.
    The DOT Safety Council, which is chaired by the Deputy Secretary, 
is comprised of the heads of the Departmental operating administrations 
and senior staff. It provides a forum for serious current and emerging 
safety issues, both multimodal and particular to a single mode, to be 
brought up, discussed, and then acted upon either by the individual 
operating administrations or by the Safety Council itself. Safety 
Council initiatives include: activity on risk-informed rulemaking, 
near-miss reporting systems, support to the Federal Transit 
Administration (FTA) as it began its safety oversight program, and the 
development of the safety.data.gov web portal.

  <bullet> The Safety Council is currently working on risk-informed 
        rulemaking. It has become increasingly difficult to promulgate 
        safety-related regulations based on the present requirement of 
        linking them through a benefit-cost analysis to lives already 
        lost. The Safety Council is learning from other agencies how 
        they develop proactive regulations based on risk information.

  <bullet> There is significant interest within the DOT on developing 
        and using near-miss precursor data to understand hazards and 
        create remedies before accidents occur that cause lives to be 
        lost. The FAA, FRA and Bureau of Transportation Statistics have 
        presented to the Safety Council on their systems, and aspects 
        are being considered for implementation by other DOT 
        organizations along with a possible DOT-wide near miss data 
        collection system.

  <bullet> When the MAP-21 surface reauthorization was signed into law, 
        the FTA was given safety oversight authority for the first 
        time. As a result, a series of Safety Council meetings were 
        held with then-Administrator Peter Rogoff and his senior staff 
        to afford them the opportunity to understand the challenges and 
        best practices of safety regulation, including the 
        underpinnings of the safety management systems (SMS) approach. 
        As a result, FTA adopted the SMS approach for this new 
        function.

  <bullet> The Safety Council was charged by the White House to bring 
        together safety data from across the Federal Government for 
        public access and use as part of its Open Data initiative. This 
        effort, led by the Bureau of Transportation Statistics, has 
        successfully entered over 1,000 safety data sets from ten 
        cabinet agencies and a number of smaller organizations into the 
        portal, with scheduled data events occurring several times a 
        year and thousands of downloads of the available data.

    Question 3. How much of your work is dedicated to fatigue risk 
issues?
    Answer. Operator fatigue and its safety risks and implications was 
one of the two initial projects undertaken by the Safety Council, the 
other being safety culture, which also influences operator fatigue and 
its mitigation. It is the largest active program for the Safety 
Council, expending about $450,000 over five years. As a result of this 
focused effort the following six work products, led by five separate 
operating units, have been or will be delivered by October 1, 2014:

  1.  A white paper on the current need and state of human fatigue 
        modeling, and specifications to meet anticipated new uses. 
        These specifications are intended to be used within a 
        contracting vehicle such as a Broad Agency Announcement for 
        development of the next generation of these models (FRA led).

  2.  Sponsorship of a commercial motor vehicle workshop on obstructive 
        sleep apnea and a subsequent report on different, potentially 
        effective ways to communicate with operators and the public 
        about this serious condition (FMCSA/FRA co-led).

  3.  Sponsorship of a day-long workshop at the 2012 Transportation 
        Research Board annual meeting on strategies for communicating 
        and addressing operator drowsiness. Workshop attendance was at 
        capacity (30 participants), the majority of whom were 
        representing private sector and labor organizations, within the 
        United States and overseas. A report was generated synopsizing 
        the presentations and the ensuing discussions and outcomes 
        (FRA/FMCSA co-led).

  4.  A general communications toolkit that can be tailored by the 
        individual modal organizations to message the dangers of 
        operator fatigue to different audiences (i.e., the operator, 
        the operator's family, supervisors, executives and the public). 
        The communications offices of the different DOT operating 
        administrations were engaged to understand needs and general 
        themes that may resonate with diverse audiences (FMCSA/OST-R 
        co-led).

  5.  A series of specific logic models were developed for several DOT 
        operating administrations (i.e., Federal Aviation 
        Administration, Federal Motor Carrier Safety Administration, 
        Federal Railroad Administration) and a general model was 
        created linking research and development activities on operator 
        fatigue with related programs, outcomes and impacts. A gap 
        analysis was then conducted that outlined what additional 
        research was still required based on program needs and their 
        anticipated outcomes (Human Factors Coordinating Committee, 
        FRA, OST-R co-led).

  6.  Secretary LaHood wanted assurance that when the operating 
        administrations entered into Hours of Service rulemaking they 
        were all considering the same science and variables, even if 
        ultimately the rules between operating administrations treated 
        them differently (i.e., whether or not napping was allowed). 
        This checklist tool allows both the operating administrations 
        and General Counsel to consider the same set of science and 
        data when undertaking Hours of Service rulemaking (FAA led).

    Question 4. What major safety issues are you seeing in your 
research that may not be at the forefront right now, but will be in the 
years to come?
    Answer. The Safety Council has identified several emerging safety 
issues that are expected to become increasingly problematic.
    The first is the integration of increasingly sophisticated 
automation into vehicles, both commercial and private. Safety issues 
include the trust people place in the automation, and ensuing 
complacency and skill loss; automation failure modes and operator 
awareness and ability to reengage in the driving task; over-reliance on 
the automation, especially when products are being marketed to those 
who might not otherwise be able to operate the vehicle; and lack of 
shared fate (i.e., software programmer vs. human pilot).
    The second area is transportation system vulnerability to cyber 
threats. The Safety Council has identified a number of these threats, 
including the jamming and spoofing of GPS signals, but addressing these 
threats remains a challenge.
    A third area of increasing concern is related to societal 
demographics. People are working later into life and driving remains 
the most common form of transportation for older adults. Keeping 
commercial and private vehicles accessible by this population is 
becoming increasingly possible through automation, but then by default 
over-reliance and the other automation issues described above become 
even more problematic.
    The other end of the age spectrum provides a fourth concern, that 
young adults are increasingly relying on pedestrian, bicycle, and 
transit modes of transportation. Ensuring the safety of all 
transportation users requires thought and actions (i.e., messaging, 
enforcement, new and retrofitted infrastructure that balances the needs 
of all users).
    Another emerging issue is the legalization of marijuana use in some 
states, and how that may ultimately impact transportation safety. In 
addition, the transportation of oil and gas on the Nation's roadways, 
railways and waterways is also considered both a safety and security 
threat and is being monitored by the Safety Council.
                                 ______
                                 
     Response to Written Question Submitted by Hon. John Thune to 
                          Hon. Joseph C. Szabo
    Question. I am pleased that the updated tank car design rule was 
finally transmitted to OMB, especially considering the initial petition 
for this update was submitted to PHMSA in 2011. Does either of you have 
concerns about moving forward with the tank car design rule before you 
have finished your work determining what, if any, unique 
characteristics Bakken crude has? It seems to me that an important 
first step in determining the adequacy of a tank car design would be to 
know if there are unique characteristics of the substance being put 
inside the tank car and what potential hazards these unique 
characteristics might pose.
    Answer. No, PHMSA recognizes that Bakken crude has more light end 
materials and presents its own safety risks, when compared to other 
types of crude oil. Bakken crude is a light crude oil and has more gas 
content than conventional crude oil. However, the PHMSA's proposed 
rule, including the tank car design, is intended to improve the 
integrity and safety of not just transporting Bakken crude oil, but the 
transportation of other flammable materials with safety risks. 
Additionally, PHMSA's proposal will seek public comment to ensure the 
highest level of scrutiny before any changes are adopted.
    Further, in developing the proposal, PHMSA used the data collected 
on crude oil characteristics in conjunction with physical testing of 
tank car integrity and predictive modeling tools to gather data on tank 
car performance in an accident scenario to develop its proposals. PHMSA 
is confident that its proposal, in coordination with public input, will 
account for the unique characteristics of crude oil and improve safety 
and looks forward to public comment on these proposals and the data 
that supported their development.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. John Thune to 
                           Hon. Anne S. Ferro
Compliance, Safety, Accountability (CSA) Program Questions
    Question 1. It is my understanding that CSA was originally created 
as a way to assist FMCSA and its State partners in targeting limited 
enforcement resources on those motor carriers with the highest safety 
risk. This is a goal I support. However, I now understand the FMCSA is 
currently working on a way to formally incorporate CSA into the system 
the agency uses to determine driver fitness, even though there are many 
outstanding questions about the reliability of the CSA system for those 
carriers that have little to no data on record. Does this not concern 
you Administrator Ferro?

    Question 1a. How would the FMCSA account for this in making driver 
fitness determinations?
    Answer. FMCSA proposes to amend the Federal Motor Carrier Safety 
Regulations to adopt a revised methodology for issuance of motor 
carrier safety fitness determinations (SFD). The Agency is not 
proposing to make driver fitness determinations at this time.
    The proposed motor carrier SFD methodology would determine when a 
motor carrier is not fit to operate commercial motor vehicles (CMV) in 
or affecting interstate commerce based on: (1) the carrier's 
performance in relation to five of the Agency's Behavioral Analysis and 
Safety Improvement Categories (BASICS); (2) an investigation; or (3) a 
combination of on-road safety data and investigation information. The 
intended effect of this action is to reduce crashes caused by CMV 
drivers and motor carriers which result in death, injuries, and 
property damage, by more effectively using FMCSA data and resources to 
identify unfit motor carriers and removing them from the Nation's 
roadways. Incorporating on-road safety data into the Agency's SFD 
methodology has been an open recommendation from NTSB for several 
years.
    FMCSA is developing a Notice of Proposed Rulemaking (NPRM) on SFD 
to address the availability and sufficiency of performance data in 
assessing a safety rating. The FMCSA has been clear that using on-road 
safety performance information to determine safety fitness is a 
separate and distinct process from SMS which is only used for 
prioritizing motor carriers for intervention. A relative threshold such 
as that used in SMS has never been presented as an option for this 
process. When the SFD NPRM is released and public comments are 
received, the Agency will carefully evaluate the input from all 
interested parties.

    Question 2. Data accuracy is one of the reoccurring concerns often 
raised with CSA. Part of this data is submitted by the carriers 
themselves, so called census data. In an attempt to increase the 
frequency and accuracy of carrier-generated data, it is my 
understanding that FMCSA announced last fall that it would begin 
deactivating USDOT numbers for carriers that have failed to submit the 
required census data. According to that announcement, deactivations 
were supposed to begin in March for any carrier that had failed to 
update its census data by January 2014. Have these deactivations 
occurred?

    Question 2a. If so, how many carriers have been deactivated?

    Question 2b. Is there a process for them to easily be reactivated?
    Answer. In March 2014, following outreach to carriers and public 
notice of its intent to do so, FMCSA started deactivating the USDOT 
numbers of carriers that failed to complete their biennial update by 
their designated month and year. As of May 2014, FMCSA deactivated over 
56,000 USDOT numbers. Carriers that have their USDOT numbers 
deactivated for failing to complete the biennial update can go online 
to the FMCSA website and update their information. Unless the carrier's 
registration has been suspended or revoked for another reason, once the 
online update is completed, the USDOT number is immediately 
reactivated.

    Question 3. I understand that the FMCSA includes a disclaimer with 
the SMS [Safety Management System] scores, indicating that they should 
not be used to draw safety conclusions and, instead, a carrier's 
official safety rating should be used. It is well known though that 
they are being used that way; in fact, SMS scores are even included on 
the FMCSA's own mobile phone application, SaferBus, designed to provide 
safety information and help consumers select a bus company. Again, 
given the limits on the data and the fact that 72 percent of carriers 
are without any SMS scores, are you not concerned about the impact it 
is having on otherwise safe carriers' businesses?

    Question 3a. What is the FMCSA doing to address these concerns?

    Question 3b. Do you believe this data and related programs should 
be promoted publicly when there are such limits on its usefulness for a 
large number of carriers?
    Answer. FMCSA regulates a diverse industry consisting of more than 
525,000 active interstate truck and bus companies, with fewer than 800 
field operations personnel. To ensure that the Agency allocates its 
resources as effectively as possible, the Compliance, Safety, 
Accountability (CSA) Safety Measurement System (SMS) uses motor carrier 
data from roadside inspections, reportable crashes, and investigations, 
to prioritize motor carriers for safety interventions and identify the 
highest risk carriers before crashes occur.
    SMS is designed to identify patterns of non-compliance and, 
therefore, applies data sufficiency standards (i.e., minimum number of 
inspections). For example, in the driver-related BASICs, SMS requires 
three or more driver inspections.
    Currently, FMCSA has enough data to assess approximately 38 percent 
of the 525,000 active companies. These companies are involved in over 
91 percent of crashes. Therefore, while the Agency continues to focus 
efforts on improving data collection for all carriers, SMS has 
sufficient data to assess companies that are involved in the majority 
of crashes. Other methods FMCSA uses to increase data collection 
include: (1) New Entrant Safety Audits, many of which have limited 
roadside inspection data, and (2) Inspection Selection System (ISS), 
which prioritizes and generates inspection recommendations to roadside 
officers for entities with limited data.
    The Agency is committed to providing a current, informed, and 
comprehensive picture of a motor carrier's safety and compliance 
posture and seeks to ensure understanding among stakeholders as to what 
SMS is, and what it is not. In addition, in November 2013, the Agency 
proposed several new SMS website display changes, with the following 
objectives: (1) provide easier, more intuitive navigation, and user-
friendly features to clarify SMS's role as FMCSA's prioritization tool 
for CSA interventions; (2) provide a ``one-stop-shop'' for FMCSA safety 
information; and (3) retain and provide easy access to detailed 
information and new performance monitoring tools.
    FMCSA will continue to evaluate stakeholder input. The Agency has 
been engaged in and remains committed to a collaborative, transparent, 
data-driven, and research-based process for changes to SMS.

    Question 4. The GAO issued a Report to Congressional Committees 
regarding modifications to the CSA program. It is my understanding that 
the FMCSA has written a letter in response. Would you provide me with 
that response letter?
    Answer. The Departmental letter is attached.
Hours of Service Question
    Question 5. At the hearing you mentioned that you are in the 
process of collecting data on the new hours of service rules that went 
into effect last July. Can you please provide me with more details of 
that data collection including the information on what you are 
collecting, what you hope to show by this data, and when you expect to 
have enough data to draw conclusions? I am particularly interested in 
how this data collection relates to reductions in crashes since the 
rule was put into effect.
    Answer. The Agency has collected and analyzed data on violations of 
the 2013 HOS rules, which showed that a significant percentage of 
violations cited during the first 1 to 2 months after the rule took 
effect were for violation of the new 30-minute break requirement. As 
drivers became more familiar with that requirement we have seen those 
violations taper off. Regarding the effect of the new rules on crashes, 
as the new hours of service rules have only been in effect for one 
year, FMCSA will be looking closely at any change in the number of 
crashes involving commercial motor vehicles, the time of day those 
crashes occurred, and any other circumstances surrounding the crash 
that may help us understand the impact of the new rule. Sufficient 
State-reported crash data for these analyses should be available to 
FMCSA in early 2015. FMCSA is also looking into ways to measure the 
impact the new rule may have on the volume of commercial motor vehicle 
traffic during daytime congestion hours.
Speed Limiter Question
    Question 6. It is my understanding that the FMCSA is working on a 
new rule requiring the use of speed limiters. Can you provide an update 
on where you are in the process?
    Answer. The National Highway Traffic Safety Administration (NHTSA) 
and FMCSA are jointly preparing a notice of proposed rulemaking (NPRM) 
in response to petitions from the American Trucking Associations and 
Roadsafe America that would require: (1) heavy vehicles to be equipped 
with a speed limiting system, and (2) motor carriers operating such 
vehicles in interstate commerce to maintain functional speed limiting 
systems for the service life of the vehicle. This rule would decrease 
the estimated 1,115 fatal crashes annually involving vehicles with a 
gross vehicle weight rating of over 11,793.4 kg (26,000 lbs) on roads 
with posted speed limits of 55 mph or above. The current rulemaking 
schedule posted at http://www.dot
.gov/regulations/report-on-significant-rulemakings indicates an 
estimated publication date of October 23, 2014.

    Question 6a. It is my understanding that Ohio and Illinois each 
standardized their speed limits last year, to allow trucks and other 
motor vehicles to travel at the same maximum speed. Before this change, 
trucks had lower maximum speeds than other motor vehicles. It would 
seem to me that some of the same challenges faced by these states--and 
that motivated them to change their laws--would apply if speed limiters 
were put in place nationwide. Has the FMCSA looked into the reasons for 
these changes?
    Answer. The NHTSA and FMCSA did not examine the bases for recent 
speed limit changes in Ohio and Illinois. However, the Agencies did 
consider the potential impact of speed differentials between light 
vehicles and heavy vehicles prior to NHTSA granting the petitions for 
rulemaking in 2011 (76 FR 78, January 3, 2011). On January 26, 2007, 
NHTSA and FMCSA jointly published a notice requesting public comment on 
the petitions. The Agencies received more than 3,800 comments in 
response to the notice.

    Question 6b. One concern truckers in my home state have about a 
speed limiter rule actually dovetails with a concern they have about 
CSA. As you know, all crashes, no matter who is at fault, are reported 
to CSA. The truckers I have spoken with are afraid that having trucks 
and cars going at different speeds might increase the number of rear 
end collisions they are in, and thus might negatively impact their CSA 
scores. How would you respond to these concerns?
    Answer. The FMCSA acknowledges the concerns of motor carriers about 
the impact that crashes would have on their SMS scores. First, the 
Agency believes the speed differentials between commercial vehicles 
traveling up to 68 miles per hour (the speed limit suggested in the 
petitioners) and other highway traffic approaching from the rear of the 
commercial vehicles is unlikely to increase the risk of a crash beyond 
what motor carriers experience today with the voluntary use of speed 
limiters to improve fuel efficiency. As argued by the American Trucking 
Associations (ATA), many of the Nation's largest truck fleets currently 
limit their speeds to save fuel, and thereby reduce operating expenses. 
The ATA did not indicate that any of these fleets experienced increased 
numbers of motorists striking the rear of the truck.
    Second, the crash score from the BASICs (Behavioral Analysis Safety 
Improvement Categories) is not displayed to the public. This means that 
the public would be aware of the number of crashes a motor carrier has 
experienced but there would be no information indicating how many, if 
any, of the crashes were preventable. The Agency would address 
preventability during any investigation or interventions rather than 
make assumptions about these matters.
                                 ______
                                 
      Response to Written Question Submitted by Hon. Roy Blunt to 
                           Hon. Anne S. Ferro
    Question. FMCSA has been successfully sued at least 5 times in the 
past few years where the agency has not fully complied with law, has 
not adequately considered data, and has not fully justified the cost of 
regulatory decisions. The best example is the case of the three 
lawsuits regarding the hours of service rules. Also a recent GAO report 
found that fewer than 15 of more than 750 individual violations at the 
carrier level had a reliable statistical relationship with crash risk. 
Many FMCSA regulatory requirements are outdated or seem to not lend to 
safety. Does FMCSA recognize some of these shortcomings, and do you 
have plans going forward to address them?
    Answer. The Agency acknowledges that some legal challenges to its 
rulemakings have been successful. It should be kept in mind, however, 
that many FMCSA initiatives--especially those involving hours of 
service--trigger intense disputes among interested parties. Publishing 
a proposed rule for notice and comment is often an occasion for groups 
to put on the record their non-negotiable and mutually incompatible 
positions, which is rarely helpful to FMCSA in crafting a final rule. 
And if that final rule does not satisfy their demands, these parties 
immediately seek legal review. While it is true that the courts 
identified certain procedural errors in earlier HOS rulemakings--which 
FMCSA has corrected--the D.C. Circuit concluded in 2013 that the 
Agency's 2011 final rule was well supported and well-reasoned, and it 
rejected the frontal attacks leveled by several groups.
    With regard to the issue of the GAO report on individual 
violations, when prioritizing a company using the SMS, the Agency does 
not focus on a single violation, instead uses a robust data set of 
roadside inspections, reportable crashes, and investigations to 
prioritize the highest risk carriers before crashes occur, including 
carriers whose patterns of non-compliance are a flag for high-risk 
behavior. The Agency is continually working to improve its process 
through on-line comment tools, Federal Register notices, listening 
sessions, and the Motor Carrier Safety Advisory Committee, seeking and 
utilizing public comment to continuously improve the effectiveness of 
its process and system for identifying high risk carriers.
    FMCSA spends a great deal of time and effort, not only to research 
and write effective and cost effective safety regulations, but also 
preemptively to address arguments likely to be raised by potential 
litigants.
                                 ______
                                 
     Response to Written Question Submitted by Hon. John Thune to 
                       Hon. Cynthia L. Quarterman
    Question. I am pleased that the updated tank car design rule was 
finally transmitted to OMB, especially considering the initial petition 
for this update was submitted to PHMSA in 2011. Does either of you have 
concerns about moving forward with the tank car design rule before you 
have finished your work determining what, if any, unique 
characteristics Bakken crude has? It seems to me that an important 
first step in determining the adequacy of a tank car design would be to 
know if there are unique characteristics of the substance being put 
inside the tank car and what potential hazards these unique 
characteristics might pose.
    Answer. No, PHMSA recognizes that Bakken crude has more light end 
materials and presents its own safety risks, when compared to other 
types of crude oil. Bakken crude is a light crude oil and has more gas 
content than conventional crude oil. However, the PHMSA's proposed 
rule, including the tank car design, is intended to improve the 
integrity and safety of not just transporting Bakken crude oil, but the 
transportation of other flammable materials with safety risks. 
Additionally, PHMSA's proposal will seek public comment to ensure the 
highest level of scrutiny before any changes are adopted.
    Further, in developing the proposal, PHMSA used the data collected 
on crude oil characteristics in conjunction with physical testing of 
tank car integrity and predictive modeling tools to gather data on tank 
car performance in an accident scenario to develop its proposals. PHMSA 
is confident that its proposal, in coordination with public input, will 
account for the unique characteristics of crude oil and improve safety 
and looks forward to public comment on these proposals and the data 
that supported their development.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Roy Blunt to 
                       Hon. Cynthia L. Quarterman
    Question 1. There are considerable Bakken crude testing and survey 
efforts under way by oil producers and shippers. The American Fuel and 
Petroleum Manufacturers recently completed a study based on 1,400 crude 
samples that found Bakken was no more volatile than traditional crude 
or other hazardous liquids transported by rail. A North Dakota 
Petroleum Council also study confirmed this. How will this data be 
utilized by PHMSA, and do you expect it to settle questions surrounding 
Bakken crude and how it compares to other crude types?
    Answer. The Department is a data driven organization, and all 
data--to the greatest extent possible--is incorporated into all of the 
Department's regulatory activities. The data submitted to date and any 
submitted in the future will be analyzed and compared to PHMSA's 
sampling and testing results. Based on the shale oil boom producing 
Bakken and other crude oils, the large volumes and quantities of these 
materials being transported by rail in unit trains over long distances 
is unprecedented. Our focus has been to ensure this method of 
transportation is safe.
    While many of the findings of the American Fuel and Petroleum 
Manufacturers' study are compelling, a number of its findings can only 
be verified through additional research. For example, do current test 
methods need to be improved or are there new test methods that need to 
be implemented to better characterize crude oil? While PHMSA will 
actively evaluate these findings, the Agency is also actively involved 
in an American Petroleum Institute working group tasked with developing 
industry best practices, including those regarding testing and sampling 
methods for crude oil.
    Finally, PHMSA uses the data collected on crude oil characteristics 
in conjunction with physical testing of tank car integrity and 
predictive modeling tools to gather data on tank car performance in 
accident scenarios to develop its proposals.

    Question 2. Will you be requesting more data or do you believe this 
is sufficient?
    Answer. PHMSA always welcomes new information to better inform 
decisions and potential actions.

    Question 3. Will it inform the rulemaking process your department 
already has underway?
    Answer. Yes. PHMSA has used the data collected on crude oil 
characteristics in conjunction with physical testing of tank car 
integrity and predictive modeling tools to gather data on tank car 
performance in accident scenarios to develop its proposals. The 
proposals in our rulemaking will account for the unique characteristics 
of crude oil.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. John Thune to 
                        Hon. Gregory D. Winfree
    Question 1. The Senate Committee on Environment & Public Works 
passed the MAP-21 Reauthorization Act last month, which shifted 
administration over much of OST-R's work, including Intelligent 
Transportation Systems (ITS) and the Bureau of Transportation 
Statistics (BTS), to the Federal Highway Administration. Are you 
supportive of this proposal since it appears to conflict with other 
changes that have been made at OST-R that have elevated certain 
responsibilities?
    Answer. The Environment and Public Works Committee's 
reauthorization proposal, S. 2322, would transfer administration for 
the Intelligent Transportation Systems Joint Program Office (ITS JPO), 
the Bureau of Transportation Statistics (BTS), and the University 
Transportation Centers (UTC) programs from the Office of the Assistant 
Secretary for Research and Technology (OST-R) to the Federal Highway 
Administration (FHWA). These three programs are funded through the 
Highway Trust Fund and cumulatively represent $198.5 million in annual 
authorized funding, over 90 percent of the funding OST-R receives from 
Congress.
    In 2004, these three programs were incorporated into the Research 
and Innovative Technology Administration (RITA) via the Norman Y. 
Mineta Research and Special Programs Improvement Act (P.L. 108-426). 
Just as RITA was intended to be a cross-modal enterprise, each of these 
three programs is inherently multi-modal and was intentionally placed 
within the newly-created RITA:

  <bullet> the ITS research program is a multi-modal hub of research 
        activity and has applications across the surface and maritime 
        operating administrations within the Department;

  <bullet> the UTC program supports cross-cutting research and 
        workforce development across the transportation enterprise; and

  <bullet> BTS provides trusted data and statistics on a multi-modal 
        range from ferries to freight to airlines.

    In January, via the Consolidated Appropriations Act, 2014 (P.L. 
113-76; at Division L, Title I), RITA was elevated into the Office of 
the Secretary as the Office of the Assistant Secretary for Research and 
Technology. Importantly, the Act made no change in mission or 
programmatic structure. This elevation began as a request in the 
President's Fiscal Year 2013 budget request and repeated again in the 
Fiscal Year 2014 proposal. Both budget requests included these three 
programs within OST-R.
    In the first surface transportation legislation enacted since the 
creation of RITA, the Moving Ahead for Progress in the 21st Century Act 
(MAP-21, P.L. 112-141), Congress recognized the importance of these 
multi-modal programs by keeping them in OST-R (then RITA). Keeping the 
programs housed in RITA was consistent with the technical assistance 
offered by the Administration at the time. Furthermore, the 
Administration's current reauthorization proposal, the GROW AMERICA 
Act, recognizes the inherent multi-modality of the ITS JPO, BTS, and 
the UTC program and seeks to keep them within OST-R, as opposed to 
being confined to a single modal ``silo.'' The Highway Trust Fund 
research and statistical programs of the Office of the Assistant 
Secretary will continue their existing missions and remain key 
components of the newly-elevated office. Additionally, the GROW AMERICA 
Act includes authorizing language to cement OST-R within the Office of 
the Secretary.
    RITA's transition into the Secretary's Office is well underway--the 
ITS JPO, BTS, and UTC programs included. Indeed, the Department has 
``hit the ground running'' in adopting the changes enacted into law, is 
transitioning to ensure this new office is the focal point for research 
across DOT, and is looking across the research investments made in all 
of the modes to improve the delivery of transportation research and 
technology programs, and of national statistical programs. 
Organizational change does not happen overnight but, already, what we 
do is being drawn into leadership discussions as part of the Office of 
the Secretary, in a way that it was not when RITA was an Operating 
Administration.

    Question 1a. What consequences would this shift have on OST-R?
    Answer. The ITS JPO, BTS, and UTC programs have a combined 
authorization of $198.5 million in annual funding, via the Highway 
Trust Fund. If these programs were shifted to FHWA for administration, 
OST-R would continue to manage the Department's research coordination 
efforts and the Office of Positioning, Navigation and Timing & Spectrum 
Management. These programs are funded via the General Fund; the budget 
request for Fiscal Year 2015 is $14.625 million. OST-R would continue 
to oversee the Volpe National Transportation Systems Center in 
Cambridge, MA, and the Transportation Safety Institute in Oklahoma 
City, OK, both of which are fee-for-service organizations.

    Question 1b. How would this impact the work done on ITS and at BTS?
    Answer. As its name implies, the Intelligent Transportation Systems 
Joint Program Office (ITS JPO) is shared with FHWA. Specifics of the 
sharing agreement between the two organizations are detailed in a 
Memorandum of Understanding (MOU) formalized in 2006. In short, OST-R 
provides strategic management for the ITS JPO, and program staff are 
accountable to the Assistant Secretary. FHWA provides administrative, 
finance and procurement support. In practical terms, a shift to FHWA 
would shift the programmatic reporting chain for the ITS JPO.
    Authorizing language for BTS in MAP-21 (sec. 52011; 49 USC sections 
6301-6313) makes clear that BTS is intended to be a fully multi-modal 
and comprehensive source of statistics on the performance and impacts 
of the national transportation system, a scope that aligned with RITA's 
mission and continues to align with OST-R's mission. As an OMB-
designated Federal Statistical Agency, the Bureau of Transportation 
Statistics (BTS) is required to ensure the integrity, objectivity, 
impartiality, utility, and confidentiality of information collected for 
statistical purposes, and of the analyses and reports which BTS 
prepares for policy uses and for public release. Past discussions of 
``assigning'' the Bureau to any one modal administration have been met 
with concerns from the stakeholder community about ``loss of 
independence'' or ``loss of objectivity.'' A BTS shift would impact 
FHWA in that the accountability for statistical products would now flow 
through FHWA, and FHWA would need to begin to provide administrative, 
finance and procurement support to BTS, currently provided through OST-
R.
    Both the ITS JPO and BTS are inherently multi-modal and provide 
research applications and statistical support across the transportation 
enterprise generally, and the USDOT specifically. Being housed in OST-R 
structurally will continue a cross-modal focus through which they can 
achieve their missions, delivering multi-modal solutions.

    Question 2. GPS has been identified as a critical component of your 
office's Intelligent Transportation System (ITS). What research is 
being carried out by your office on the further use and integration of 
GPS into surface transportation safety and efficiency? What role does 
precision location play in the future of transportation?
    Answer. The availability and accuracy of the Global Positioning 
System (GPS) offers increased efficiencies and safety for all modes of 
surface transportation. Many of the challenges associated with the 
routing and dispatch of commercial vehicles are significantly reduced 
or eliminated with the use of GPS. Implementation of GPS technology to 
track and forecast the movement of freight has created a logistical 
revolution, including an application known as time-definite delivery. 
GPS-based applications have also transformed the management of mass 
transit systems, road maintenance crews, and emergency vehicles.
    GPS is an essential element of the Intelligent Transportation 
Systems (ITS) Connected Vehicle program designed to increase 
situational awareness and reduce or eliminate crashes through vehicle-
to-vehicle (V2V) and vehicle-to-infrastructure (V2I) data transmission. 
Research is being conducted in the area of advanced driver assistance 
systems, which include road departure and lane change collision 
avoidance systems, among other safety-critical applications.
    Railways are installing Positive Train Control (PTC) systems, many 
of which are GPS-enabled, to prevent collisions, derailments, work zone 
incursions, and passage through switches in the wrong position. A PTC 
system can automatically vary train speeds, and provide real-time 
information to re-route traffic, and safely direct maintenance crews 
onto and off tracks.
    GPS also provides rail dispatchers and passengers more accurate 
information on train arrivals. It enables the automation of track 
surveying and mapping operations. GPS also allows the automation of 
track inspection systems that work much faster and detect more defects 
than human crews, saving time and money while improving safety.
    Per U.S. National Space-Based Positioning, Navigation, and Timing 
(PNT) Policy, the U.S. Department of Transportation has the lead 
responsibility in representing civil Departments and Agencies in the 
development, acquisition, management, and operations of GPS and for the 
development of requirements for civil applications. Within DOT, this 
responsibility resides within the Office of the Assistant Secretary for 
Research and Technology (OST-R).
    OST-R works with all of the DOT modal administrations in defining 
their requirements for positioning, navigation, and timing. These PNT 
requirements are captured in the Federal Radionavigation Plan which is 
developed biennially. OST-R also chairs the Civil GPS Service Interface 
Committee (CGSIC) which is the recognized worldwide forum for effective 
interaction between all civil GPS users and the U.S. GPS authorities, 
as well as the DOT Pos/Nav Working Group to share GPS implementation 
strategies and lessons learned across the modes.
    Looking to the future, sub-meter location accuracies have been 
identified as needed to assist in improving safety and efficiency, 
including 10 cm horizontal accuracy (95 percent integrity) for vehicle 
collision avoidance. Also, there will be an increased focus on the 
integrity of the navigation solution which is the measure of the trust 
that can be placed in the correctness of information supplied by a 
navigation system solution and the ability of the system to provide a 
timely warning to users when the system should not be used for 
navigation.
    GPS alone cannot always meet PNT requirements and, given increased 
awareness of the vulnerability of GPS to interference and spoofing, GPS 
most likely will not be the sole source of positioning for safety 
critical systems in the future. GPS in conjunction with map matching, 
inertial navigation systems (INS), accelerometers, Light Detection and 
Light Detection and Ranging (LIDAR), and other devices and techniques 
will be used to form an integrated approach, ensuring sufficient 
accuracy, availability, and integrity of the navigation and position 
solution to meet user needs.

                                  [all]
</pre></body></html>
